<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]


 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2020

                              ----------                              


                         TUESDAY, APRIL 9, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 3:00 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Lindsey Graham (Chairman) 
presiding.
    Present: Senators Graham, Blunt, Moran, Lankford, Daines, 
Leahy, Durbin, Shaheen, Coons, Murphy, and Van Hollen.

                          DEPARTMENT OF STATE


              opening statement of senator lindsey graham


    Senator Graham. The subcommittee will come to order.
    Thank you, Secretary Pompeo, for coming.
    Our hearing today is on the President's fiscal year 2020 
funding request and budget justification for Department of 
State. I'd like to welcome two new members of the subcommittee 
staff, Katherine Jackson and Sarita Vanka.
    So your written testimony, Mr. Secretary, will be accepted 
for the record. I will make a short opening statement, and the 
floor will be yours, after Senator Leahy.
    Your budget proposal is 21 percent below the fiscal year 
2019 enacted level. It ain't happening.
    So this is the budget. The biggest reduction is in State--
is in our account. I think you've done a great job, Mike, as 
Secretary of State. I've been to Iraq and Afghanistan 54 times. 
You've been there a lot. The one thing I've learned, you're 
never going to win this war against radical Islam by dropping 
bombs alone.
    Count me in with what Secretary Mattis said years ago, if 
you cut the State Department's budget, you need to buy more 
ammo. The best thing to do to defeat this radical ideology is 
invest in the lives of others. A small schoolhouse in a poor 
region of Afghanistan, Iraq, Syria, you name the location--
Africa--can do more damage to radical Islam than any bomb. 
Giving a woman a say about the future of her children is 
absolutely imperative to win this conflict. Developmental aid 
has proven to be a wise national security investment. The 
President's Emergency Plan for AIDS Relief (PEPFAR) alone has 
saved millions of young Africans from certain death from AIDS, 
and the story goes on and on and on and on.
    I'm a pretty hawkish guy, but I believe in the 
International Affairs Budget Function 150 account, and I really 
do thank you, Mr. Secretary. I think you've done a wonderful 
job dealing with complicated issues all over the world, giving 
the President sound advice. It's up to him to take it. I 
appreciate the President listening. Sometimes we disagree, but 
I've never had anyone, as President of the United States, reach 
out and talk to more people than President Trump. Sometimes 
that's good, sometimes it's not, but he's subject to changing 
his mind, and he has, in my view, done a very good job of being 
a better friend to our allies and put our enemies on notice. 
And, Secretary Pompeo, thank you for the job you do, the time 
you spend away from your family, and I think you represent our 
country exceedingly well.
    Senator Leahy.


                 statement of senator patrick j. leahy


    Senator Leahy. Thank you very much, Mr. Chairman. And I'll 
say my former neighbor at the times of the week that I'm in 
Virginia.
    I was actually tempted to submit my opening statement from 
last year's hearing because very little has changed, as we see, 
in the President's budget request. Like last year, we are still 
presented with damaging funding cuts. I don't see any 
explanation for them. We've therefore heard the same vocal 
opposition to this request from the private sector, from 
national security experts, and from a lot of Democrats and 
Republicans in the Congress.
    Mr. Secretary, on a positive note, I appreciate that you've 
lifted the hiring freeze at the State Department. You've begun 
to address the vacancies that were created before you took the 
job, which actually you couldn't have lifted the hiring freeze 
if we had accepted the President's fiscal year 2019 proposal. 
But there's not much else that's changed. We've been asked to 
consider the proposed funding levels not compared to ongoing 
operations in progress, but to the previous year's request as 
though nothing has happened in the world since then. Those 
comparisons are irrelevant, and that proposal was rejected by 
Republicans and Democrats alike in the Congress last year.
    Many of the initiatives, though, that the administration 
has touted, which I think are good initiatives, women's 
economic empowerment, the Indo-Pacific Strategy, the President 
has touted those, but they were made possible only because we 
rejected the cuts in the previous budget. We need to face 
reality that not only does the request cut most of the programs 
highlighted by the administration and its own priorities, but 
with cuts totaling $11.5 billion, virtually every program 
funded by this subcommittee is negatively affected.
    And I would note that in my years on this subcommittee, 
both as Chairman and as Vice Chairman, the bill usually comes 
out with unanimous votes or nearly unanimous vote, but that's 
because you have programs like Fulbright scholarships, food 
security, law enforcement, countering Russian influence, 
reducing poverty and human trafficking, assisting refugees, 
empowering women. These are important programs, but the 
President will use slogans like ``America First,'' but the 
budget says the opposite.
    Now, the administration has highlighted some important 
programs, like PEPFAR, as we all do, but you can't explain how 
if you cut PEPFAR and other programs that cut--combat HIV/AIDS 
by $1.7 billion, it's one thing to say you support these 
programs, but then you cut it. I don't know how that advances 
U.S. interests when the administration talks about having to 
make choices, is it a choice of benefits, is actually a choice 
that is what this country wants to make knowing that it will 
mean countless lives lost that could have been saved? I'd like 
to think that we are in favor of saving lives, not losing them.
    The administration talks about preserving U.S. global 
leadership, so please explain in more than a talking point 
about burden sharing, how refusing to pay our assessments at 
the U.N., costs that we're obligated to pay, how does that 
enhance U.S. leadership?
    When the administration talks about curbing migration, 
explain why cutting the funds that we appropriate to address 
the causes of migration makes sense.
    And when the administration talks about standing up for 
American values, and rightly calls--I agree with the 
administration when they call Nicolas Maduro a tyrant, but then 
how do you explain why a dictator, like Egypt's President El-
Sisi, a dictator, is favored at the White House, Russia's 
President Putin, North Korea's Kim Jong-un, and Turkey's 
President Erdogan are praised as strong leaders, and the Saudi 
Crown Prince, who everyone knows was involved with the murder 
of an American citizen, is treated as an indispensable friend 
and ally?
    So every year we have an opportunity to reassure the world 
that the United States, as I believe it should be, is defender 
of the universal rights of free expression, of free and fair 
elections, of apply the rule of law to the rich and powerful, 
but words are not enough. I've traveled to a number of these 
places with Senator Graham. He's a good friend. And we've seen 
that you can't condemn some tyrants while praising others. And 
if you cut programs that reinforce American values, American 
values, it sends the opposite message.
    So I hope that once again, Mr. Chairman, that the Congress 
can try to be the conscience of the Nation, provide the funding 
for international diplomacy, develop that we know are so 
important, and remember, as you said, plus Secretary Mattis 
said, if you're going to cut this, buy more bullets.
    Senator Graham. Thank you, Senator Leahy.
    The floor is yours, Mr. Secretary.
STATEMENT OF THE HON. MIKE POMPEO, SECRETARY OF STATE
    Secretary Pompeo. Thank you very much, Chairman Graham, 
Ranking Member Leahy, distinguished Members of the 
subcommittee. I won't read my entire statement, but I do have a 
few minutes, so I want to just walk through now. Two years of 
the administration, I am now 9 days short of 1 year of my time 
as Secretary of State.
    Senator Graham. The longest serving member of the Cabinet, 
right?
    [Laughter.]
    Secretary Pompeo. I'm reclaiming my time.
    When the Trump administration first took office, the United 
States of America faced a series of threats. We faced a China 
that wanted to spread its model of economic corruption, 
increase its military power, and perfect its Orwellian control 
of populations. We face in Iran a revolutionary regime that 
wanted to dominate the Middle East and had a guaranteed pathway 
to nuclear weapons following a truly bad nuclear deal. We faced 
a Russia that had invaded Ukraine and had captured Crimea. We 
faced a North Korea nuclear missile proliferation threat, and 
we faced a terror threat that spanned continents. We faced 
petty dictators in the world, like Maduro in Venezuela and 
Assad in Syria.
    The Trump administration has recognized the seriousness of 
the challenges and we responded. I'd like to take a few minutes 
to talk about how we've approached this. We think this has 
truly benefited the American people and their security.
    First, the Trump administration sees the world as it is, 
not as we wish it to be. We've leveled with the American people 
and our friends and partners about the threats that we face. 
This honesty has produced growing bipartisan consensus on 
Capitol Hill about the need to confront Chinese aggression. It 
produced a unanimous consensus inside of NATO that arms control 
agreements like the INF Treaty are worthless if only one party 
adheres to its terms. It produced broad international support 
for the brave people of Venezuela. Basing policy on reality, we 
recognize Jerusalem as Israel's capital, and we recognize 
Israel's sovereignty over the Golan Heights. That's why the 
State Department designated the Islamic Revolutionary Guard 
Corps a terror organization on Monday. We must recognize 
reality.
    Second, we've used creative diplomacy to build coalitions 
to confront our enemies because we neither can nor should do 
everything ourselves. We convinced our NATO allies to spend 
significantly more on their own defense. We rallied the Defeat 
ISIS Coalition, a coalition of over 80 countries, to dismantle 
the caliphate in Iraq and in Syria.
    In Warsaw, we convened more than 60 countries to discuss 
the common threats and shared opportunities in the Middle East 
that included Arab and Israeli leaders talking to one another. 
We're getting the Middle East Strategic Alliance off the 
ground. We built the Indo-Pacific Strategy to do a real pivot 
to Asia. We supported our hemispheric partners in the 
Organization of American States (OAS) and Lima Group as they 
work to support the Venezuelan people. And we forged a global 
coalition at the United Nations to impose the toughest ever 
sanctions on North Korea.
    Third, we're focused on outcomes. This administration 
promised to dismantle the ISIS caliphate, and we've done it. We 
promised to confront China for its trade practices and call 
them out on human rights violations, and we've done it. We 
promised to exit the Iran nuclear deal to exert pressure on 
Tehran to change its murderous ways. We've done that, too. 
We're working every day to protect our citizens at home and 
abroad and advance American prosperity and values and to 
support our allies and partners overseas.
    Finally, when I first became Secretary, I promised to put 
diplomacy at the forefront of defending U.S. national security 
and advancing our interests. I think I've done that, too.
    Here's what's happened in my 11-plus months. We lifted the 
hiring freeze for family members as well. This was a no-
brainer. We brought 2,000 family members who are eligible for 
employment back onto our team. Our promotion rates in the 
foreign services, which were cut in 2017 across the board by 40 
or 50 percent, are now growing again. New foreign service 
officer and foreign service specialist classes are beginning. 
Fifty-five senior leaders have been confirmed by the Senate 
since my first day. Thank you for that. More to follow I hope.
    I'm holding a small group of events all across the world, 
including here in Washington. I call it ``Meet With Mike.'' My 
team can hear from me. We listen to many, many voices directly.
    And back in the States, I've traveled some to tell the 
State Department story here in America to convince Americans 
why diplomacy matters. I've also been recruiting.
    And my recommendation to the President and Senate, 
recognize four individuals to become career ambassadors: David 
Hale, Phil Goldberg, Michele Sison, and Dan Smith. The rest of 
our team knows that these are people that we can all look up 
to.
    There is much more to say, but I'll end here. But for 
discussion in the administration, foreign policy and the $40 
billion budget request for State Department and USAID for 2020.
    And with that, I look forward to your questions.
    [The statement follows:]
                 Prepared Statement of Hon. Mike Pompeo
Chairman Graham, Vice Chairman Leahy, and distinguished Members of the 
subcommittee:

    I appreciate the opportunity to discuss the administration's fiscal 
year 2020 budget request for the State Department and the U.S. Agency 
for International Development.
    To support our National Security Strategy and achieve our foreign 
policy goals, the President has submitted an fiscal year 2020 budget 
request of $40 billion for the State Department and USAID.
    The proposed request will allow us to protect our citizens at home 
and abroad, advance American prosperity and values, and support our 
allies and partners overseas.
    It will promote partner countries' economic and security self-
reliance as they begin to transition away from U.S. assistance 
programs, which the American people have generously underwritten for 
decades.
    We make this request mindful of the burden on American taxpayers, 
and our obligation to deliver exceptional results on their behalf.
    In an era of great power competition, the State Department and 
USAID's work is key to our security, the protection of our freedoms, 
and the promotion of American values.
    China is proactively applying its power and exerting its influence 
in the Indo-Pacific region and beyond. Under President Trump's 
leadership, the United States is responding decisively to China's 
aggressive actions. The United States' future security, prosperity, and 
leadership depends on maintaining a free, open, and secure Indo-
Pacific. To advance the Indo-Pacific strategy, the budget request 
nearly doubles U.S. foreign assistance resources targeting this crucial 
area compared to the fiscal year 2019 request.
    Russia poses threats that have evolved beyond external or military 
aggression, and now include influence operations targeting America and 
the Western world. This budget prioritizes countering Russian malign 
influence in Europe, Eurasia, and Central Asia, and further strengthens 
the Department's own systems against malign actors.
    Our diplomatic efforts toward the final, fully-verified 
denuclearization of North Korea are the most successful that have ever 
been undertaken. We remain committed to that goal. This budget provides 
for our diplomatic outreach to continue, and to continue implementation 
and enforcement of sanctions until we achieve our objective.
    We know that the Islamic Republic of Iran's authoritarian regime 
will continue to use their nation's resources to proliferate conflict 
in Iraq, Yemen, Syria, and beyond. It will continue to bankroll 
terrorist groups like Hamas and Hezbollah.
    The United States will therefore work together with our allies and 
partners to counter Tehran's aggressive actions to undermine peace and 
security in the Middle East and beyond.
    As the people of Venezuela continue to fight for their freedom, the 
budget request includes funding to support democracy and prosperity in 
Venezuela. The budget also requests new authority to support a 
democratic transition in Venezuela, including transferring up to $500 
million to foreign assistance accounts.
    The budget also delivers on the President's commitment to optimize 
the effectiveness of our outdated and fragmented overseas humanitarian 
assistance. It ensures the United States will remain the world's 
largest single donor of humanitarian assistance. The proposal maximizes 
the impact of taxpayer dollars, helps more beneficiaries, and delivers 
the greatest outcomes by consolidating our humanitarian programming in 
a new bureau at USAID. This budget request also preserves the State 
Department's lead role on protection issues, as well as the U.S. 
refugee admissions program. Further, through available funding in 2019 
and 2020, the United States will have on average approximately $9 
billion available per year to support overseas humanitarian programs, 
maintaining the highest level of U.S. overseas humanitarian funding 
ever.
    President Trump has made the protection of religious freedom a key 
priority at home and abroad. The fiscal year 2020 budget supports our 
efforts to continue U.S. leadership in the promotion of global 
religious freedom and the protection of persecuted religious and ethnic 
minorities all around the world. This July, the State Department will 
host the second annual Ministerial to Advance Religious Freedom.
    American assistance is helping to reverse the devastation and 
suffering caused by ISIS and associated terrorist groups. But much work 
remains to be done. Working by, with, and through local partners and 
community leaders, our assistance programs clear explosive remnants of 
war to help keep families safe, restore access to critical health and 
education services, improve economic opportunities, and more.
    As we work to promote economic growth, the fiscal year 2020 budget 
includes a request for $100 million for a new Fund at USAID for the 
White House-led Women's Global Development and Prosperity Initiative. 
Through the Fund, we will work to find and scale proposals that advance 
women's economic empowerment across the developing world, in support of 
the Initiative's goal of reaching 50 million women by 2025.
    There are few efforts as important to this administration and to 
the safety and security of the American people as border security. The 
State Department and USAID budget request will strengthen visa vetting, 
and improve our targeting of illicit pathways that transnational 
criminal organizations use to traffic people, drugs, money, and weapons 
into our Nation.
    President Trump has made it clear that U.S. foreign assistance 
should serve America's interests, and should support countries that 
help us to advance our foreign policy goals. This budget therefore 
maintains critical support for key U.S. allies, including Israel, 
Jordan, Egypt, and Colombia, among others.
    The fiscal year 2020 request also includes $175 million for a 
Diplomatic Progress Fund. These funds will be used to respond to new 
opportunities arising from potential progress in diplomatic and peace 
efforts around the world.
    Finally, the diplomatic challenges we face today are compounded by 
rapid advancements in technology and an ever-changing media 
environment. We need our colleagues to be safe, prepared, and ready to 
take on any challenge at a moment's notice. The fiscal year 2020 budget 
will fully fund State and USAID's current workforce levels, enabling us 
to take on emerging policy challenges. We are also modernizing our 
human resources, IT infrastructure, and organizational structures to 
stay on the cutting edge of 21st century innovation.
    We must continue to put American interests first and remain a 
beacon of freedom to the world. With the support of Congress, and 
through the strategic, efficient use of resources, this budget will do 
just that.
    Thank you.

    Senator Graham. Well, thank you very much. We'll do 6-
minute rounds for questions. We've got a hard stop at 4:30. Do 
the math. We'll try to plow through and have some time for a 
second round if possible. But thank you for coming.
    If the subcommittee restores the funding, if we reject the 
budget and go back to the last year's budget, could you spend 
the money wisely?
    Secretary Pompeo. Yes.
    Senator Graham. Thank you. Outcomes. One, I think you're 
doing a great job. Morale is better. You're spending a lot of 
time explaining the State Department to people here at home. I 
think you should travel more in the United States. That's hard 
to ask of a guy who spends his life on an airplane, but it's 
really important to tell the State Department's story, and I 
think you do it very well.

                              AFGHANISTAN

    Afghanistan. The outcome is peace with dignity for women in 
Afghanistan. Is that correct?
    Secretary Pompeo. That's correct. Also making sure that 
America's counterterrorism interests are protected as well.
    Senator Graham. So we have two goals: make sure that people 
like ISIS and Al Qaeda types, who will never come to the peace 
table, they do not recapture, take over, Afghanistan. Correct?
    Secretary Pompeo. That's correct, sir.
    Senator Graham. And if we reintegrate the Taliban back into 
the Afghan community writ large, that we do so on our terms, 
not theirs.
    Secretary Pompeo. That's correct.

                                 SYRIA

    Senator Graham. Thank you. Syria. The stabilizing force 
that we're talking about will have more Europeans, and our 
numbers will go down in terms of boots on the ground. Is that 
correct? Is that the proposal?
    Secretary Pompeo. That's the discussion that's underway; 
yes, Senator.
    Senator Graham. Do you agree with me that having a 
stabilizing force is the best insurance policy against the 
return of ISIS?
    Secretary Pompeo. The President has directed we do 
everything necessary to ensure that there is not an ISIS 3.0 
or, frankly, the disasters in Idlib don't befall us.
    Senator Graham. Right. Do you agree with me that having a 
stabilizing force in northeastern Syria will prevent Iran from 
coming down and taking over their oil?
    Secretary Pompeo. It is an important part of our overall 
Middle East strategy, including our counter-Iran strategy.
    Senator Graham. So containing Iran would include having a 
policy in Syria that would keep them from benefiting from our 
withdrawal.
    Secretary Pompeo. That's right. That's one piece of it; 
yes, Senator.
    Senator Graham. Okay. So there is a small contingent of 
forces down at Al-Tanf that interdicts the flow of weapons from 
Beirut to Tehran. Is that correct?
    Secretary Pompeo. It also performs important 
counterterrorism mission as well.
    Senator Graham. Okay. So I think keeping that contingent 
there is a good outcome for America because we want to protect 
Israel against an increasingly armed Syria.

                                 TURKEY

    Turkey is a NATO ally with plenty of problems. Have you 
told Turkey that if they deploy the S-400, they can't be part 
of the F-35 program?
    Secretary Pompeo. Yes.

                      FRAGILE STATES AND THE SAHEL

    Senator Graham. Okay. When it comes to Africa, are you 
familiar with the Final Report of the Task Force on Extremism 
in Fragile States entitled ``Preventing Extremism in Fragile 
States: A New Approach'', February 2019, conducted by the 
United States Institute of Peace?
    Secretary Pompeo. I am.
    Senator Graham. In terms of outcome, do you believe that 
when it comes to Sahel and other regions, you pay now or you 
pay later?
    Secretary Pompeo. It is a difficult place, and I have seen 
legislation that's proposed for Fragile State, and legislation 
that has been proposed, and the objective there is something 
the State Department agrees with.

                              NORTH KOREA

    Senator Graham. Thank you. When it comes to North Korea, 
what is the objective--the outcome we seek?
    Secretary Pompeo. The outcome is a fully verifiably 
denuclearized peninsula and greater peace, less risk, and 
conventional means, and hopefully a brighter future for the 
North Korean people as well.

                               VENEZUELA

    Senator Graham. In Venezuela, what's the outcome?
    Secretary Pompeo. We will continue to support democracy for 
the Venezuelan people along with our partners in the region.
    Senator Graham. What's the prospect of that happening 
anytime soon?
    Secretary Pompeo. I try to stay out of the prediction 
business.
    Senator Graham. Fair enough.
    Secretary Pompeo. The things I can control, the efforts 
that we're making, I think are working in the right direction. 
I think we have supported the properly designated leader, Juan 
Guaido, in a way that has been good at helping build out what 
the Venezuelan people have demanded, and our partners in the 
region have been spectacular as well.

                                  IRAN

    Senator Graham. When it comes to Iran, the designation of 
the Islamic Revolutionary Guard Corps as a Foreign Terrorist 
Organization: do you think that's justified? Obviously, you do 
or you wouldn't have done it.
    Secretary Pompeo. I do.
    Senator Graham. Give us 15 seconds why.
    Secretary Pompeo. It continues to raise the cost for 
Iranian terror around the world. It recognizes a basic reality: 
it's a terror group. We should not forget I had a group of a 
handful of folks who were held in 1979. It was originally 52 
folks, 444 days. They reminded me that many of the Iranian 
leaders today are the very individuals that beat them, 
blindfolded them, handcuffed them, in the American Embassy in 
Tehran. This is a long-time challenge pushing back against 
Iran, and the designation we made yesterday will further 
restrict their access to wealth to spread terror around the 
world.
    Senator Graham. Do you agree with me that of all the nation 
states on the planet, Iran is near the top of the list, if not 
top, in terms of being destabilizing and destructive?
    Secretary Pompeo. Absolutely.
    Senator Graham. So the outcome that we seek against Iran is 
what?
    Secretary Pompeo. We laid out 12 things we asked the 
Iranian leadership to do, and we are supporting the Iranian 
people and helping to change the desires and the actions of the 
Iranian government.

                                 ISRAEL

    Senator Graham. When it comes to Israel, the outcome we 
seek is what?
    Secretary Pompeo. Tell me what you're thinking there, 
Senator?
    Senator Graham. When it comes to Israel, what is the 
outcome----
    Secretary Pompeo. They're a great partner, a great ally. 
They're the premier democracy in the Middle East. They're a 
great partner and important for American national security and 
a great partner more broadly as well.
    Senator Graham. Well, thank you for the terrific job you 
and your folks are doing in very difficult circumstances and in 
dangerous places. And to me, the State Department people who 
are in USAID and other places are risking their lives for a 
noble cause.
    Thank you.
    Senator Leahy.

                            FOREIGN LEADERS

    Senator Leahy. Thank you. Mr. Secretary, you were quoted in 
the press referring to Nicolas Maduro as a tyrant after he 
ordered his army to block the entry of humanitarian aid. I 
think you'll find every single Senator here, Republican and 
Democrat, would agree with you. But I think we also have to be 
consistent if we're going to be taken seriously. Would you 
agree that your description of Maduro also applies to North 
Korea's leader, Kim Jong-un?
    Secretary Pompeo. Sure. I'm sure I've said that.
    Senator Leahy. What about Egypt's President Sisi?
    Secretary Pompeo. You know, I would not use that 
characterization.
    Senator Leahy. Okay. Even though he locked up political 
opponents who claimed victory after a sham election?
    Secretary Pompeo. Senator, there's no doubt that it's a 
mean nasty world out there, but not every one of these leaders 
is the same. Some of them are trying to wipe entire nations off 
the face of the earth, and others are actually partnering with 
us to help keep Americans safe. There's a difference among 
leaders. You might call them ``tyrant,'' you might call them 
``authoritarian,'' but there's a fundamental difference, and, 
therefore, a fundamental difference in the way the United 
States should respond.
    Senator Leahy. I just want to make sure I've got it 
straight. Maduro is a tyrant. Kim Jong-un is a tyrant. Sisi has 
changed the constitution, locking up thousands of political 
opponents and dissidents to try to stay in power, holding 
journalists and others, but he is not a tyrant.
    Secretary Pompeo. We have not been remotely bashful. You 
simply need to read the State Department's Human Rights Report 
about calling out human rights violations. Everywhere and 
always we are entirely consistent with respect to that, and we 
use tools in America's arsenal to push back against that 
wherever they can, different tools, different places, different 
challenges.
    Senator Leahy. Of course, the President calls him a great 
friend as a tool to push back on him?
    Secretary Pompeo. The President gets to choose his own 
words how he speaks about these people. There is no doubt the 
Egyptians have been an important security partner helping us 
take down terror threats in the Sinai that have reduced risk to 
the United States of America. There is no doubt about that, and 
for that, I am deeply appreciative of President Sisi. He has 
also been remarkably good with respect to religious freedom. I 
had a chance to travel there, see it. He has been a remarkable 
beacon in the Middle East for religious freedom.
    Senator Leahy. Does he do the same for press freedom?
    Secretary Pompeo. We've called out the places where 
President Sisi has not treated the press in the way that are 
consistent with America's values. We are not bashful about 
that. He is here today. I met with him yesterday. We talked 
about these very issues yesterday, asking him to do better, 
asking him to, certainly with respect to Americans, do better 
as well.
    Senator Leahy. Do you think he will?
    Secretary Pompeo. I hope so. We certainly placed it 
squarely on something that we're demanding from----
    Senator Leahy. I think the thousands of political opponents 
and dissidents he's locked up hope he will do better.
    Secretary Pompeo. I'm sure they do, Senator.

                                  CUBA

    Senator Leahy. The career officials at the Office of 
Foreign Assets Control (OFAC) determined that the major league 
baseball could enter into an agreement with the Cuban Baseball 
Federation so that they can have the safe entry of Cuban 
players into major league baseball, so to stop the human 
trafficking of players up here. I think the final agreement was 
entered into under the Trump administration. And now the Trump 
administration has torn that up and said that they--they won't 
change.
    Secretary Pompeo. We gained additional information which 
made very clear that the beneficiary of these deals were people 
that weren't advancing democracy, weren't advancing the very 
human rights that I know, Senator, you are so concerned about, 
and we wanted to stop that. We wanted money not to go to those 
individuals. That's why we changed.
    Senator Leahy. So are you going----
    Secretary Pompeo. New data, new facts, new policy.
    Senator Leahy. Are you going to do the same with Egypt, 
Saudi Arabia, or has that----
    Secretary Pompeo. We'll use every appropriate tool to try 
and change behavior every place we find it inconsistent with 
American values.

                          GLOBAL MAGNITSKY ACT

    Senator Leahy. Well, let me go to one of those. Chairman 
Graham and I and our counterparts in the Foreign Relations 
Committee and I think 18 other Senators requested the 
President--this was last October--to make a determination on 
the imposition of sanctions under the Global Magnitsky Act with 
respect to the murder of Jamal Khashoggi. He's not done so even 
though the Magnitsky Act explicitly requires him to. Are we in 
violation of that law?
    Secretary Pompeo. No.
    Senator Leahy. Why?
    Secretary Pompeo. We are continuing to pursue facts just as 
with the other individuals that we sanctioned under Global 
Magnitsky. We, the United States Government, sanction under 
Global Magnitsky when we find the facts. We will apply the law 
appropriately. We've done so consistently during my entire time 
as Secretary of State.
    Senator Leahy. Well, the facts, I remember without going 
into classified things here, I remember coming out of one of 
the meetings of it. It wasn't, as you said, it wasn't a smoking 
gun, it was a smoking saw.
    Senator Graham. Yes, that was pretty good, a smoking saw.
    Senator Leahy. Okay. You applied losses explicitly, that 
the Secretary of State has credible information, not proof, but 
credible information that a foreign official has committed a 
gross violation of human rights, they're ineligible to enter 
the United States. You denied entry to 16 Saudis for their 
involvement. If the Crown Prince ought to travel to the U.S., 
and you've read the same intelligence that Senator Graham and I 
have, would you then deny him entry?
    Secretary Pompeo. My commitment and President Trump's 
commitment from the first time we learned of the murder of 
Jamal Khashoggi is that we would apply the facts as we learned 
them to the law as it exists to everyplace, and that we would 
continue to pursue the facts as well so we got to the right 
answer.
    Senator Leahy. Okay, but you didn't answer my question.
    Secretary Pompeo. That's what we'll do. If he seeks to come 
here, that's what we'll do.
    Senator Graham. Absolutely.
    Senator Leahy. So then my other question is for the record, 
and I hope this time when I submit questions for the record, 
they will actually get answered.
    Secretary Pompeo. I'll do my best, Senator.
    Senator Graham. Thank you, Senator----
    Senator Leahy. You didn't last time, but thank you.
    Senator Graham. Thank you, Senator Leahy.
    Senator Moran.
    Senator Moran. Chairman, thank you.

                    DEMOCRATIC REPUBLIC OF THE CONGO

    Secretary, welcome. Thank you for your service and your 
presence with us today. Travel with me, if you would, around 
the globe. Let me start with the Democratic Republic of the 
Congo for a home State issue. Michael Sharp was assassinated. 
He's a U.N.--was a U.N. worker in the Democratic Republic of 
Congo. He comes from Kansas. That occurred in March of 2017. 
There is evidence to believe that the assassination was 
conducted by the security forces of the previous President, 
Joseph Kabila. We have had, as recently as last month, 
conversations with the U.N. Secretary. I and others are 
dissatisfied with the U.N. investigation. What, if any, role 
has the State Department or will the State Department play in 
the attempt to provide justice for Mr. Sharp's family?
    Secretary Pompeo. So if I may speak without talking about 
the particular case, but I'll tell you what we do in instances 
just like this one. I'm happy to give you a briefing on exactly 
what we've done in this particular instance, but the State 
Department is always involved when there's an incident like the 
one you described. We work with the local law enforcement as to 
other elements of the United States Government to try and get 
the facts. Where there is a U.N. investigation, as you 
described here, we work to push the U.N. to get it right, to 
make sure, too, that they have the resources they need in the 
theater in that space to get it right, too. We work to help 
them develop relationships and carry out conversations so that 
we can get answers for the American people, in this case, a 
Kansan.
    Senator Moran. Mr. Secretary, if you would, or someone at 
your--your bequest, on your behalf, visit with me about this 
specific case, I would welcome the conversation.
    Secretary Pompeo. Yes, sir. Absolutely.
    Senator Moran. Thank you.

                              SAUDI ARABIA

    Mr. Secretary, let's go to Saudi Arabia. We know they have 
detained American citizens in the past, have done so as 
recently as last week. This is behavior that I would put to 
other countries that we would find very objectionable. Would 
you agree that these actions are unacceptable and warrant 
consequences? What's--what's the plan?
    Secretary Pompeo. Yes. Anytime someone wrongfully detains 
an American citizen, there has to be an American response.
    Senator Moran. And we have had that response, or that 
response is occurring?
    Secretary Pompeo. I have spoken to the senior leadership in 
the Kingdom of Saudi Arabia from the King on down about every 
instance where we have found human rights abuses, wrongful 
detentions, or even the fact that we believe one of those 
events may have occurred, and in every conversation, we 
continue to do that.
    Senator Moran. Mr. Secretary, have you seen any evidence of 
changing behavior or hope for change in behavior?
    Secretary Pompeo. I'll give an example. The work that we're 
doing in Yemen to try and get a decrease in the violence in 
Stockholm, the Saudis were instrumental in getting that 
agreement completed. It was good. It created opportunity for 
there to be foodstuffs and medicine could move through the port 
of Hudaida. We have not yet successfully been able to implement 
that, but the Saudis have invested and committed resources, and 
the Crown Prince himself has worked to try and implement that 
agreement as an example of something that the Kingdom of Saudi 
Arabia has been doing to reduce violence, protect Americans, 
and keep us all safe.

                              MIDDLE EAST

    Senator Moran. Mr. Secretary, let's go to the Middle East. 
There needs to be a focus, in my view, on promoting good 
governance and economic opportunity in the liberated areas from 
ISIS so as to deny ongoing support to the groups that would 
comprise ISIS. What's the current status of rebuilding those 
areas that were liberated from ISIS?
    Secretary Pompeo. Senator, not much progress has been made 
to date, but not only the United States, but European countries 
and others have lined up resources to begin to do that. There 
is still not a whole lot of real estate in Syria where it's 
possible to begin to do even stabilization, let alone 
reconstruction. It's still pretty difficult. But our team, the 
State Department team, is on the ground there working to create 
the conditions where we can begin to do the things we need to 
do, first the stabilization operation, so that we can prevent 
the resurgence of these terror activities, both in eastern 
Syria and in western Iraq.
    Senator Moran. How about Egypt? The administration is--
what--what is the administration doing to stop Egypt from 
purchasing Russian SU-35 jets? What sanctions, as required by 
law, will State implement against the Egyptians if they carry 
through with that purchase?
    Secretary Pompeo. We've made clear that if those systems 
were to be purchased, that statute CAATSA would require 
sanctions on the regime. We have received assurances from them 
that they understand that, and I'm very hopeful that they will 
decide not to move forward with that acquisition.
    Senator Moran. That's good to hear.

                               VENEZUELA

    Mr. Secretary, Venezuela, in our own hemisphere, I assume 
will need billions of dollars in reconstruction assistance to 
repair its infrastructure. There's a request for authority to 
transfer $500 million, but I assume more money will be 
required. What are--what are your expectations, and what are we 
doing with our friends and allies in regard to Venezuela's 
future?
    Secretary Pompeo. Yes. Once we're successful in supporting 
Venezuelan democracy, there will be billions of dollars of 
investment required. The Maduro regime over coming on now years 
and years has destroyed the infrastructure there, including the 
oil infrastructure that is the capacity of great wealth for 
their people. I've seen numbers that range from $10 to $50 
billion worth of investment. It will come from the United 
States, but largely from other countries around the world, too. 
The Europeans are anxious to participate in that. I'm convinced 
that each of the some 50 countries that are with Juan Guaido 
will participate in that. And then I'm also very hopeful that 
the private sector, that we'll be able to create conditions, 
rule of law conditions, sufficient that countries will be 
comfortable that they won't have their equipment and people 
nationalized yet one more time in Venezuela, and they can 
return to make the real investments that it will take to 
ultimately stand up to Venezuelan economy.
    Senator Moran. Mr. Secretary, thank you for your testimony.
    Senator Graham. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. I thought my more 
senior Senator on my left was to be next, but I appreciate----
    Senator Graham. I've got the list. I'll check----
    Senator Shaheen. I appreciate walking in first. Thank you.
    Senator Graham. It was a photo finish, but we looked at the 
tape.
    [Laughter.]

                       PEOPLE'S REPUBLIC OF CHINA

    Senator Shaheen. Mr. Secretary, thank you for being here. I 
am puzzled, however, because you talked in your opening remarks 
about the threat from China, and you also talked about the 
importance of diplomacy, which I very much appreciate. I think, 
as you point out, you have refocused on the importance of our 
State Department employees and the great work that our American 
diplomats do around the world. And yet the State Department's 
proposed budget, as the chairman has pointed out, requests the 
largest drop for any Cabinet Department by total dollars, and 
by percentage, it's 24 percent.
    And yet at the same time, we have seen over a period of the 
last few years an increase in the Chinese diplomatic budget. So 
from 2011 to 2017, China nearly doubled its budget. I know you 
know these numbers. Their spending increased by 12.3 percent in 
2018. Just last month before the Chinese Parliament, Beijing 
presented a budget for 2019 that would increase foreign affairs 
spending by another 7.4 percent. American diplomats are already 
outnumbered 5 to 1 by Chinese diplomats doing economic and 
commercial work in Africa and elsewhere. And we hear from 
ambassadors of many of these countries who say to Members of 
Congress they'd rather do business with the U.S., but they 
can't find us.
    So I just wonder if you can talk about how this soft power 
dynamic is influencing our ability to win our competition with 
China.
    Secretary Pompeo. So it is the case that the Chinese use 
multiple tools of soft power. Their diplomats are a small part 
of that. But they don't as neatly separate their private sector 
from their diplomatic sector; frankly, for that matter, from 
their military as well. And if you looked at the resources they 
are providing to the military, you would see numbers that were 
similarly aggressive or demonstrated aggressiveness around the 
world, and then you'd see investment in places like Africa, 
Asia, South Asia, places that you might not have expected them.
    The administration has taken this threat seriously. I'll be 
honest, we're late, America is late. I think Europe was late to 
recognize this threat, too. But are now very focused on this, 
and I don't want to take up a lot of time, but we have a number 
of programs, including the BUILD Act that was passed last year 
that I am convinced we'll begin to turn the corner, but it's 
going to take determination.
    Senator Shaheen. Thank you, Mr. Secretary. I don't want to 
interrupt, but I appreciate that. I'm on the subcommittee, so I 
know that we passed the BUILD Act. But I guess what I'm trying 
to reconcile here is the commitment that you say exists, and 
yet it's not reflected in the budget request for the State 
Department. So I just--I think this subcommittee feels 
differently about the need to support diplomacy and the State 
Department budget, and I hope, as you said to the Chairman, 
that you will make good use of whatever dollars that we fund.

                            FAMILY PLANNING

    I want to switch topics, if I can, to the expansion of the 
Mexico City policy. I know that you and I disagree about 
women's reproductive rights, but I thought we agreed about the 
importance of ensuring that people could get access to health 
care. And yet what we've seen from the expansion of this Mexico 
City policy where we have reports about the impact is a real 
negative impact on maternal health, on families.
    We have, according to Marie Stopes International, they 
currently have a funding gap of $50 million as a direct result 
of this policy, and that translates to 1.4 million fewer women 
with access to contraception services, 600,000 more unsafe 
abortions, 4,600 avoidable maternal deaths, the Mozambican 
Association for Family Development will lose 60 percent of its 
budget next year, 10 of its 20 health clinics will close, and 
30 percent of its staff will be laid off. In Swaziland, the 
group has lost a quarter of its funding, and as a result, is 
now only able to serve 4 towns out of 14. In Botswana, 60 
percent of funding is under threat. And while one clinic has 
already closed, seven others have scaled back to a bare 
minimum.
    So, in fact, despite some of the previous testimony that 
I've seen, the data is unmistakable. This is having a huge 
impact on the health of women and families around the world. 
And so how can--I mean, I think we can all agree that we want 
to ensure that the United States' policies support health care 
for people in this country, and yet this policy is undermining 
that for women. Can you justify why you think this is in fact 
helping and not hurting?
    Secretary Pompeo. Senator, the policies that I announced 
now a couple weeks back don't reduce funding for health care by 
a single dollar, not one dollar. There was not a budgetary 
announcement in there. Every single dollar that was program 
spend appropriated will continued to be program spend 
appropriated. What I was seeking to do was close loopholes in 
the policy that were permitting end runs around the Mexico City 
policy that prevents taxpayer dollars from going to abortions 
and abortion-related services. That's the mission, and while 
doing so in a way that preserves all of the resources that are 
there for health care.
    Senator Shaheen. But, in fact, that hasn't been the 
outcome, and as you point out, you are, as the Secretary of 
State, focused on outcomes, and the outcomes of this expanded 
policy is very clear, it's shown up in every independent study 
that has looked at what the impact of the policy is.
    Thank you, Mr. Chairman.
    Senator Graham. Thank you.
    Senator Blunt.
    Senator Blunt. Thank you, Chairman.

                      VENEZUELA IMPACT ON COLOMBIA

    Thank you, Secretary, for being here. Let's go back to 
Venezuela a little bit and talk about impact on Colombia. 
Probably in Colombia, the two biggest problems right now would 
be the refugees and economic impact of the refugees and the 
increased production of coca and drugs. So let's talk about 
that a little bit, and if you want to work that into what we're 
hoping to do with Peace Colombia, I'd like to hear what those 
dollar figures might look like on Peace Colombia as well.
    Secretary Pompeo. So, Senator, the challenges in Venezuela 
are absolutely moving their way in and through Colombia. It 
originally began as a border set of issues, and now have moved 
even further. You identified the cost of the folks who have 
fled Venezuela, now some 3 million, so 10 percent, of the 
population in Venezuela. Our best analysis says there will be 
another 2 to 2\1/2\ million people flee during calendar year 
2019, a big burden on Colombia.
    It also makes issues of keeping security at the border more 
difficult, so groups like the National Liberation Army (ELN), 
the remnants of the Revolutionary Armed Forces of Columbia 
(FARC), now having more people who are subject to their 
influence. And then, lastly, it's very difficult for 
counternarcotics. As these folks come across, it makes the 
Colombia burden even that much greater. So our efforts in 
Colombia to support President Duque--I'll actually be there on 
Sunday of this week to go visit our things we are going to have 
to revisit as this problem continues to grow. We think we have 
enough money in the budget to help the Colombians with the 
things they can actually achieve throughput on during this 
fiscal year, but it could be as this--if there continues to be 
an increase in the number of people leaving Venezuela for 
Colombia, that problem increases, and we might need more 
resources, it's possible.
    Senator Blunt. Well, I think we need to watch that closely. 
And there's a point here to where if you're going to reverse 
what's happened in the last couple years and the increased drug 
trade and papa--and poppy growth, the opioid poppy growth, it's 
a moment where we need to be committed financially as well as 
with our other--other resources. Colombia in many ways is 
important to us in South America as maybe Jordan is in the 
Middle East. I think there's a lot of similarity between they 
can do things that we would do better than we do them in both 
cases because they're--they're doing what we'd like to do 
instead of us being in there giving the directions.

                            SYRIAN REFUGEES

    And so the other refugee, what are we doing with State 
Department programs to help with the Syrian refugee problem, 
particularly as it relates to Jordan?
    Secretary Pompeo. So you have significant refugees 
remaining still in Turkey and in Lebanon as well as in Jordan, 
where we work with the Jordanians to try to create situations 
on the ground in Syria in certain pockets where there can be a 
safe and voluntary return. We're only a fraction of the way on 
the way in being able to actually demonstrate that at a volume 
that matters to the Jordanians. In the interim, we're providing 
resources and participating in forums where the Arab states are 
also contributing significantly to ensuring that Jordan has the 
resources to take care of those refugees in what is now a 
multiyear problem. You've got kids who were born in some of 
those camps who are now, by America's standards, kindergarten 
age. It's a real challenge.
    Senator Blunt. What about Lebanon and Turkey? The same 
issue?
    Secretary Pompeo. The same set of issues. Each of them has 
treated the refugees slightly differently, has chosen different 
approaches. There aren't big camps in Lebanon in the same way 
there are inside of Jordan. They've dispersed throughout Turkey 
as well, but each of those three countries has borne an 
enormous burden from the conflict in Syria.
    Senator Blunt. What are you doing in this budget for 
Embassy security?
    Secretary Pompeo. We think the number that we have proposed 
is more than adequate for Embassy security.
    Senator Blunt. How does it compare to the number we 
appropriated last year?
    Secretary Pompeo. I don't recall. I would have to go get 
that number for you. I don't know the number.

                    INTERNATIONAL RELIGIOUS FREEDOM

    Senator Blunt. Maybe somebody back there has that number 
while we go to one other issue while they're looking for that, 
and I'd like to know this number, this year's proposal versus 
last year's number. And on the religious freedom issues, 
Ambassador Brownback has taken an aggressive role there----
    Secretary Pompeo. Yes.
    Senator Blunt [continuing]. And a broad view of the world 
in his travels and his efforts.
    Secretary Pompeo. He has. We've been working on this all 
across the world. We've been speaking out recently about the 
challenges in China to religious freedom, not just the Uyghurs, 
but even more broadly than that. The absence of religious 
freedom there is of historic proportions.
    Senator Blunt. And I think Ambassador Brownback really has 
taken a position on religious freedom versus just the more 
narrow freedom to worship, and these countries where allow 
freedom to worship, but don't allow people to express their 
religion beyond that. And I think that's an important thing for 
him to do.
    I don't know if you've got a number there behind you or 
not, but I think----
    Secretary Pompeo. It doesn't look like I do just yet.

                     DEPARTMENT OF STATE PERSONNEL

    Senator Blunt. Mm-hmm. Increasingly looking at our 
embassies, we've been doing that for over 20 years now trying 
to make them more secure. I think also more concern about 
security of people--where people live that work in the 
embassies that are U.S. citizens and part of the State 
Department family. Anything you want to say about that?
    Secretary Pompeo. I'm sorry. Would you repeat your 
question?
    Senator Blunt. Just also, you know, the concerns of people 
who are living in countries that we're concerned about and that 
part of the State Department family.
    Secretary Pompeo. Yes. So we've done a handful of things 
during my 11 months to put in place programs that will improve 
lives, some on some disability issues for officers who have 
disabilities. It's proven a challenge in some of the places 
around the world. I think we're in a better place today. You 
all have been very generous in providing the resources for us 
to be able to do that. And each time I go to the Embassy, I 
have a chance to get down and talk one-on-one with Embassy 
officers, and I always ask them, ``How are the schools? How are 
the medical facilities here? Do you have the ability to get 
your place of worship?'' and in--for the most part, we're in 
very, very good shape. Some of them are just very difficult 
places to serve, and we have shorter time on station as a 
result of that. I do have the number for you, Senator. The--
this is for the--what we list as ``Worldwide Security 
Protection fiscal year 20 Requests Versus 2018 Enacted.'' The 
change is up .6 percent. And from fiscal year 2020 requests to 
the fiscal year 2019 respect, up 2.2 percent.
    Senator Blunt. I want to talk more about that later. And, 
Chairman, I think I'm out of time right now.
    Senator Graham. Thank you, Senator Blunt.
    Senator Durbin. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being----
    Secretary Pompeo. Yes, sir.

                               VENEZUELA

    Senator Durbin. Last year at this time, I was in Caracas, 
my only visit to Venezuela, meeting with Maduro and Juan 
Guaido, coincidently, during the course of that trip. Little 
did I realize at the time what 12 months would mean in terms of 
Venezuela. I saw firsthand, and you undoubtedly heard 
incredible reports, how miserable life is for the Venezuelans. 
They face basic deprivations of food and medicine and things 
that we take for granted. And the political situation has 
become much more volatile there. It's my understanding that 
Cubans have been sending in security forces to support the 
Maduro regime. I'm also told the Russians have sent in some 
type of new group, such as we saw in eastern Ukraine, to play 
some role in support of Maduro. It is not a healthy situation. 
Juan Guaido's wife came to see me last week, and I believe she 
also met with the President, talked about the danger to her 
husband and those who supported him. That was very clear.
    So that's why I joined with Marco Rubio about 2 weeks ago 
in sending a letter to you and the President saying this is the 
time to protect Venezuelans who are here in the United States. 
They should not be forced to return to the dangerous conditions 
in Venezuela. They should be given temporary protected status. 
I have yet to hear. Can you announce today the good news that 
these Venezuelans can stay here in the United States?
    Secretary Pompeo. I cannot.
    Senator Durbin. Why?
    Secretary Pompeo. We are still evaluating how to handle 
that situation. There is no decision been made by the 
administration yet.
    Senator Durbin. I don't get this. It is so dangerous, the 
United States has intervened on a foreign policy basis. We have 
made it clear we have no use for Maduro, and we believe the 
Venezuelan people suffer under his leadership. It's--I just 
sense, Mr. Secretary, that this President's aversion to 
refugees and immigrants is stopping him from doing the obvious, 
come to the rescue of Venezuelans in the United States on a 
temporary basis. Don't force them back into a dangerous, deadly 
situation. Is there any other explanation you can think of?
    Secretary Pompeo. I think this administration has done more 
for the Venezuelan people than the previous administrations 
combined.
    Senator Durbin. Well, how about the ones who are here----
    Secretary Pompeo. I'm very--I'm very proud of--I'm very 
proud of what we've done, so I think to suggest we've 
shortchanged the Venezuelan people is inconsistent with our 
activities.
    Senator Durbin. Well, you should come to my office and meet 
with the Venezuelans who are here with their visas expiring. 
Perhaps you could see there is more we could do, that it's not 
a great problem. And for the record, we're not full, America is 
not full. We have room for these Venezuelans and others who 
desperately need the United States at this moment in their 
history.
    Let me ask you the question. Incidentally, I just was 
handed a note that the Organization of American States (OAS) 
voted 18 to 9 to recognize Guaido's representative as 
Venezuela's ambassador to the OAS. So the OAS, though they're 
not always in your good favor, I hope you think positively of 
them at this moment.

         TWO-STATE SOLUTION TO THE ISRAELI-PALESTINIAN CONFLICT

    Do you believe that we should have a two-state solution in 
the Middle East?
    Secretary Pompeo. The administration will roll out the plan 
that Mr. Kushner and Mr. Greenblatt have been working on before 
too long, and you will see President Trump's vision for how to 
resolve a problem that's been going on for decades and decades 
that previous administrations couldn't solve. We are hopeful 
that we have some ideas that are different, unique, which will 
allow the Israelis and the Palestinian people to come to a 
resolution of the conflict.
    Senator Durbin. Draw--draw a historic parallel for me 
between the decision to say to Israel that they could claim 
sovereignty over the Golan Heights, a territory that was seized 
during the 1967 war from Syria, and the Russian claims that 
they can claim Crimea because they happened to invade it as 
well.
    Secretary Pompeo. Senator, the two situations could not be 
more starkly different.
    Senator Durbin. I'd like to hear.
    Secretary Pompeo. The Golan Heights was--the Israelis ended 
up with the Golan Heights as a result of having been attacked. 
They were on the defense. They were at risk of their very 
nation being overrun during the Battle of the Valley of Tears, 
and they defended themselves.
    Senator Durbin. I understand that.
    Secretary Pompeo. And they retained that terrain to 
continue to defend themselves from the murderous regimes in 
Syria.
    Russia, on the other hand, wasn't on the defensive. Russia 
chose at their own moment in time to go seize land from a 
people that posed no threat to them whatsoever.
    Senator Durbin. So our diplomatic position is that land 
seized in the course of a war is then the spoils for those who 
happen to occupy it.
    Secretary Pompeo. I'll say two things about that. So 
there's international law doctrine on this very point. I--we 
don't have time to begin to go through it today, but I'm happy 
to have a team come over and walk you through that element of 
international law.
    But the second thing is just a practical policy matter. If 
it's the case that there is absolutely no cause for aggression, 
that is, if you attack and you have some of your land taken as 
a result of an attack that you undertook, and you get it back 
just because you didn't succeed, that's a bad incentive system 
to set up.
    Senator Durbin. So we could claim Iraq, I guess, under that 
theory.
    Secretary Pompeo. Just I--we could probably go through 
dozens and dozens of examples. You asked me to compare and 
contrast the situation in the Golan Heights and Crimea.
    Senator Durbin. Mr. Secretary, I just don't--I strongly 
support a relationship with Israel. I believe the Palestinians 
need a homeland as well. Two sovereign states, not a threat to 
one another. And this departure that we've made under this 
administration I'm afraid puts the future of Israel, as a 
Jewish democracy, in doubt. I don't think the administration is 
thinking clearly about how this ends well. Perhaps the people 
of Israel in this election today will see a different way in 
the future.
    Thank you.
    Secretary Pompeo. Thank you.
    Senator Graham. Senator Daines.
    Senator Daines. Thank you, Mr. Chairman. Thanks, Mr. 
Chairman.
    And, Secretary Pompeo, it's good to see you.
    Secretary Pompeo. Good to see you.
    Senator Daines. And I want to thank you for being here 
today. I want to thank you and the administration for your 
unwavering support of Israel. It is much appreciated.

               PEOPLE'S REPUBLIC OF CHINA AND TECHNOLOGY

    Secretary Pompeo, I want to shift gears and talk about 
China for a moment. I--as you know, I spent over 5 years living 
there as an expat for Procter & Gamble, had two kids born in 
Hong Kong, in fact, back in the 1990s, and led multiple CODELs. 
I had to visit China as neighbors and continued to see China's 
growing regional and global influence. It's very apparent.
    I believe it's critically important that we, as a nation, 
are clear-eyed about the challenges as well as the 
opportunities that the U.S.-China relationship brings. We 
cannot just view these ongoing negotiations solely through an 
economic lens as a standard trade dispute. It is imperative we 
keep in mind China's strategic approach in the long-term goal 
of becoming the world's superpower.
    Secretary Pompeo, as you know, China has developed an 
advanced innovation ecosystem. It's remarkable truly. I led a 
group of five Senators last year. We saw companies in Shenzhen 
and Hangzhou, you know, the Alibabas, the Tencent, JEDI.com, 
and so forth. They're becoming globally competitive in critical 
technologies like AI, biotechnology, quantum computing, 5G, and 
others. This comes with risks both to our national security as 
well as our economic well-being.
    With the latest findings of the U.K.'s National 
Cybersecurity Center about the significant issues Huawei can 
cause for the telcom industry, we're starting to acknowledge 
the risks this administration has been stating for months. 
Despite these clear risks, some of our allies, including 
France, Germany, and potentially even the U.K., continue 
testing and moving towards installing Huawei equipment.
    My question, Mr. Secretary, how does the U.S. plan to 
mitigate the risk of working with countries that continue to 
deploy Huawei technology in their 5G infrastructure?
    Secretary Pompeo. So while it's fairly technical, I'll 
summarize. Our security leaders don't believe there is a 
technical mitigation technique that's available today. That is, 
we may solve the riddle, but the risks of having equipment and 
network systems collocated with Huawei systems and other 
Chinese systems is a very, very difficult technical problem. So 
our solution to mitigating that risk will be not to collocate 
or not to share American information with countries that choose 
to put this technology in their systems knowing that the risk 
that it will wander to China's government is too great. And so 
America will have to choose another method. We won't be able to 
share information or participate along with some of our 
important national security partners if they choose to go down 
this path of installing this technology.

                    INTERNATIONAL RELIGIOUS FREEDOM

    Senator Daines. Secretary, I want to shift gears and talk 
about religious freedom for a moment. Religious freedom is a 
fundamental human right, and whether it's China's pervasive 
surveillance, the destruction of thousands of churches and 
mosques, or the detention of hundreds of thousands in 
reeducation camps with the Uyghurs out in Xinjiang Province in 
indefinite detentions. It's critically important that we, as a 
nation founded on freedom and the rule of law, bring our 
influence to bear to advance human rights in China and around 
the world.
    You've stated that China, and I quote, is a league of its 
own when it comes to human rights violations. What work is your 
administration actively doing to help protect the human rights 
of the Uyghur people, ensuring this is a priority in any 
ongoing discussions with the Chinese government?
    Secretary Pompeo. So it is in a league of its own. The work 
that began in Tibet and now being perfected in Xinjiang is 
Orwellian in nature, and our efforts are diplomatic. That is, 
we identify this as something that the Chinese can't continue 
to do. I had a group of Uyghurs in my office, and this has 
probably been 2 weeks ago now. Indeed, just after they came, an 
uncle of one of the young men that visited me was approached by 
the Chinese government, I'm sure now to worse conditions than 
they were in before. He had had a meeting with the United 
States Secretary of State. Our whole team all across the world 
is very focused on this issue in China.
    Senator Daines. Speaking of going around the world, as you 
know, Turkey has become one of the few Muslim-majority 
countries to condemn China's treatment of the Uyghurs. What 
work has been done to build a coalition to raise and address 
these human rights violations in Xinjiang Province, 
particularly with Muslim-majority nations, around the world?
    Secretary Pompeo. Not enough yet. There is a great deal 
more work to do. I am very hopeful that we will get an 
increased number of Muslim nations who share our view that this 
is a gross violation of the human rights of Muslims in China, 
and they will begin to work in the same way we are working to 
convince the Chinese not to continue these practices. There's a 
lot more work to do there, Senator.
    Senator Daines. In my view, there is probably only so much 
we can do unilaterally as it relates to confronting the 
challenges that we see in China, and I think it's critical we 
work with our allies and China's neighbors in the region to 
mitigate China's maligned actions, whether it be in the South 
China Sea, human rights, or ongoing unfair trade practices.
    As you think about some of your strategic goals and 
engaging with allies in the Indo-Pacific region to proactively 
counter Chinese efforts to expand its influence, tell me how 
you think about that right now with our allies there in that 
part of the world.
    Secretary Pompeo. So I actually think this is a place we 
have made progress. I think the first challenge has always been 
to identify the threat to make clear to them. Sometimes we had 
information that was important to share with them about risk. 
Sometimes they had information to share with us about risk as 
well. So I think pooling understandings of the threat has been 
important. I think that has now been socialized in significant 
ways.
    And you now see partners. You see partners in Australia. 
You see partners in Vietnam. You see work that's done 
throughout other parts of Southeast Asia, countries that 
understand this threat, and I think that threat is also 
beginning to be identified in other places, too, African 
nations where China is active, Middle Eastern countries where 
China is moving out full force. Our Indo-Pacific strategy I am 
convinced will raise the costs for this Chinese maligned 
activity.
    Senator Daines. Thank you, Mr. Secretary. I want to thank 
you, too, when you listed all the outcomes you've accomplished 
with this administration and your leadership. I am grateful for 
that. Thank you.
    Secretary Pompeo. Thank you, Senator.
    Senator Graham. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary.
    Secretary Pompeo. Hello, sir.
    Senator Van Hollen. And I want to associate myself with the 
remarks the Chairman made with respect to the foreign affairs 
budget at the beginning of the hearing.

                                 EGYPT

    I have to beg to differ with you on the President's meeting 
with El-Sisi. The President walked out of that meeting and 
said, quote, I can tell you he's doing a great job. You 
indicated that part of your responsibilities as Secretary of 
State was to, quote, work to protect American citizens abroad. 
I just want to say I don't think anybody that's detaining and 
putting in prison 20 American citizens is doing a great job.

                                 TURKEY

    Let me ask you about Turkey and the F-35s. The Supreme 
Allied Commander, General Scaparrotti, said recently, quote, if 
the Russians get the S-400, quote, it's his best military 
advice that we don't then follow through with the F-35s. As I 
understood your response to the Chairman, the clear and 
resolute position of the administration is if Turkey gets 
delivery of the S-400s, it will not get delivery of the F-35s. 
Is that correct?
    Secretary Pompeo. I have communicated that to them both 
privately and I will do so again publicly right here.
    Senator Van Hollen. Thank you. Would you agree also that if 
they go through with that $2.5 billion transaction, which is 
what the S-400 purchase amounts to, that that would trigger the 
significant transaction requirements in the CAATSA legislation 
and require the imposition of sanctions on Turkey?
    Secretary Pompeo. If I can avoid making a legal conclusion, 
that is a very significant transaction.

                      ISRAELI-PALESTINIAN CONFLICT

    Senator Van Hollen. I thank you. So I want to follow up on 
Senator Durbin's question. And you would agree that you can be 
pro-American if you don't agree with all the policies of the 
Trump administration, right?
    Secretary Pompeo. Yes, sir.
    Senator Van Hollen. And you can be pro-Israel--and there's 
a bipartisan pro-Israel sentiment in this Congress--if you 
don't agree with all the policies of the Netanyahu government.
    Secretary Pompeo. Critiquing a policy that Israel 
undertakes is part of our democratic process.
    Senator Van Hollen. And we have a democratic process, too, 
when we disagree with the President, and that still makes us 
good Americans.
    So let me ask you this, Is it still the policy of the 
United States to oppose Israel's unilateral annexation of any 
or all of the West Bank?
    Secretary Pompeo. Here's what I can say. I'll give the same 
answer I gave to Senator Durbin. We are in the process of 
laying down our vision for how to resolve a problem that is----
    Senator Van Hollen. So, Mr. Secretary, if I could--if I 
could ask you, I asked about unilateral--right?--annexation. So 
that--that, by itself, indicates no agreement with the 
Palestinians.
    Secretary Pompeo. Yes.
    Senator Van Hollen. So my question is it sounds like you've 
already abandoned what has been a bipartisan foreign policy of 
opposing the annexation of any or part of the West Bank by 
Israel. Is that what you're telling us today?
    Secretary Pompeo. I think we've seen--I think it was 
Senator Durbin that critiqued our decision on the Golan, where 
he would characterize that----
    Senator Van Hollen. I'm not asking you about the Golan 
right now.
    Secretary Pompeo. Yes. Right.
    Senator Van Hollen. I'm asking you about the West Bank.
    Secretary Pompeo. Yes, and I'm telling you will--you will 
see our proposal----
    Senator Van Hollen. The polls--the polls are closing right 
now, right now, in Israel, and things could move very quickly. 
And as you know, the Prime Minister, as a candidate, said he 
would annex all or part of the West Bank. He said settlements, 
and then he said including outposts. And today you cannot tell 
us what U.S. policy is on this issue.
    Secretary Pompeo. Yes. I think, again, I think I've 
answered the question as I am going to answer the question.
    Senator Van Hollen. All right. Do you agree that 
Palestinians should be extended basic human rights?
    Secretary Pompeo. Yes, of course. Our proposal will 
absolutely have one of its core undertakings making life better 
for the people that live in the Gaza and in the West Bank.
    Senator Van Hollen. And so if you had a one-state solution, 
since you haven't affirmed support for a two-state solution, 
would you agree that in a one-state solution Palestinians 
should have full and equal political and legal rights with 
other citizens of that state?
    Secretary Pompeo. I'm not going to engage in this--
ultimately the Israelis and the Palestinians will decide how to 
resolve this. We'll propose our administration----
    Senator Van Hollen. You just talked about we were expecting 
the deal of the century, and you said the Israelis and 
Palestinians would have to agree. That----
    Secretary Pompeo. That's right.
    Senator Van Hollen. Okay. So I asked you about unilateral 
annexation. That means--that means there is no agreement. And 
you can't tell me today whether that's something you support 
even though that is, as you know, compromising the ability----
    Secretary Pompeo. Senator----
    Senator Van Hollen [continuing]. To have a two-state 
solution, which, as you know--let me ask you this, Do you think 
you can preserve a state that is Jewish and democratic and 
observes the rights of all its citizens without a two-state 
solution?
    Secretary Pompeo. Senator, you're trying to get us to lay 
down what our proposal is going to be before we're prepared.
    Senator Van Hollen. I'm trying to ask you about our--what 
our policy is today, Mr. Secretary.
    Secretary Pompeo. Which involves--which will be America's 
policy on these very issues. You have seen our policy to date. 
We made the decision that I think--I don't know how many--but 
who voted for to move the Embassy to Jerusalem. Finally, 
President Trump did it.
    Senator Van Hollen. Yes.
    Secretary Pompeo. Which was good.
    Senator Van Hollen. Which would, of course, as you know, 
Mr. Secretary, would have been part of any final agreement, and 
you didn't get anything in exchange with respect to the goals 
of U.S. policy. President Bush, President Clinton, Presidents--
both Bushes, Obama. So let me ask you this, Do you think it 
advances the peace process to cut off all humanitarian systems 
to Palestinians?
    Secretary Pompeo. You should note that----
    Senator Van Hollen. That's a--do you think it advances the 
peace process to cut off----
    Secretary Pompeo. May I answer your question, sir?
    Senator Van Hollen. Sure. Yes.
    Secretary Pompeo. Senator, you should note that each of the 
Presidents you identified didn't solve this problem.
    Senator Van Hollen. Yes. They----
    Secretary Pompeo. Whatever policies they chose failed.
    Senator Van Hollen. I understand. And a unilateral solution 
is not going to do it. I would just leave you, Mr. Secretary, 
with the example of Turkish occupation of Northern Cyprus where 
Turkey would be--would argue that they came in to help the 
Turkish Cypriots at the time. And Mr. Erdogan is going to love 
what you're saying about the ability to take lands that were 
occupied through force. It is a dangerous and slippery slope, 
and when it comes to the West Bank, it will undermine any 
effort of a peaceful two-state solution.
    Senator Graham. Senator Lankford.
    Senator Lankford. Secretary, great to see you. Thanks for 
all the work. You've been across a lot of miles for a while and 
had a lot of meetings and conversations. So thanks for 
continuing the work.
    Secretary Pompeo. Yes, sir.

                            CENTRAL AMERICA

    Senator Lankford. Can we shift to Central America for a 
moment, which is exceptionally important to us, not only in 
this hemisphere and economically with our trade there, but 
we're finding out rapidly with immigration.
    You go back to 4 years ago, Joe Biden started leading an 
effort called the Alliance for Prosperity----
    Secretary Pompeo. Mm-hmm.
    Senator Lankford [continuing]. To greatly accelerate 
investment into Central America. It was my impression after the 
first year, 4 years ago, that once the State Department pushed 
out funds, they seemed to just push out funds to as many 
Federal entities as we had in Central America to get the money 
out the door, but it didn't seem to be very strategic. There 
seemed to be some learning from that after that. And then the 
third year of it, it still seemed to be forcing money out the 
door rather than being as strategic as it could be.
    The administration now has said we're going to try to end 
foreign assistance, and then it became we're going to review 
foreign assistance. But I just want to be able to ask for 
clarification of purposeful of this. It seems to me the 
Alliance for Prosperity was very focused in on, How do we help 
develop security, economics improve an area where there is 
stability and safety, and ending government corruption in that 
zone to be able to help with whatever we could with mayors and 
police chiefs and military leaders to be able to help in that 
corruption?
    Give me a quick update of where we're headed on the 
Alliance for Prosperity in Guatemala, Honduras, and El Salvador 
in specific.
    Secretary Pompeo. Senator, the President concluded--and 
this is something that I saw when I was in my previous role as 
well, as Director of the CIA--the President concluded I think 
in the same way you just described, that these resources 
weren't very effective, that they may well have been thought 
out, but they just weren't getting the outcomes.
    Senator Lankford. Right.
    Secretary Pompeo. And then they make----
    Senator Lankford. Tough--it was tough for us to even get 
metrics involved.
    Secretary Pompeo. Yes, and I think that's remained the 
case, even for the last year as well, so the first year of this 
administration, too. The President saying that, and then 
combined with the challenge of we have not yet been able to 
convince El Salvador, Guatemala, and Honduras to take seriously 
this need to control heir own borders and to keep their people 
from moving into Mexico and ultimately across our southern 
border, that we should stop, take a time out. We've done that, 
so we have ceased allocating new funds inside of those three 
countries.
    And we will present to each of those three countries a set 
of requirements. These are the things that are expectations 
that the United States needs for America's interest. We think 
also in every case it will be in their own best interest as 
well. And when we get to that point, we will return to 
considering whether and how much and under what means and what 
tools will we use to restart providing them assistance to each 
of those three countries in the Northern Triangle.
    Senator Lankford. Okay. They've been tremendous partners 
with us in interdicting drugs----
    Secretary Pompeo. Yes.
    Senator Lankford [continuing]. In the past, and obviously 
they have a real willingness to do that because that builds 
corruption in their own government and their own system as 
those drugs pass through from South America through Central 
America and come north. Are we continuing to be able to help 
them and help them protect us from some of the incoming drugs?
    Secretary Pompeo. Senator, it's been hit-and-miss. In 
places, it has worked. I don't mean to suggest there was 
nothing that came from this, that it was entirely wasted, but 
it certainly wasn't the case that there were good metrics, and 
I'm convinced we can be more effective.
    Senator Lankford. Okay. We look forward to being--working 
together on that and to be able to help fix that because we 
need both them as partners and we need to be able to help them 
actually step up and engage in the areas that are essential. We 
want them to be solid economic traders in the days ahead on it.

                                 SYRIA

    You've made some recent comments on Assad in Syria. As I 
visited with some of the refugees in Lebanon a few weeks ago, 
it was pretty clear from the refugees that I talked to there, 
they are not going to return until Assad is gone because they 
are concerned that their children will be conscripted into his 
army and they will never see them again. And so they are more 
concerned about Assad than they are of ISIS. How do we help 
this in the days ahead with what's happening as more and more 
Arab countries are starting to backchannel in diplomatic 
relationships with Assad and to try to reestablish diplomatic 
connections there to be able to help manage what's going on 
there and still have Assad not as a leader because millions of 
people won't return if he is?
    Secretary Pompeo. So it's a challenge. Let me just step 
back half a step. So Assad is there. It is the case he still 
controls just a fraction of his own country, and there is no 
clear means by which he will achieve anything other than prior 
state status, certainly from the United States or Europe. So 
our effort has been to engage in a political process where 
there can be a path forward for a return to something akin to 
democracy in Syria under the U.N. resolution. So that's what 
Ambassador Jeffrey is engaged in each and every day.
    As for the refugees, I can't remember if I was there just 
before you or just after you in Lebanon. I saw the same thing. 
The Lebanese government is struggling mightily to continue to 
school, educate, these refugees and to take care of them, to 
house and clothe them. But I heard the same thing, if we're 
looking for safe, voluntary return, we're not yet in a position 
where we can deliver that for several million refugees, not 
only the million and a half there in Lebanon, but those in 
Jordan and Turkey as well. I can't tell you we have a clear 
path forward other than the political process that the Iranians 
and the Russians continue to foil.

                             NORD STREAM 2

    Senator Lankford. Right. The Nord Stream 2 pipeline between 
Russia and Germany, do you have any progress report on that? Is 
Germany still continuing to lean forward into buying their gas 
from Russia?
    Secretary Pompeo. They are.

                                 BURMA

    Senator Lankford. One last comment is on Burma. Burma has 
been an ongoing issue for a while. We've listed them as a 
Country of Particular Concern. Thank you for your work on 
religious liberty and continuing to be able to focus in on 
that. That is a growing genocide that has happened there for 
quite a while. How is State engaging in trying to be able to 
bring some kind of stability to Burma or to be able to help?
    Secretary Pompeo. So our team on the ground is applying 
pressure everyplace that we can. I met with my Bangladeshi 
counterpart, a huge challenge for the country of Bangladesh. 
There is no quick-term fix for that. I don't know if you've 
ever traveled to Cox's Bazar. This is going to be a year's long 
challenge. We are also not only using the potential carrots in 
Burma, but also making clear to them that the things that 
America is doing for them could stop, and they continue to need 
our support. And I'm hopeful we can move them in a better 
direction, not only with respect to religious liberty, but 
restoring basic freedoms to their people.
    Senator Lankford. Thank you. Thanks, Mr. Secretary.
    Senator Graham. Senator Coons.
    Senator Coons. Thank you, Chairman Graham and Ranking 
Member Leahy, for this hearing.
    And thank you, Secretary Pompeo, for your testimony, your 
service, and congratulations on being a day away from a year, 
if I heard your opening correct.
    Secretary Pompeo. A few more than that, the 26th.
    Senator Coons. I agree with many of my colleagues, the 
Chairman, as well as others, that I think the proposed cuts in 
the President's budget would handicap America's ability to 
secure interests at a time of unprecedented challenges. I 
broadly agree with your identification of the threats and 
challenges we face. In some cases, we have differences in 
strategy; in others, we don't. But I am fairly certain that a 
24-percent cut to the 150 count overall would not help us meet 
these challenges.
    I don't believe in spending for spending's sake, but I 
think investing in development, diplomacy, and humanitarian aid 
can actually save us money in the future.

              FRAGILE STATES AND THE GLOBAL FRAGILITY ACT

    This February, the United States Institute of Peace Task 
Force commissioned by this panel with Senator Graham's 
leadership published a final report of strategies to prevent 
fragile states from becoming failed states. They consulted 
closely with the Department of State, Department of Defense, 
USAID, and its recommendations, including new coordinated 
governmentwide strategy and innovative funding, a system with 
metrics, with required performance metrics. And I think it 
underscores the need for targeted development and diplomacy 
assistance in addition to security to address the root causes 
of fragility in places like the Northern Triangle, that we've 
talked about, like the Sahel.
    Senators Graham, Merkley, Young, Rubio, and I have 
introduced the Global Fragility Act. I was pleased to hear you 
say that we could count on your support to pass that. I'd be 
interested in hearing from you if you think this is the right 
strategy to allow us to act and think more strategically about 
preventing fragile states from becoming failed states, and if a 
coordinated investment strategy across development, diplomacy, 
defense is the right way to go in trying to learn from the last 
18 years and the $6 trillion we've invested in combating 
extremism.
    Secretary Pompeo. I do think that strategy is right. I 
can't say I read the whole report. I read the executive 
summary.
    Senator Coons. It makes for pretty compelling reading.
    Secretary Pompeo. It's compelling reading both in that it's 
the right plan, and it is the most cost effective way to tackle 
this problem as well, which I think you referred to as----
    Senator Coons. I look forward to working with you on that.

             UNITED STATES DEVELOPMENT FINANCE CORPORATION

    In the last Congress, the BUILD Act created a new 21st 
century development finance agency. China is going to be 
holding its annual ``Belt and Road'' conference in Beijing next 
month where it will highlight more press announcements of 
massive investment. I think the reality of Chinese investment 
in infrastructure to secure both strategic advantage and 
economic opportunity is not as rosy as they portray it. I think 
a number of our allies and of their potential partners are 
learning that there are hidden costs and hidden challenges to 
Chinese investment.
    As the Secretary of State, you're the chairperson of the 
new Development Finance Corporation, and I was pleased to see 
the budget request say you would rely on this new agency to 
help add to ``Prosper Africa,'' the ``Indo-Pacific Strategy,'' 
countering Russia maligned influence, the ``Women's Global 
Development and Prosperity Initiative.''
    Could you just share for a few minutes how you plan to use 
this new agency as a tool of U.S. foreign policy, and how the 
BUILD Act and our partnering with our key allies in Development 
Finance projects could provide an American-facing or an 
American values-based alternative to China's ``Belt and Road'' 
initiative?
    Secretary Pompeo. Senator, I think you actually captured 
the most important element of this, is that it's not America 
trying to do this with just taxpayer dollars; we have private 
sector partners and international allies and partners. They are 
very excited about this throughout parts of the world. I think 
you mentioned ``Prosper Africa'' as part of this as well, 
perhaps you didn't, but there are many places where I think the 
Development Finance Corporation will ultimately deliver real 
outcomes to counter what China is doing.
    We are almost certain to show up with fewer dollars every 
time than they'll show up with, and the terms of our deal from 
just a pure economic perspective probably won't compete. But 
your point about the ``Belt and Road'' initiative not wearing 
well over time, and the increased understanding in countries 
all around the world of the risks associated with taking this 
Chinese financing or these Chinese projects is ever increasing. 
And so I think our effort there with the DFC and the BUILD Act 
is very timely, and I'm convinced we'll have real successes as 
a result of it.
    Senator Coons. Yes, I'm excited to work with you on it. I 
think it's a new tool that really has great promise, and I 
recently spoke to Ambassador Hagerty in Japan. I think it is a 
way in particular in the Indo-Pacific for us to partner with 
some of our key allies and to strengthen those alliances.

                             SYRIA AND IRAN

    I have just a few quick points if I could. I agree strongly 
that we should have a force in Syria to contain Iran. I 
recognize the President has focused on ending the caliphate on 
the ground, but I was encouraged by your comment about a 
direction to prevent ISIS 3.0 from rising, but I, frankly, see 
independent value in preventing Iran from gaining, sustaining, 
holding, and expanding a role in Syria, and I think that is 
well worth our continued engagement at Al-Tanf and elsewhere.

                            FAMILY PLANNING

    I agree with Senator Shaheen. I have a real concern about 
the Mexico City policy expansion and its actual negative 
impact. And I'd love to work with you on making sure that 
impact on maternal and child health is not large and negative. 
That's something I've spent a lot of time on, in particular, in 
Africa, and I think there's a gap between closing loopholes and 
having a real impact on maternal and child health we could work 
on.
    The Bureau of Population, Refugees, and Migration (PRM), my 
understanding is, directed the closing of the only refugee 
resettlement site in Delaware, a faith-based organization that 
had done a lot of good work, and I'd love to review that with 
you at some point.

                                 AFRICA

    Let me close with three quick thoughts about some concerns 
in Africa. I'm sorry. I also wanted to mention I agree with 
expanding investment in the Indo-Pacific and was encouraged to 
see a 90-percent increase over fiscal year 2019, $1.8 billion 
in economic and security assistance for the Indo-Pacific 
Strategy. I thought that was encouraging and would frankly like 
to work on that.
    Secretary Pompeo. Mm-hmm.
    Senator Coons. There is right now in Sudan an impressive 
widespread, ongoing, largely peaceful protest against one of 
the longest standing strongmen in Africa, and I hope that in 
countries like Algeria and Sudan, just as we are in Venezuela, 
that we will find appropriate ways to encourage peaceful 
transitions of power.
    Last, I am concerned about Cyclone Idai and its impact on 
Mozambique and Zimbabwe. They are making real progress in 
combating both hunger and cholera with help from USAID and the 
State Department, but I just want to urge you to not let that 
one slip off the very large radar screen of threats we all have 
to take into account. I think the region is looking to whether 
or not the United States continues to be the sort of leading 
humanitarian relief partner that they have long counted on us 
to be.
    Secretary Pompeo. Senator, I think I agree with everything 
you said there. I would add that as challenges that are there 
today and emerging in Africa, the Ebola outbreak is continuing, 
and it is something the USAID and World Health Organization and 
other elements of the USG as well are continuing to be very, 
very focused on. It's a difficult situation. The security 
situation there is a real challenge, but it's something that 
the world I don't think has focused on significantly, and the 
numbers I see each week don't show that we have our arms around 
it yet.
    Senator Coons. They are going in the wrong direction. If we 
did not have a vaccine, this would already be dramatically out 
of control. So we have learned from the last big outbreak, 
invested in vaccine, but you're right, I agree with you, that 
is one of the most concerning developments on the continent, 
and I look forward to hearing more from you and to working in 
partnership with the Chairman to try and tackle that.
    Forgive me for going over my time. Thank you for your 
answers.
    Senator Graham. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary, for spending so much time with us 
today. A couple quick comments and then I'll try to squeeze in 
a few questions. Let me associate myself with the comments that 
have been made already about this budget. Listen, I just--I 
think it's bananas. I think there's celebration happening in 
Beijing and Moscow every time that we telegraph our withdrawal 
from the world. I don't know that this budget is the one you 
would write, Mr. Secretary, but cutting democracy by 50 percent 
and cutting exchange programs by 50 percent, global health 
programs by $2 billion just provides this increasing vacuum for 
others to fill.
    And then my second point is on this, I think, interesting 
exchange you had with Senator Van Hollen about the upcoming 
plan that the administration is going to present. I think that 
that would be a satisfactory answer if we were in April of 
2017, but we aren't, we're in April of 2019. And the idea that 
the world doesn't know 2\1/2\ years into this administration 
whether America still stands for a two-state solution or we 
still stand against the unilateral annexation of the West Bank 
is what makes people's heads spin.
    And so I get that you're not going to go any further in 
your answer, but we aren't 3 months into the administration, 
we're 2 years and 3 months into the administration, and that 
is, in part, what drives a lot of uncertainty in the region 
about where America stands. And so I will just leave it at 
that.

                  THE GOOD FRIDAY AGREEMENT AND BREXIT

    On a subject that maybe we can find some agreement on, I 
just came back from Belfast and Dublin, and we may disagree on 
the right prescription for Britain moving forward with respect 
to whether or not they stay in the European Union, but we 
likely don't disagree on the importance of protecting the Good 
Friday Agreement, and there is great uncertainty as to what the 
impact of Brexit would be on the ability to keep that agreement 
together. It seems like a moment when we should be standing up, 
Republicans and Democrats, and telling our friends in London 
that whatever they do, they need to recognize the existing 
fragility of peace in Northern Ireland and the importance of 
protecting that peace process no matter how this agreement with 
the European Union turns out, and I wanted to get your thoughts 
on that.
    Secretary Pompeo. You did find a place we agree. I don't 
mean to make light of it. It's an incredibly important 
agreement, one that has been proven very effective and one that 
needs to be sustained.

                                 YEMEN

    Senator Murphy. Second, I want to thank you for the 
investment you made in the peace--the beginnings of peace 
negotiations in Yemen. You and I have talked about this. And 
we've also talked about when the right moment is for the United 
States to play a more active regular role. I think there's a 
sense in the region that Secretary Mattis was engaged in a 
daily basis. I have great respect for the U.N. envoy, but it 
seems, as we're having trouble keeping the Stockholm Agreement 
together, that it's time for the United States to play a 
leadership role in maybe a way that we have thus far outsourced 
to the U.N. Your thoughts on whether it's time for a change in 
U.S. leadership in this process.
    Secretary Pompeo. We might disagree about this. I think 
we've played a very constructive role. I suppose we could 
disagree about whether that's a leadership role or not. I 
certainly think that it has. There are places we're best fit 
for purpose to achieve the outcome that I think you and I share 
as our desired end state there. There are places that we're 
probably not the best face to put in front of that. We've tried 
to weigh in where it was and stay out where it isn't.
    I am very worried about the Stockholm Agreement. I spoke 
with the U.N. envoy, it's been 3 days ago now. There's still 
hope. There are a lot of pieces to it. I'm happy to give you 
the long sordid details, but there are lots of pieces of it. It 
is not hopeless to think that it will still be implemented, 
but, frankly, the Houthis have just simply refused to date to 
agree to a couple of the basic premises which would free up the 
port there in Hudaida.
    Senator Murphy. Now, I agree that they are clearly much 
more at fault with respect to the implementation of the 
agreement. I just think we continue to be the only game in town 
with respect to the ability to bring the Saudis to the table 
and the ability to convince the Houthis that there will be an 
honest broker to make sure that the other side complies with 
the agreements that they make.

                              SAUDI ARABIA

    Lastly, staying on Saudi Arabia, just a couple points of 
clarification. You are testifying that you believe the 
administration is in compliance with the Magnitsky Act because 
you are still gathering evidence. But the Magnitsky Act, which 
is a piece of legislation passed by Congress, signed by the 
President of the United States, doesn't give you the unlimited 
ability to gather evidence. In fact, it states very clearly 
that not later than 120 days after receiving a request from the 
Chairperson and Ranking Member of the appropriate committee, 
you need to submit a response. And so how do you square this 
very clear requirement that you have to respond in 120 days 
with your contention that you have unlimited time to collect 
evidence?
    Secretary Pompeo. So the State Department did submit a 
response. Indeed I know I've submitted two responses.
    Senator Murphy. Right. But the response has to determine if 
that person has engaged in the activity, not defer to a later 
point as to make that determination.
    Secretary Pompeo. I think we've fully complied with the 
statutory requirement.
    Senator Murphy. And, lastly, on the two American citizens 
that are in custody, Salah Haidar and Bader El-Ibrahim, these 
are new disclosures of dual citizens that have been imprisoned. 
These are journalist intellectuals, activists. You mentioned 
that we can't--there has to be some response, but the only 
response you mentioned was asking about them with the Saudis. 
At some point, when they don't answer our requests for release, 
would we expect some more consequential response from the 
administration? They're holding Americans prisoner for their 
political beliefs, and the medical reports out of these prisons 
suggest that there are some really awful things going on: 
deprivation of sleep, electrocution, malnourishment. What's the 
next step here?
    Secretary Pompeo. So I'm happy to talk to you privately 
about the range of things that are under consideration. We take 
every American citizen who is wrongfully detained as a burden, 
as a duty, as something that we know we have the responsibility 
that weighs on us, and we work to achieve their release.
    Senator Murphy. Asking is not the beginning and end of our 
policy.
    Secretary Pompeo. We have lots of tools, lots of different 
ways to try and get those outcomes. We don't always succeed.
    Senator Murphy. Okay. Thank you, Mr. Chairman.
    Senator Graham. Thank you. And we're going to get you out 
of here right at 4:30. So, Senator Van Hollen, I'll give you 3 
minutes, and then I'll close.
    Senator Van Hollen. Thank you.

                              SAUDI ARABIA

    Mr. Secretary, just briefly on the--on Saudi Arabia. With 
respect to the transfer of U.S. nuclear technology in Saudi 
Arabia, I gather you signed off on the Department of Energy's 
decision to provide the Part 810 authorizations. Is that right?
    Secretary Pompeo. I did. We were part of that conversation.
    Senator Van Hollen. Can you tell us when that was?
    Secretary Pompeo. I'll get you the answer.
    Senator Van Hollen. For the record. Okay.
    [The information follows:]

    The Bureau of International Security and Nonproliferation, which 
has responsibility within the Department for civil nuclear cooperation 
matters, oversaw the Department's review of the seven Saudi Arabia-
related Part 810 applications from November 2017 to March 2019 and 
provided concurrence on each of them to the Department of Energy. These 
reviews were conducted consistent with U.S. law and standard Department 
of State practices.

    As you know, Saudi Arabia has talked openly about acquiring 
a nuclear weapon in addition to many of the sort of 
transgressions we've discussed today. As you know, the United 
Arab Emirates (UAE) adopted the gold standard. Would you agree 
that it should be our position that before we move forward with 
any kind of nuclear deal with Saudi Arabia, even if we made the 
decision that that was a wise move, that at the very least they 
should have the gold standard?
    Secretary Pompeo. It's certainly been what we've been 
pursuing. Right? It's what the administration had been trying 
to get. That's our goal.
    Senator Van Hollen. I understand, Mr. Secretary, but you, 
of course, will be able to make the decision about whether 
that's an absolute condition or not, assuming people move 
forward on the merits. And I would--I hope it would be American 
policy to require that as a condition if the decision is made 
to move forward.
    Let me briefly just mention two bipartisan bills that have 
been introduced and ask if you can take a look at them and get 
back to us.
    Secretary Pompeo. Yes, sir.

  OTTO WARMBIER BANKING RESTRICTIONS INVOLVING NORTH KOREA (BRINK) ACT

    Senator Van Hollen. One is on--it's called the BRINK Act. 
Senator Toomey and I introduced it. Is it your position, the 
administration's position, that as we continue negotiations 
with North Korea, we should maintain maximum economic pressure?
    Secretary Pompeo. Yes.
    Senator Van Hollen. Okay. Because there was some confusion, 
as you know, recently, because the President made a comment and 
maybe walked it back. But I'm glad to hear that answer because 
that's exactly what the BRINK Act would do. It would apply the 
same sanctions regime with respect to North Korea that we did 
with Iran that helped bring Iran to the negotiating table, 
applying secondary sanctions. There was a report today about 
how China had, you know, opened another crossing on the Yalu 
River with respect to trade, which obviously undermines the 
economic pressure. So I hope that you will join with us in that 
effort.

 DEFENDING ELECTIONS FROM THREATS BY ESTABLISHING REDLINES (DETER) ACT

    The other measure is the DETER Act. I've introduced that 
with Senator Rubio. It's designed to make sure that we deter 
future Russian interference in our elections. And unlike other 
measures here, which are just adding new sanctions now, it's a 
prospective sanction. I think sanctions should be designed to 
try to influence behavior. And the idea is pretty simple: if we 
catch the Russians again interfering in our elections, they 
will face swift and severe sanctions. So if you're Putin trying 
to make that calculation going forward, you will know you have 
a very heavy price to pay. We introduced it last year, but 
we're going to be reintroducing it. I think you were very 
supportive of the concept.
    Secretary Pompeo. Mm-hmm.
    Senator Van Hollen. Would you support going forward with 
something like that?
    Secretary Pompeo. I would. I know the outlines of the DETER 
Act, and conceptually I think it makes sense.
    Senator Van Hollen. Thank you. I appreciate that. Thank 
you.
    Senator Graham. We've got like 30 seconds. You've been 
great, by the way.

                                 TURKEY

    Turkey, important ally, a lot of problems. Do you support 
increased economic integration between the American economy and 
Turkey?
    Secretary Pompeo. I do.

                              AFGHANISTAN

    Senator Graham. When it comes to Afghanistan, can you 
assure this subcommittee and the world that the Afghan 
government will be a meaningful participant in any peace deal?
    Secretary Pompeo. More than that. They will be at the 
center readily of Afghan led.

                                 LIBYA

    Senator Graham. I am going to Italy and Tunisia next week: 
what should the message be about Libya?
    Secretary Pompeo. So we have made clear our expectation 
that the process, the political process, there will be allowed 
to come to its fruition and that there shouldn't be bloodshed 
and violence to resolve this, that there should be a political 
resolution there at Libya.
    Senator Graham. Well, thank you. You've done an excellent 
job as Secretary of State. I personally appreciate all the 
effort that you put into your job, the counsel you've given the 
President, and appearing before the subcommittee today.
    We have statements from the Department of State's Office of 
Inspector General, and the Special Inspector General for 
Afghanistan Reconstruction that will be made part of the 
record. Also, a letter from the Comptroller General of the 
United States regarding ``Priority Open Recommendations: 
Department of State'' will be made part of the record.
    [The statements follow:]
 Prepared Statement of Steve A. Linick, Inspector General for the U.S. 
        Department of State and the U.S. Agency for Global Media

   HEARING TO REVIEW THE FISCAL YEAR 2020 FUNDING REQUEST AND BUDGET 
             JUSTIFICATION FOR THE U.S. DEPARTMENT OF STATE

    Chairman Graham, Ranking Member Leahy, and Members of the 
subcommittee, thank you for requesting my testimony regarding the work 
of the Office of Inspector General (OIG) for the Department of State 
(Department) and the U.S. Agency for Global Media (USAGM, formerly 
Broadcasting Board of Governors). We appreciate your interest in and 
support of OIG's work.
    In this testimony, I will highlight some of our recent work, 
including our oversight of top management challenges facing the 
Department and USAGM. I will also discuss priority recommendations and 
issues, OIG initiatives, and some of the effects of our work.
                    i. mission and oversight efforts
    It is my honor to have led OIG since the beginning of fiscal year 
2014, and I am pleased to have this opportunity to discuss our work. 
OIG's mandate is extensive, requiring us to oversee both Department and 
USAGM programs and operations, which include more than 75,000 employees 
and over 270 overseas missions and domestic entities. We are 
responsible for the oversight of more than $70 billion in Department 
and USAGM programs and operations, including more than $14 billion in 
combined annual appropriations and more than $18 billion in Department-
managed foreign assistance.
    Additionally, our mandate is unique in that we are statutorily 
required to inspect and audit every domestic and overseas operating 
unit of the Department and USAGM at least once every 5 years. Although 
this requirement has routinely been waived by Congress due to our 
limited resources, OIG employs a risk-based approach to planning 
inspections that allows us to leverage those resources and target them 
more efficiently. Under this approach, we are focusing on higher risk 
missions and tailoring inspections to the needs at specific posts.
    Our work has resulted in significant monetary and non-monetary 
benefits for the Department, USAGM, and the American public. I discuss 
these results in more detail below.
Management and Performance Challenges
    In this testimony, I will focus on the Department's top management 
and performance challenges as identified in the statutorily mandated 
annual report on this matter. In fiscal year 2018, we noted seven key 
challenges: the protection of people and facilities; oversight of 
contracts, grants, and foreign assistance; information security and 
management; financial and property management; operating in contingency 
and critical environments; workforce management; and promoting 
accountability through internal coordination and clear lines of 
authority.
Protecting People and Facilities
    One of OIG's top priorities is overseeing the protection of the 
Department's greatest asset, its people. The threat of terrorism or 
physical violence against U.S. diplomats and U.S. diplomatic facilities 
touches every region of the world. Additionally, natural disasters, 
environmental hazards, and ordinary crime continually pose risks to the 
health and safety of Department personnel and their families serving 
abroad.
    Although the Department has made improvements in overseas safety 
and security since the 2012 attacks on various diplomatic facilities in 
Benghazi, Libya, our inspection and audit work continues to identify 
vulnerabilities that put our people at risk. Given the sensitive nature 
of OIG's work in this area, many of the reports related to safety and 
security are classified. As these reports pertain to some of our most 
important work--including, for example, setback and perimeter issues at 
overseas posts; employees working in unprotected spaces, such as 
warehouses; and the status of emergency medical supplies at some 
posts--I encourage you to review those materials in an appropriate 
setting. This testimony includes only information that is publicly 
available, much of which relates to the day-to-day work Department 
employees perform--the safety and appropriateness of the facilities in 
which they work, the vehicles that they drive, and the places where 
they live.
    Constructing and maintaining safe and secure diplomatic facilities 
has been an ongoing challenge for the Department and is compounded in 
regions affected by conflict and humanitarian crises. In terms of 
existing facilities, our inspection work frequently finds overseas 
posts that lack comprehensive and routine preventative maintenance 
programs. In terms of new construction, one significant challenge our 
work increasingly highlights is the management and oversight of 
construction contracts. Aside from their substantial cost, they have 
significant security implications. For example, our work has examined 
the construction of two buildings at Embassy Kabul. In one audit 
report, OIG concluded that poor quality assurance and oversight of the 
construction process resulted in a failure to adhere to electrical and 
fire safety standards. A follow-up report in fiscal year 2018 also 
revealed risks to personnel and property due to the improper 
installation of the Embassy's fire alarm system as part of a major 
office and residential expansion.
    As a general matter, we have found that systemic issues in the 
Department contribute to our concerns about physical security measures. 
We have identified places where coordination between the Bureau of 
Overseas Buildings Operations (OBO) and the Bureau of Diplomatic 
Security (DS), both of which have responsibilities in this area, could 
be improved. One longstanding and significant issue on which we have 
recommended the two bureaus coordinate is the tracking and prioritizing 
of physical security needs at overseas posts. Although the Department 
has made substantial progress in this area, as I will discuss later in 
this testimony, work remains, and that recommendation has not yet been 
fully implemented.
    Another area of OIG focus related to the safety of Department 
personnel has been the operation of official vehicles overseas. Our 
fiscal year 2018 inspection work continued to find long-standing 
deficiencies that pose health and safety risks. These include failure 
to follow policies related to excessive work hours, lapses in medical 
clearances for operators of official vehicles, and outdated or absent 
safety training for drivers. Finally, we have identified issues related 
to the Department's residential housing program and overseas posts' 
emergency preparedness that pose risks to the health and safety of 
Department personnel. In several fiscal year 2018 inspection reports, 
we identified posts that had not properly inspected or could not 
demonstrate they had properly inspected residential properties for 
health and safety risks before assigning employees to occupy them.
Oversight of Contracts, Grants, and Foreign Assistance
    OIG focuses on oversight of contracts and grants, an area where the 
Department expends substantial resources. The Department's obligations 
in fiscal year 2018 included approximately $15 billion for contracted 
services and the same amount in grants and fixed charges. The 
Department faces continuing challenges managing its contracts, grants, 
and cooperative agreements, particularly those that are long-term and 
complicated. The Department must ensure that contractors and grantees 
are appropriately selected, work is properly conducted and monitored, 
objectives of the grant or contract are achieved, and costs are 
effectively managed. As with ensuring the safety of personnel, 
management of grants and contracts is especially challenging in 
conflict areas, which present unique obstacles to effective oversight.
    Overall, we have found that the Department can significantly 
improve its oversight of contracts and grants. As a result, a large 
percentage of our audit, inspection, and management assistance reports 
address, at least in part, deficiencies in this area. Additionally, 
nearly 40 percent of the investigations OIG's Office of Investigations 
closed in fiscal year 2018 related to contract and grant fraud. At the 
root of many of these deficiencies are inexperienced and untrained 
oversight personnel, staff rotations that lead to inefficiency, and 
complex programs and contracts that simply require more robust 
oversight. Although the Department has addressed some problems, 
particularly related to invoice review processes in certain bureaus, we 
continue to identify widespread weaknesses.
    In recent reports, inspectors and auditors have noted that routine 
contract management tasks, such as validating performance metrics to 
assess contractor performance and maintaining complete and accurate 
contract files, were not being performed in compliance with Department 
guidance and Federal regulations. For example, an audit of food safety 
controls at Embassy Baghdad found that the Department failed to develop 
a quality assurance surveillance plan that included measurable and 
structured performance standards and was unable to provide 
documentation for over one quarter of required food service 
inspections.
    OIG's audit and inspection reports also highlight circumstances 
where Contracting Officer's Representatives (CORs) served without 
proper training or without proper designation, which could affect their 
ability to ensure adequate oversight of contractors. For instance, in 
the example above, the CORs assigned to the food services task order we 
audited--which had an obligated value of nearly $300 million as of 
December 2017--had no experience in food safety and received no food 
safety training before assuming oversight responsibilities. Taking a 
more systemic view, one management assistance report identified 
structural issues that contribute to the agency's widespread contract 
oversight challenges. It reported that the broad dispersal of CORs 
throughout the Department limits the ability of Contracting Officers 
and the Office of the Procurement Executive (which provides overall 
leadership on procurement and Federal award functions) to oversee the 
performance of CORs who often work in other bureaus and offices, 
frequently far from Washington, D.C.
    Inadequate or unskilled contract oversight can be costly for the 
Department. During our audit of the Department's aviation program, we 
found that the Bureau of Medical Services had awarded a sole-source 
contract based on one contractor's unique capability to conduct 
aeromedical biocontainment evacuations but subsequently never used the 
specialized capability. Furthermore, the Contracting Officer later 
modified the contract so that the Department could use the aeromedical 
aircraft to shuttle Department employees between Kenya and Somalia as 
part of routine transportation needs. We concluded that this change in 
the purpose of the contract constituted such a significant change in 
its scope that it required full and open competition. As a result of 
the modification, the Department has used the sole-source contract for 
other services at higher costs than would have been incurred using 
competed sources or the Department's own aircraft. In another example, 
OIG found that contracting personnel for the same food services task 
order at Embassy Baghdad referenced above did not effectively implement 
contractually established cost controls to protect the Department's 
financial interest. We identified approximately $45 million in 
questioned costs in this review.
    A growing body of OIG's work addresses a particular subset of 
Department contracts: those for the construction of new diplomatic 
facilities. These contracts are usually long-term, complex, and high 
value. Thus, inadequate management and oversight pose significant 
financial risks for the Department. One approach intended to reduce 
costs for high-value contracts is the value engineering program--a 
systematic process of reviewing and analyzing systems, projects, 
equipment, facilities, services, and supplies for the purpose of 
achieving the essential functions at the lowest life-cycle cost 
consistent with required levels of performance, reliability, quality, 
or safety. Although Office of Management and Budget policy requires 
agencies to have a value engineering program, we found the Department 
had not implemented one outside of OBO. Moreover, in an audit of the 
OBO value engineering program, we could not complete some planned 
analysis because of missing documentation that prevented auditors from 
evaluating the overall effectiveness of the program. Therefore, we 
concluded that the Department is missing opportunities to consider cost 
reductions for major procurements, including construction projects.
    With regard to grants and foreign assistance programs, we have 
noted problems with performance monitoring and risk assessment. For 
example, in an inspection of the Bureau of African Affairs foreign 
assistance program, we reported a lack of documented processes related 
to foreign assistance project planning, monitoring and evaluation, and 
risk management. We concluded that the program did not consistently 
deploy monitoring and evaluation resources effectively across the 
bureau and did not coordinate site visits.
    Additionally, several fiscal year 2018 reports identified concerns 
regarding the Department's ability to plan and design foreign 
assistance programs that meet policy goals. For example, in one Bureau 
of International Law Enforcement Affairs (INL) foreign assistance 
program in Central America, our inspection work found that inadequate 
planning resulted in the acquisition and provision of unusable 
equipment. Specifically, five helicopters furnished to the host 
government could not be used for drug interdiction missions--a core 
focus of the program--because they had been grounded since 2016 as a 
result of poor maintenance and questionable procurement practices. On a 
broader scale, an audit of the Department's aviation program found that 
the Department had not succeeded in permanently increasing host 
nations' institutional capability to operate programs without U.S. 
Government assistance. Efforts to do so have faltered primarily because 
transition plans, including benchmarks, had not been developed and 
executed with the host countries.
Information Security and Management
    The Department depends on information systems and electronic data 
to carry out essential functions that are critical to its mission. The 
Department is entrusted with sensitive information, both classified and 
unclassified, which it processes and stores on those systems. The 
security of these systems is vital to protecting national and economic 
security, public safety, and the flow of commerce. IT security and 
management is a longstanding and significant management challenge for 
the Department.
    As in prior years, OIG's annual assessment of the Department's 
information security program identified numerous control weaknesses 
that significantly affected program effectiveness and increased the 
Department's vulnerability to cyberattacks and threats. Throughout 
fiscal year 2018, OIG identified various areas where the Department 
could strengthen its cybersecurity performance. For example, our 
inspection work noted numerous instances of lapses in the performance 
of Information Systems Security Officer (ISSO) duties at overseas 
posts. This is a significant risk because ISSOs are responsible for 
implementing the Department's information systems security program and 
for working closely with system managers to ensure compliance with 
information systems security standards. Several inspections of overseas 
posts also noted deficiencies in IT contingency planning, which risks 
ineffective responses to or loss of critical communication during an 
emergency crisis. Finally, we have repeatedly identified concerns 
regarding the Department's ability to maintain an accurate inventory of 
its IT assets.
    Two of the issues that contribute to OIG's concerns regarding IT 
security and management at the Department are the lack of an effective 
risk management strategy and dispersed authority for IT matters. In 
particular, the Chief Information Officer (CIO), who is the head of the 
Bureau of Information Resource Management (IRM), is not well placed in 
the organization to be fully accountable for information security 
program issues. For example, DS, which also has information security 
responsibilities, does not report to the CIO. We continue to recommend 
that the Department address this decentralized reporting structure so 
the CIO can effectively manage information security and information 
security risk management processes for the Department. Although the 
Department took some steps to improve the CIO's authority, we continue 
to view the organizational placement of the CIO as a deficiency.
    This management challenge is particularly significant because of 
the uniquely broad effect that information security program weaknesses 
have on the Department's overall programs and operations. Such 
weaknesses can affect the integrity of financial applications, which, 
in turn, increases a variety of risks.
Financial and Property Management
    Financial management has historically been a challenge for the 
Department, and we continue to identify wide-ranging concerns related 
to this issue and to property management.
    Weaknesses in the Department's collection, use, and analysis of 
financial information are a particularly significant manifestation of 
this challenge. In one notable report from fiscal year 2017, OIG 
highlighted significant flaws in the Department's processes that set 
certain cost-of-living allowances for Department employees who are 
stationed in foreign areas. Our report described a laborious, 
subjective, and error-prone process for gathering data that has not 
changed in decades. We estimated that using independent economic data 
instead of collecting the underlying information on its own would have 
saved the Department more than $18 million from fiscal year 2013 to 
fiscal year 2015 at six of the seven posts audited. Nonetheless, our 
recommendation to develop and implement a plan to use independent 
economic data to determine post allowance rates remains unimplemented.
    Another fiscal year 2017 report identified significant flaws in the 
processes the Bureau of Consular Affairs (CA) used to set fees for 
selected consular services. Specifically, the report noted that the 
fee-setting methodology did not rely on adequate data and did not fully 
consider the effects of large carry-forward balances. Furthermore, CA 
did not have an adequate process to analyze its financial results over 
time to determine whether adjustments to its fee-setting methodology 
were required, and it did not have adequate historical data or sound 
quality processes to assess the data that it did use. The Department is 
working to address our recommendations that the Department determine a 
threshold for required carry-forward balances and return excess 
unobligated balances from consular fees to the Department of the 
Treasury, which OIG reported as $284 million, to be put to better use 
across the Federal Government and to benefit taxpayers.
    More recently, we published an audit that found that the Department 
lacked adequate policies and procedures for evaluating and remitting to 
the Department of the Treasury excess earnings in its Working Capital 
Fund accounts. The Working Capital Fund provides a variety of goods and 
services to Department and other Federal customers through its cost 
centers, which are funded by reimbursements or advanced payments at 
rates that will approximate the cost of goods and services provided--
that is, they are intended to ``break even.'' Our audit was unable to 
determine whether excess earnings should have been transferred to the 
Department of the Treasury and concluded that the Department is unable 
to advance the primary purpose of the Working Capital Fund, which is to 
provide an effective means for controlling costs of goods and services 
and to encourage cost consciousness and efficiency for users and 
suppliers of services.
    We regularly identify internal control weaknesses at the 
Department, which is another subset of its financial and property 
management challenge. Internal control deficiencies span a wide range 
of Department operations and may be related to unliquidated 
obligations, acquisition planning, warehouse operations, or oversight 
of bulk fuel inventory, to name a few examples. In one fiscal year 2018 
audit, we found that the Department is not optimally managing aviation 
resources and that it accordingly spent $72 million on unnecessary 
services over a 4-year period. Our audit report noted that a lack of 
procedures and guidance contributed to insufficient accountability over 
aircraft equipment and improper disposal of aircraft, placing aviation 
assets at increased risk for fraud, waste, and abuse.
    Lastly, we assess the difficulty the Department faces in tracking 
and reporting on foreign assistance funds under this challenge. The 
lack of information on this crucial aspect of the Department's work 
hinders its ability to manage foreign assistance resources 
strategically, identify whether programs are achieving objectives, and 
determine how well bureaus and offices implement foreign assistance 
programs. I will discuss this further when I highlight our priority 
issues below.
Operating in Contingency and Critical Environments
    We recognize the particular difficulties the Department faces in 
managing posts and programs in environments characterized by 
contingency operations or other types of conflict or instability. 
Because of the security concerns, constant change, and sometimes 
dramatic swings in personnel and funding that can occur in these 
environments, every other challenge the Department faces is magnified 
in these locations.
    Managing contracts and foreign assistance can be particularly 
challenging in contingency and critical environments. In an audit of 
new construction projects at Embassy Kabul, we found the Department 
declared new construction substantially complete even though 14 major 
buildings systems were not fully tested and confirmed to meet the 
design intent and specified performance requirements. We learned that 
an unstable security environment and the pressure to move staff into 
hardened structures contributed to this action, which ultimately 
resulted in personnel occupying buildings that had a range of ongoing 
deficiencies, including issues affecting plumbing systems and heating, 
ventilation, and air conditioning systems. Some of the identified 
deficiencies created electrical and fire safety issues. Similarly, at 
Embassy Baghdad, Department officials told us they did not implement a 
point-of-sale cafeteria system because of a security-related crisis in 
Iraq and later because of morale concerns. Further, officials told us 
that they did not restrict access to the dining facility for locally-
engaged staff due to contractual limitations. As a result of these 
weaknesses in oversight, we estimated that the Department 
inappropriately paid for at least 450,000 meals valued at more than $4 
million.
    Financial and property management challenges are also exacerbated 
in difficult operating environments. For example, in an inspection of 
the Yemen Affairs Unit--the diplomatic mission established in Jeddah, 
Saudi Arabia, following the suspension of operations and evacuation of 
Embassy Sana'a, Yemen, in February 2015--we found that lost records 
made addressing unliquidated obligations difficult and labor-intensive. 
Similarly, the inability to return to Yemen created ongoing problems in 
managing a leased property.
Workforce Management
    A challenge we first identified in fiscal year 2017 and again in 
fiscal year 2018 is workforce management. Across functional areas and 
geographic regions, OIG found that inexperienced staff, insufficient 
training, staffing gaps, and frequent turnover contribute to the 
Department's other management and performance challenges. These 
problems afflict programs and operations domestically and overseas and 
are identified in a range of reports that cover a variety of topics.
    Deficiencies associated with oversight of contracts and grants are 
sometimes connected to these issues. For example, an audit of the 
Bureau of Near Eastern Affairs' selection and management of contract 
oversight personnel illustrated how the Department's contract oversight 
and workforce management challenges intersect. We found that the bureau 
did not consistently nominate CORs with the required certification 
level and technical expertise to oversee contracts in Iraq and did not 
always effectively evaluate the performance of contract oversight 
staff. As a result, we also found deficiencies in COR files and 
contractor performance monitoring. In another example, we found that in 
one office in IRM, only one COR was responsible for overseeing 14 
complex contracts worth over $100 million per year in fiscal year 2016 
and fiscal year 2017. As a result, we found oversight weaknesses, 
including approval of invoice payments without appropriately verifying 
that goods had been received.
    More generally, we see that many Foreign Service personnel are 
assigned management of contracts and grants as a collateral duty but do 
not receive necessary training. In addition, most Foreign Service 
employees rotate in and out of posts frequently, and some assignments 
are as short as 1 year. As a result, many large grants and contracts 
have multiple employees overseeing them, which leads to a lack of both 
continuity and accountability.
    Another area of concern is significant staffing shortfalls at 
particular bureaus. For example, our inspection of the Bureau of 
African Affairs noted the bureau's profound difficulties in attracting 
Foreign Service Officers to its overseas posts. The Bureau of South and 
Central Asian Affairs experiences similar challenges.
Promoting Accountability Through Internal Coordination and Clear Lines 
        of Authority
    Another challenge that we first identified in fiscal year 2017 
relates to internal coordination and clear lines of authority. We found 
that poor coordination and vague or dispersed authority are often at 
the root of some of the Department's other challenges. This is a 
concern that affects a wide range of Department functions. It is often 
implicated in problems particular to certain Department programs or 
projects, and it is likewise relevant to some of the Department's more 
longstanding and systemic difficulties, including ensuring physical and 
information security, both of which I mentioned previously.
    In one fiscal year 2018 report, OIG found that the Department had 
not effectively implemented its non-financial management control 
program. Although Department policy gave overall responsibility for 
designing this program to the Bureau of the Comptroller and Global 
Financial Services (CGFS), the Department's Comptroller stated that the 
policy did not accurately reflect the entities responsible for 
particular tasks and that such obligations were actually split between 
CGFS and the Office of Management Policy, Rightsizing, and Innovation. 
We concluded that, nonetheless, the two entities had not coordinated or 
maintained close communication and did not have the same understanding 
of their respective obligations. This report illustrates how unclear 
lines of responsibility make it more difficult for the Department to 
manage its overall risks.
    Additionally, in a review of passport seizures at Embassy Sana'a, 
Yemen, we found that diffused and overlapping legal responsibilities at 
the Department--along with the lack of a single decision maker with 
clear authority for resolving differing viewpoints--contributed to the 
prolonged and difficult search for a resolution.
                ii. priority recommendations and issues
    Many of our recommendations are specific to particular posts or 
programs, but others address more systemic issues that have the 
potential to improve overall operations of the Department and USAGM.\1\ 
With respect to the Department, we believe that the following 
recommendations, all of which have been previously issued by OIG and 
suggest changes in the Department's processes, would go far in 
addressing the most important management challenges.
---------------------------------------------------------------------------
    \1\ During my tenure, we have issued numerous reports on USAGM 
programs and operations. Many challenges we have identified are similar 
to those affecting the Department, including information security and 
management, financial and property management, and grants management. 
For example, we recently reported that USAGM has not fully developed 
and implemented an effective organization-wide information security 
program to identify, protect, detect, respond to, and recover from 
information security weaknesses using risk-based decisions. 
Additionally, we noted USAGM's noncompliance with some of its reporting 
responsibilities in the Improper Payments Act and the Digital 
Accountability and Transparency Act.
---------------------------------------------------------------------------
    As to physical security, OBO and DS have overlapping 
responsibilities for crucial physical security issues. As described 
above, OIG recommended that the bureaus develop and implement formal, 
standardized processes to prioritize physical security needs. Follow-up 
work found that the Department has made significant progress on this 
recommendation by developing and populating a physical security 
deficiencies database to collect all deficiencies at overseas posts. 
Nonetheless, it has not yet implemented a process to prioritize, fund, 
and plan for security upgrades in a systematic, deliberate way.
    On the topic of IT, we have reported on deficiencies with the 
Department's risk management strategy for the past 5 years, and we 
continue to urge the Department to implement a strategy to identify, 
assess, respond to, and monitor risk. Although a Cyber Risk Office was 
established in the Bureau of Information Resource Management, we found 
little had been accomplished on a strategy as of the issuance of our 
annual information security program audit report in October 2018. An 
effective organization-wide approach would enable the Department to 
understand its current risk profile, identify opportunities to improve 
risk management, and communicate risk. As described previously, other 
key outstanding IT recommendations also relate to the organizational 
placement of the CIO. We will monitor whether these steps are 
sufficient to ensure that the Department properly manages its 
information security risk.
    Another longstanding issue relates to the tracking of foreign 
assistance. In a 2017 compliance follow-up review, we found that the 
Department had not complied with 2015 recommendations to implement a 
comprehensive plan for tracking and reporting foreign assistance 
funding. Without such a system, the Department cannot make data-driven 
decisions. We accordingly recommended that the Deputy Secretary issue 
clear requirements for the data needs of senior Department policymakers 
and prioritize the Department's efforts related to foreign assistance 
tracking and reporting. The Department took sufficient action to close 
this recommendation in April 2018. In fiscal year 2020, however, we 
plan to follow up on how the Department has developed and implemented 
plans to address foreign assistance management, including legal and 
regulatory oversight needs and external reporting requirements.
    To reiterate, I treat these issues as a priority in large part 
because they relate to the systemic concerns that we have identified as 
key management challenges. Attention to these issues--particularly the 
need for coordination and clear lines of authority--will go far in 
addressing specific deficiencies identified in individual reports.
                          iii. oig initiatives
    My tenure as Inspector General began at the outset of fiscal year 
2014, and since that time, we have undertaken a number of initiatives 
meant to make the most of our limited resources to further our 
oversight mission. Soon after my arrival, we began to issue management 
assistance reports and management alerts that are intended to alert 
senior Department leadership to significant issues that require 
immediate corrective action. These reports allow us to bring issues 
that we identify in the course of fieldwork to the Department's 
attention quickly, without waiting for the conclusion of our overall 
work. We also established the Office of Evaluations and Special 
Projects (ESP) shortly after my arrival. ESP complements the work of 
OIG's other offices by improving our capacity to focus on broad, 
systemic issues.
    In August 2016, OIG established its own IT network. Before we made 
this change, our IT infrastructure was part of the Department's own 
unclassified network, which meant that vulnerabilities in that network 
directly affected us. Moreover, the contents of our unclassified 
network could be easily accessed by the Department and potentially 
compromised, a situation that placed our independence at unnecessary 
risk and did not reflect best practices within the IG community.
    More recently, to further enhance our commitment to transparency, 
we have begun posting to our website monthly reports regarding our 
unclassified recommendations, which include the total number of open 
recommendations as well as the number of recommendations closed in the 
previous month. Additionally, we provide relevant congressional 
committees monthly information on unclassified, classified, and 
sensitive but unclassified recommendations.
    We also continue to fulfill our responsibilities related to 
whistleblower protection. In addition to conducting outreach to educate 
Department and USAGM employees on the rights and protections available 
to whistleblowers, our whistleblower protection coordinator oversees 
investigations of allegations of retaliation filed by employees of 
contractors, subcontractors, grantees, subgrantees, and personal 
services contractors.
                       iv. effects of oig's work
    Through our audits, evaluations, inspections, and investigations, 
OIG returns substantial value to U.S. taxpayers. In my first 5 years as 
Inspector General (fiscal year 2014-fiscal year 2018), we issued more 
than 600 reports and identified more than $1.7 billion in potential 
monetary benefits, which amounts to a fourfold potential return to 
taxpayers for every dollar appropriated to OIG.
    Additionally, OIG embraces its mission to protect people and 
information, although these efforts rarely result in a monetary return 
on investment. By helping the Department improve its security, OIG's 
work safeguards the lives of people who work in or visit our posts 
abroad. Our security work is a source of immense pride.
    Since 2014, our investigative work has seen consistent and positive 
growth in administrative actions and criminal convictions associated 
with our cases. For example, one of our investigations resulted in the 
conviction and sentencing of a former Department employee to 26 years 
in prison for conspiring to produce more than a thousand sexually 
explicit images and videos of minor children in Canada during a 2-year 
period. Another investigation led to a Department contract company 
agreeing to pay a nearly $1 million administrative settlement to 
resolve allegations that it knowingly provided false information to the 
Department. Our special agents determined that the company did not 
comply with contractual obligations to ensure that U.S. Embassy local 
guard force personnel were adequately trained to contract 
specifications. Finally, a joint investigation with the Department's 
Bureau of Diplomatic Security resulted in the sentencing by a foreign 
court of three Department locally employed staff, along with three 
local foreign national citizens, to probation. The court also ordered 
restitution of $460,000 to the Department as well as various fines. The 
individuals participated in a large-scale theft of approximately $2.3 
million in diesel fuel from Embassy Tbilisi, Georgia. In addition, 11 
individuals were debarred, and post management terminated six 
employees. At least two pensions were withheld, resulting in 
approximately $46,500 in funds put to better use.
    In recent years, we have also observed notable improvements on 
specific aspects of Department programs and operations. Regarding the 
physical security deficiencies database I mentioned previously, the 
Department has completed the majority of past-due physical security 
surveys and populated the deficiencies database, and the work done thus 
far has already made the database a useful tool. As I emphasized with 
respect to our priority recommendations, though, the Department must 
still implement a method for prioritizing those deficiencies, and this 
vital aspect of our recommendation should be addressed as soon as 
possible. The Department has also developed an e-filing document 
management system for Contracting Officer's Representatives to store 
contract files that had previously been kept in hard copy. Although the 
development of the e-filing system has been an important step toward 
providing effective contract file inventory control, the Department has 
not required its use. We advised the Department to issue guidance 
mandating use of the system. In response to our audit and inspection of 
the armored vehicle program, which illustrated program management 
deficiencies and health and safety issues, the Department has made a 
number of improvements to the program. For example the Department 
established mandatory training for all overseas professional drivers, 
developed and implemented an armored vehicle program plan and hired a 
program manager, developed a system to ensure that posts are 
reassessing the need for armored vehicles at posts, and established an 
oversight mechanism to ensure posts are performing the reassessment.
                             v. conclusion
    In conclusion, I want to again thank Chairman Graham, Ranking 
Member Leahy, and the Members of the subcommittee for inviting my 
testimony. I also want to emphasize that OIG's accomplishments are a 
credit to the talented and committed staff that I have had the 
privilege to lead, and I also want to thank them for their hard work. I 
take my statutory requirement to keep the Congress fully and currently 
informed seriously, and I appreciate your interest in our work.
                                 ______
                                 
  Prepared Statement of John F. Sopko, Special Inspector General for 
                       Afghanistan Reconstruction

  U.S. RECONSTRUCTION EFFORTS IN AFGHANISTAN: KEY HIGH-RISK AREAS TO 
                          PERSIST INTO FUTURE

    Chairman Graham, Ranking Member Leahy, and Members of the 
subcommittee,

    This statement explains the fiscal year 2020 budget request for the 
Special Inspector General for Afghanistan Reconstruction (SIGAR). The 
statement describes SIGAR's successes, challenges to accomplishing its 
mission, and steps taken to overcome or mitigate these challenges. In 
keeping with the agency's oversight mission, this statement also 
touches on key management and program challenges facing State, the 
United States Agency for International Development (USAID), and the 
Department of Defense (DoD) by noting areas of high risk that SIGAR has 
identified.
    Since fiscal year 2002, Congress has appropriated approximately 
$132.3 billion to rebuild Afghanistan.\1\ For fiscal year 2020, the 
President has requested $533 million in Afghanistan-related funding via 
the State Department budget.\2\ The President has also requested more 
than $4.8 billion in the Department of Defense (DoD) budget to train, 
equip, and sustain the Afghan National Security and Defense Forces 
(ANDSF).\3\ Another $10.8 billion from previous years' reconstruction 
appropriations remains available for disbursement.\4\
---------------------------------------------------------------------------
    \1\ SIGAR, Quarterly Report to the Congress of the United States, 
1/30/2019, p. 43.
    \2\ The White House, Fiscal Year Budget 2020 Budget of the U.S. 
Government, 3/11/2019, p. 72.
    \3\ Department of Defense, Justification for Fiscal Year 2020 
Overseas Contingency Operations Afghanistan Security Forces Fund, March 
2019, p. 6.
    \4\ Data as of 12/31/2018. SIGAR, Quarterly Report to the United 
States Congress, 1/30/2019, p. 49.
---------------------------------------------------------------------------
    SIGAR's mission is to ensure that all these funds are spent as 
effectively and efficiently as possible, and that they are protected 
from waste, fraud, and abuse. Our enabling legislation also directs 
SIGAR to keep Congress and the Secretaries of State and Defense 
informed on reconstruction issues and to offer recommendations for 
improvement.\5\
---------------------------------------------------------------------------
    \5\ Public Law No. 110-181, Sec. 1229.
---------------------------------------------------------------------------
    Embedded in State's overall request is SIGAR's fiscal year 2020 
budget request of $52.9 million. The amount sought is $2 million less 
than provided in each of the last two fiscal years. We believe the 
requested funding level is adequate to continue meeting SIGAR's 
congressional mandate. However, the $2 million reduction does limit 
SIGAR's ability to adapt to the rapidly changing environment in 
Afghanistan. Should the U.S. increase its use of ``on-budget'' 
assistance (assistance channeled directly to the Afghan government or 
through multilateral trust funds), it will be vitally important that 
the ministries have strong accountability measures and internal 
controls in place. Oversight over those measures and controls will be 
equally important. SIGAR's experience reviewing bilateral and 
multilateral on-budget assistance and exposing waste, fraud, and abuse 
makes it uniquely qualified to review ministries and their ability to 
handle on-budget assistance. For example, at the request of President 
Ghani, SIGAR currently is conducting a financial audit of Afghanistan's 
electric utility, Da Afghanistan Breshna Sherkat (DABS). SIGAR also has 
a strategy in place for looking at the internal controls of other 
ministries if asked.
    While the United States continues to support a peaceful resolution 
to the Afghanistan War, Taliban insurgents are still waging war, and 
foreign terrorist groups are making their presence felt. Personal 
safety and obstacles to travel remain key concerns. In other words, the 
risk of waste, fraud, and abuse of reconstruction funds in Afghanistan 
has grown, even as the ability to exercise effective oversight is 
increasingly constrained.
    Nevertheless, SIGAR continues to provide aggressive oversight of 
reconstruction projects and the use of U.S. funds, and has adapted to 
the more constrained environment by using innovative remote monitoring 
techniques, including using third-party inspectors to go where SIGAR 
employees cannot, employing Afghan nationals, and using geospatial 
monitoring.

Fiscal Year 2020 Budget Request Highlights SIGAR's Unique and Critical 
          Role in Overseeing Afghanistan Reconstruction Funds

    SIGAR is the only inspector general with interagency authority to 
audit, inspect, and investigate the activities of all U.S. Government 
agencies and international organizations that receive U.S. funding for 
Afghanistan reconstruction. As a result, SIGAR can conduct crosscutting 
reviews of State, USAID, DoD, and other agencies that are involved in 
reconstruction programs. In addition, SIGAR is the only oversight 
agency devoted solely to Afghanistan reconstruction, enabling it to 
examine reconstruction programs and issues in more depth while still 
producing timely and high-quality work. Further, SIGAR is truly 
independent. We conduct our oversight autonomously and report directly 
to Congress and to the Secretaries of State and Defense.
    SIGAR currently has the largest oversight presence in Afghanistan, 
with more auditors, analysts, and investigators in country than any 
other agency. SIGAR has an authorized staff of 30 employees at U.S. 
Embassy Kabul and Bagram Airfield.\6\ These employees comprise 
auditors, inspectors, and investigators, plus management and support 
staff. In addition, five Afghan citizens support SIGAR's work in Kabul.
---------------------------------------------------------------------------
    \6\ The actual number of SIGAR staff residing in Afghanistan is 
usually fewer than 30, due to reassignments and normal turnover.
---------------------------------------------------------------------------
    Most of SIGAR's deployed staff serve at least 2 years in country. 
This practice reduces annual turnover compared to other U.S. agencies 
and mitigates the risk of institutional memory loss. The deployed and 
local staff are augmented by SIGAR personnel from our Arlington, 
Virginia offices who frequently travel to Afghanistan on 2- to 8-week 
temporary assignments.
    When SIGAR was established in 2008, the agency created four 
directorates: (1) Audits and Inspections, (2) Investigations, (3) 
Research and Analysis, and (4) Management and Support. The Research and 
Analysis Directorate, originally known as Information Management, 
produces SIGAR's quarterly report to Congress and other publications. 
Management and Support provides human resources, budget, information 
technology, and other support to SIGAR's other directorates and to 
staff.
    Since then, two additional units have been established. In 2012, 
SIGAR created its Office of Special Projects to examine emerging issues 
and deliver prompt, actionable reports to implementing agencies and 
Congress. The team conducts a variety of assessments and produces 
inquiry and alert letters, reviews, fact sheets, and other products.
    In late 2014, SIGAR established its Lessons Learned Program. While 
audits and inspections typically focus on the planning, execution, and 
outcome of particular programs and projects, the Lessons Learned more 
broadly documents U.S. reconstruction objectives, assesses results, and 
distills this knowledge into recommendations to improve reconstruction 
efforts in Afghanistan and in future contingency operations. Other 
Federal agencies and the U.S. military also operate lessons learned 
units, but SIGAR's Lessons Learned Program is the only one established 
and positioned to extract and frame lessons from a whole-of-government 
perspective.

 SIGAR's Work Continues to Improve the Effectiveness and Efficiency of 
Reconstruction Programs, and to Reduce Waste, Fraud, and Abuse of Funds

    SIGAR's investigations, audits, and other work continues to have 
positive impacts on ongoing and planned reconstruction programs and 
agency operations. As of March 2019, SIGAR's audits and investigations 
work has identified some $2.6 billion in savings and recoveries for 
U.S. taxpayers. These impacts take several forms. SIGAR does more than 
simply identify waste, fraud, and abuse. It can bring malefactors to 
justice, and recover money. SIGAR investigators are full-fledged 
Federal law-enforcement officers with powers of search and arrest. 
Whether acting on their own or in coordination with other law-
enforcement agencies, they have conducted investigations into cases of 
bribery, theft, smuggling, money laundering, and other offenses; have 
made arrests in Afghanistan and stateside; and have referred many 
Afghans to that country's prosecutors.
    As of March 27, 2019, SIGAR had 168 ongoing investigations. At that 
time, the cumulative results of the SIGAR Investigations Directorate 
comprised 129 arrests, 174 criminal charges, 135 convictions, and 126 
individuals sentenced. The cumulative total from investigations-related 
criminal fines, restitutions, forfeitures, civil-settlement recoveries, 
and savings to the government exceeds $1.5 billion--the equivalent of 
27 years' funding for SIGAR at current levels. Investigative work has 
also led to 928 referrals of companies and individuals for suspension 
or debarment to prevent them from receiving more U.S. contract awards; 
about 74 percent of these referrals led to suspension or debarment, not 
counting a small number of special-entity designations or 
administrative-compliance agreements.
    From 2009 through March 2019, SIGAR had made 952 recommendations in 
its 333 published audits, alert letters, evaluations, and inspection 
reports. SIGAR has closed more than 86 percent of its recommendations. 
These recommendations have, among other things, strengthened contract 
oversight, management, and compliance; assisted in building and 
sustaining Afghan government capacity; and improved accountability for 
on-budget support. SIGAR audits and inspections have resulted in 
agencies recovering an estimated $43 million and identified some $1.1 
billion that could be put to better use.
    SIGAR's Lessons Learned Program has issued seven reports, including 
five reports covering corruption, Afghan security forces, private 
sector development, stabilization, and illicit narcotics. These reports 
identified 98 findings and lessons and made 78 recommendations to 
Congress and executive branch agencies. Some of these lessons and 
recommendations have become public law, while others have garnered 
high-level interest from executive branch agencies. SIGAR will be 
publishing several more lessons learned reports in the coming months.
    SIGAR also maintains professional and productive working 
relationships with DoD and its subcomponents and commands, and with 
State and USAID. In addition, SIGAR coordinates regularly with other 
inspectors general and the Government Accountability Office to ensure 
coverage of all aspects of the reconstruction effort and to avoid 
duplication of effort.

    SIGAR Has Taken Steps to Overcome Challenges to Conducting Its 
                           Oversight Mission

    In 2015, the Afghan government took on full responsibility for its 
own security, U.S. and Coalition forces switched from combat to a 
train, advise, and assist mission, and the Afghanistan's 
``Transformation Decade'' aimed at achieving self-sufficiency in fiscal 
and security matters began. In this changed setting of heightened 
security precautions and reduced access to program and project sites, 
SIGAR has faced challenges.
    To overcome these challenges, SIGAR has hired several Afghan 
engineers and analysts to assist with audit and inspection work. SIGAR 
has also signed a cooperative agreement with a well-respected Afghan 
civil-society organization to conduct site visits, including 
inspections and engineering assessments of U.S.-funded projects. This 
Afghan organization's work is subject to generally accepted government 
auditing standards (GAGAS), and to SIGAR's internal quality-control 
requirements.
    In addition, SIGAR is continuing its financial audit program.\7\ 
Established in 2012, the program contracts with independent public 
auditing firms to perform financial audits of completed reconstruction 
contracts. SIGAR staff oversees the firms' conduct of these financial 
audits, from notification to final report. To date, SIGAR's financial 
audits have identified about $425.3 million in questioned costs, 
interest, and other amounts payable to the U.S. Government. Funding 
agencies had disallowed about $26.6 million in questioned amounts, 
which are subject to collection. In some cases, when questioned costs 
are identified, SIGAR investigators review those costs and initiate 
criminal investigations if appropriate. At the request of President 
Ghani, SIGAR currently is conducting a review of Afghanistan's power 
utility, DABS.
---------------------------------------------------------------------------
    \7\ SIGAR produces two types of audits: (1) financial and (2) 
performance. Financial audits evaluate completed reconstruction 
contracts and identify questioned costs, if any, resulting from 
significant deficiencies in the audited entity's internal controls 
related to the contracts, and any instances of noncompliance with 
contract requirements and applicable laws and regulations. Performance 
audits provide objective analysis of the effectiveness and efficiency 
of reconstruction programs, and make recommendations to improve 
performance and operations, reduce costs, and facilitate decisionmaking 
by parties with responsibility to oversee or initiate corrective action 
for public accountability.
---------------------------------------------------------------------------

  SIGAR Has Updated the Areas of High Risk to the Success of the U.S. 
                  Reconstruction Effort in Afghanistan

    In 2014 and 2017 SIGAR issued its High-Risk List to call attention 
to program areas and elements of the U.S.-funded reconstruction effort 
in Afghanistan that are especially vulnerable to significant waste, 
fraud, and abuse. In March SIGAR released the 2019 edition of the High-
Risk List, which calls attention to areas of the U.S. reconstruction 
effort in Afghanistan that are at serious risk of waste, fraud, abuse, 
mismanagement, and even program failure. With negotiations underway 
that could lead to the end of America's longest war, this report 
differs from our prior two reports by identifying risks to the 
reconstruction effort that might persist or arise in the event of a 
hoped-for peace agreement.
    The new High-Risk List focuses on program areas and elements of the 
reconstruction effort that are (1) essential to success; (2) at risk of 
significant and large-scale failure due to waste, fraud, or abuse; and 
(3) subject to the control or influence of the U.S. Government. 
Applying these criteria, SIGAR identified eight high-risk areas: \8\
---------------------------------------------------------------------------
    \8\ HRL 2019, p. 9.

  --Widespread Insecurity
  --Underdeveloped Civil Policing Capability
  --Endemic Corruption
  --Sluggish Economic Growth
  --Illicit Narcotics Trade
  --Threats to Women's Rights
  --Reintegration of Ex-Combatants
  --Restricted Oversight

    Three of these areas--economic growth, women's rights, and 
reintegration--are new to the High-Risk List. Additionally, the 
critical issue of sustainability appears as a facet of each high-risk 
area. Sustainability is a long-standing concern in reconstruction; 
shortcomings in finance, staffing, institutional capacity, technology 
and technical skills, political will, and other issues individually or 
in combination can undermine the Afghan government's ability to 
maintain programs once foreign support has decreased or withdrawn.
                         widespread insecurity
    Since 2001, the main goal of the U.S. intervention in Afghanistan 
has been to prevent the country from reverting to a safe haven for al-
Qaeda and other extremist groups that threaten the United States and 
other countries.\9\
---------------------------------------------------------------------------
    \9\ DoD, Enhancing Security and Stability in Afghanistan, 12/2018, 
pp. 8-9.
---------------------------------------------------------------------------
    With or without a sustainable peace settlement or a local or 
nationwide ceasefire between the Taliban and the ANDSF, Afghanistan 
will continue to need a security force to protect the Afghan population 
from internal and external threats, provide a policing function to 
respond to criminal activity, and control its borders. Any political 
settlement entails the risk that not all subordinate groups will abide 
by an agreement made by their organization's leadership.
    The ANDSF will also continue to be constrained by capability and 
sustainability challenges. In a post-settlement environment, depending 
on the terms of an agreement, there may also be the challenge of 
integrating former Taliban fighters into the national security forces 
and society (see the reintegration section of this testimony). These 
issues could become more acute should international financial and 
military support decline sharply before, during, or after peace talks 
between the Afghan government and the Taliban.
    According to DoD, Resolute Support (RS), and U.S. Forces-
Afghanistan (USFOR-A), the ANDSF currently face critical capability 
gaps in key areas that hinder the force's effectiveness and readiness 
and may continue to do so in the future, including force manning; 
personnel accountability and pay systems; logistics and maintenance; 
institutional training; persistent threat from Islamic State; and 
stalemated control of districts, population, and territory.
Questions for Policymakers
  --What would the American contribution to any ongoing train, advise, 
        and assist effort for the ANDSF be in a post-peace deal 
        environment when the active insurgent threat to the ANDSF might 
        be reduced or significantly diminished?
  --If the United States were to drastically decrease its train, 
        advise, and assist mission, how might DoD continue to ensure 
        the ANDSF is capable of defending Afghanistan and ensure U.S. 
        national security interests in the region are protected?
  --In a possible post-peace deal environment, if the United States had 
        a reduced role in training, advising, and assisting the ANDSF 
        and/or providing less financial and military support to it, 
        what would be the risks to the gains made in key areas, such as 
        the expansion and improvement of the Afghan Air Force and the 
        Afghan Special Security Forces?
  --Are the various ANDSF components properly trained and equipped to 
        function in peacekeeping and other roles required in a post-
        reconciliation environment? What type of future investment, 
        financial and otherwise, would the United States need to make 
        to ensure the ANDSF components function in these various 
        capacities?
  --In a possible post-settlement environment, how would former Taliban 
        fighters be integrated into the ANDSF?
  --Are U.S.-funded materiel (such as vehicles and aircraft) and 
        computer-based technology programs (such as Afghan Personnel 
        Pay System and CoreIMS) independently sustainable by the ANDSF? 
        If not, what is the plan to address this, and what are the 
        projected dates for when the ANDSF will be capable of 
        sustaining them?
                underdeveloped civil policing capability
    With the possibility of a peace settlement coming into view, and 
based upon SIGAR's work to date, there is no comprehensive strategy for 
how the United States and Coalition partners will align its nationwide 
police advising mission to support Afghan rule of law and civil 
policing.\10\ Following a political settlement, Afghan police, rather 
than the army, are likely to be the element responsible for everyday 
security and will serve as a direct link to the Afghan government in 
local communities. The underdeveloped civil policing capabilities of 
the Afghan National Police (ANP) thus present a risk to long-term 
stability of the Afghan government.\11\
---------------------------------------------------------------------------
    \10\ SIGAR, Reconstructing the Afghan National Defense and Security 
Forces: Lessons From the U.S. Experience in Afghanistan, SIGAR 16-62-
LL, 9/2017, viii-ix, pp. 122-123.
    \11\ SIGAR, Reconstructing the Afghan National Defense and Security 
Forces: Lessons From the U.S. Experience in Afghanistan, SIGAR 16-62-
LL, 9/2017, viii-xix; SIGAR conclusion based on analysis of available 
data sources, 3/2019.
---------------------------------------------------------------------------
    Unlike the Afghan National Army (ANA), a significant share of ANP 
personnel costs are paid through the U.N.-administered Law and Order 
Trust Fund for Afghanistan (LOTFA), to which the United States has 
historically been the largest contributor, although not in fiscal year 
2018. The LOTFA mechanism relieves some financial pressure on the 
United States by spreading the ANP funding burden to the Coalition.\12\
---------------------------------------------------------------------------
    \12\ SIGAR, Quarterly Report to the United States Congress, 1/2019, 
p. 68.
---------------------------------------------------------------------------
    SIGAR's 2017 lessons learned report, Reconstructing the Afghan 
National Defense and Security Forces: Lessons from the U.S. Experience 
in Afghanistan, found that police development was treated as a 
secondary mission for the U.S. Government, despite the critical role 
that ANP was intended to play in implementing rule of law and providing 
static, local-level security nationwide. SIGAR also found that the 
United States lacks an institutionalized capability to develop foreign 
police forces in a high-threat environment.
    SIGAR's quarterly reports track ANP reconstruction metrics, some of 
which seem to show that the ANP has sustained itself or even improved 
in important areas such as organizational structure, the number of 
security incidents involving the ANP, personnel strength, and personnel 
accountability since SIGAR's last High-Risk List was published in 
January 2017. Challenges, of course, remain in all of these areas.
    SIGAR is scheduled to initiate a new lessons learned report in 2019 
focused on the development of the ANP and a civil policing function in 
Afghanistan.
Questions for Policymakers
  --Given the lack of U.S. emphasis on civil policing in Afghanistan 
        since 2001, what is the U.S. strategy for coordinating with 
        allies and the Afghan government to implement professional 
        civil policing?
  --The Afghan government generated approximately $2.5 billion in 
        domestic revenues in fiscal year 2018. Currently, ANP 
        sustainment costs for fiscal year 2019 are about $1.1 billion, 
        of which the Afghan government is scheduled to contribute $207 
        million from its domestic revenues (the rest of ANP sustainment 
        costs are covered by the U.S. and Coalition nations). In a 
        post-reconciliation environment, how can the ANP be sustained 
        at a cost of $1.1 billion a year?
  --U.S., Afghan, and Coalition officials and researchers have accused 
        the ANP of multiple types of corruption, including corruption 
        related to narcotics trafficking and reconstruction 
        contracting.\13\ In a post-reconciliation environment in which 
        the drawdown in U.S. and Coalition advisers makes oversight 
        even more challenging, how will the U.S. Government and 
        Coalition partners ensure that continued security assistance is 
        not directed to corrupt ANP officials?
---------------------------------------------------------------------------
    \13\ The Atlantic, ``Our Man in Kandahar,'' 11/2011; United Nations 
Office on Drugs and Crime, Afghanistan's Drug Industry: Structure, 
Functioning, Dynamics, and Implications for Counter-Narcotics Policy, 
11/2006, p. 102.
---------------------------------------------------------------------------
  --In a post-reconciliation Afghanistan, what is the U.S. strategy for 
        facilitating the rule-of-law--including ANP warrants and 
        arrests--in remaining high-threat districts?
  --As part of a peace agreement and efforts to reintegrate the 
        Taliban, what role in civil policing might former Taliban play?
                           endemic corruption
    Corruption remains an enduring risk to the U.S. mission in 
Afghanistan. SIGAR's September 2016 Lessons Learned Program report on 
corruption found that corruption substantially undermined the U.S. 
mission in Afghanistan from the very start. SIGAR concluded that 
failure to effectively address the problem means U.S. reconstruction 
programs, at best, will continue to be subverted by systemic corruption 
and, at worst, will fail.\14\ Despite many anticorruption efforts, the 
problem persists. According to DoD, ``corruption remains the top 
strategic threat to the legitimacy and success of the Afghan 
government.'' \15\
---------------------------------------------------------------------------
    \14\ SIGAR, Corruption in Conflict: Lessons from the U.S. 
Experience in Afghanistan, 9/2016.
    \15\ DoD, Enhancing Security and Sustainability in Afghanistan, 6/
2018, p. 38.
---------------------------------------------------------------------------
    As of January 2019, the Department of Justice (DOJ) reported some 
progress by Afghanistan's Attorney General in pursuing major crimes as 
a result of the U.S. Embassy demanding accountability. However, in a 
January 2019 report covering July--September 2018, DOJ said the Afghan 
government is still slow to prosecute corruption cases and has a poor 
record of prosecuting powerful and influential actors.\16\
---------------------------------------------------------------------------
    \16\ SIGAR, Quarterly Report to the United States Congress, 1/30/
2019, pp. 130-131.
---------------------------------------------------------------------------
    In January 2019, State said the U.S. Embassy's new corruption-
related Compact benchmark priority for the Afghan government is to 
increase transparency at Afghan special courts, the Anti-Corruption 
Justice Center, the Counter Narcotics Justice Center (CNJC), and the 
Justice Center in Parwan (JCIP). The U.S. Embassy continues to 
emphasize such anticorruption measures as executing warrants, 
prosecuting high-profile corruption cases, and collecting on Kabul Bank 
cases.\17\
---------------------------------------------------------------------------
    \17\ SIGAR, Quarterly Report to the United States Congress, 1/30/
2019, p. 132.
---------------------------------------------------------------------------
    In the security sector, the Combined Security Transition Command-
Afghanistan (CSTC-A) said corruption remains pervasive throughout the 
Afghan security forces. This corruption, they added, harms the 
battlefield effectiveness of the Afghan security forces by diverting 
resources meant for fighting units and by creating negative perceptions 
of the Afghan government, undermining the Afghan government's 
legitimacy and reconciliation efforts.\18\
---------------------------------------------------------------------------
    \18\ CSTC-A is tasked with training, advising, and assisting the 
Afghan security institutions. SIGAR, Quarterly Report to the United 
States Congress, 1/30/2019, p. 134.
---------------------------------------------------------------------------
Questions for Policymakers
  --What are reasonable expectations for Afghan government 
        anticorruption-related results given competing challenges of 
        regime stability and reform?
  --In the event of a peace settlement, how could the U.S. Government 
        restructure its reconstruction assistance and programs to 
        promote compelling anticorruption programs in Afghanistan? Does 
        that calculus change for an Afghan government that includes the 
        Taliban?
  --What will be the impact of fewer international troops and reduced 
        assistance on the ability of the Afghan government to fight 
        corruption?
  --Are reform benchmarks so vague and/or bland that they have no 
        meaningful impact against rampant institutional corruption?
  --Should the United States consider imposing financial penalties or 
        other consequences should Afghan reform benchmarks not be met?
                        sluggish economic growth
    The U.S. Government's current Integrated Country Strategy (ICS) for 
Afghanistan states that no U.S. efforts in Afghanistan--including the 
fundamental objective of preventing further attacks by terrorists on 
the U.S. homeland--can be sustained without a growing licit Afghan 
economy.\19\ While a sustainable peace agreement could boost business 
confidence and investment, and therefore improve growth prospects 
substantially, peace also carries its own set of challenges.\20\ 
Despite its centrality to U.S. objectives--and its continued importance 
even if a peace agreement is reached--licit economic growth remains 
relatively low and Afghanistan remains heavily reliant on donor 
support. This raises questions about whether Afghanistan will be able 
to achieve the long-term stability and economic self-reliance that are 
key reconstruction goals.\21\
---------------------------------------------------------------------------
    \19\ State, Integrated Country Strategy: Afghanistan, 9/27/2018, 
pp. 2-3.
    \20\ International Monetary Fund, Fourth Review under the Extended 
Credit Facility Arrangement, Request for Modification of Performance 
Criteria, and Request for Extension and Rephasing of the Arrangement, 
11/20/2018, p. 8.
    \21\ IMF, Fourth Review under the Extended Credit Facility 
Arrangement, Request for Modification of Performance Criteria, and 
Request for Extension and Rephasing of the Arrangement,
11/20/2018, p. 24; USAID, ``Economic Growth--Afghanistan,'' 9/2018, 
https://www.usaid.gov/
afghanistan/economic-growth, accessed 9/14/2018; Government of 
Afghanistan, Realizing Self-Reliance: Commitments to Reforms and 
Renewed Partnership, 12/2014, p. 4.
---------------------------------------------------------------------------
    In its 2018 Lessons Learned Program report on private sector 
development and economic growth, SIGAR found that despite significant 
U.S. effort, estimated poverty, unemployment, and underemployment had 
not been reduced substantially; further, corruption had undermined the 
legitimacy of the Afghan state.\22\ Moreover, despite near double-digit 
growth over the first decade of reconstruction, the Afghan government 
faced a substantial budget shortfall in 2014 when international 
military expenditures in country declined rapidly as U.S. and Coalition 
forces drew down.\23\ Ultimately, SIGAR determined, economic gains in 
the first decade of reconstruction were heavily subsidized by donor 
support and therefore unsustainable.\24\
---------------------------------------------------------------------------
    \22\ SIGAR, Private Sector Development and Economic Growth--Lessons 
from the U.S. Experience in Afghanistan, 4/2018, viii-ix; SIGAR, 
Corruption in Conflict: Lessons from the U.S. Experience in 
Afghanistan, 7/2016, p. 75.
    \23\ U.S. Institute of Peace (USIP), What Can Be Done to Revive 
Afghanistan's Economy?,
2/2016, pp. 3, 8; SIGAR, Quarterly Report to the United States 
Congress, 1/30/2019, pp. 149, 153.
    \24\ SIGAR, Private Sector Development and Economic Growth--Lessons 
from the U.S. Experience in Afghanistan, 4/2018, viii.
---------------------------------------------------------------------------
    While a lasting peace agreement could fundamentally improve 
Afghanistan's prospects, its greatest economic challenge today remains 
identifying sustainable sources of growth, according to the World 
Bank.\25\ Additionally, a peace agreement is unlikely to immediately 
overcome the many enduring barriers to economic growth. These include 
limited skilled labor, the lingering effects of near-continuous 
conflict over multiple decades, deficits in physical and institutional 
infrastructure, heavy reliance on foreign donor support, and widespread 
corruption.\26\
---------------------------------------------------------------------------
    \25\ USIP, What Can Be Done to Revive Afghanistan's Economy?, 2/
2016, p. 3; World Bank, ``The World Bank in Afghanistan,'' no date, 
https://www.worldbank.org/en/country/afghanistan, accessed 9/14/2018.
    \26\ Asian Development Bank, Chair's Summary of Meeting of the 
Board of Directors, ``Country Partnership Strategy Afghanistan, 2017-
2021--Achieving Inclusive Growth in a Fragile and Conflict-Affected 
Situation,'' 10/31/2017; SIGAR, Private Sector Development and Economic 
Growth: Lessons from the U.S. Experience in Afghanistan, 4/2018, ix; 
World Bank, Afghanistan Poverty Status Update Progress at Risk, 5/2017, 
p. 7; USIP, Afghan Economic Policy, Institutions, and Society Since 
2001, 10/2015, p. 6.
---------------------------------------------------------------------------
Questions for Policymakers
  --How will U.S. economic development programming adjust to a 
        potential peace settlement?
  --If a sustainable peace settlement is reached, how will economic 
        development programming simultaneously support the 
        reintegration of former fighters, the possible return of Afghan 
        refugees from Pakistan, and the large number of returnees from 
        Iran?
  --To what extent will current Afghan laws, rules, regulations, and 
        policies concerning economic growth continue to apply if a 
        peace agreement materializes?
  --Are current interventions to increase Afghanistan's economic growth 
        positioned to have a sustained impact after they end?
  --What would the economic effects be of a drawdown of U.S. military 
        and civilian personnel from Afghanistan?
                      the illicit narcotics trade
    Since 2002, the United States Government has provided $8.9 billion 
to thwart narcotics production and trafficking in Afghanistan. Yet 
Afghanistan remains the global leader in opium cultivation--a 
distinction it has held since the late 1990s, according to opium-
cultivation data from the United Nations Office on Drugs and Crime 
(UNODC).\27\ The illicit opium trade hinders the Afghan government's 
efforts across numerous sectors, including security, governance, and 
economic and social development.\28\
---------------------------------------------------------------------------
    \27\ Funding as of December 31, 2018. UNODC, 2006 World Drug 
Report, Volume I: Analysis, p. 57.
    \28\ GIROA, Afghanistan National Development Strategy 1387-1391 
(2008-2013), p. 42.
---------------------------------------------------------------------------
    A SIGAR lessons learned report published in June 2018 found that 
U.S. counternarcotics programs have not resulted in long-term 
reductions in opium poppy cultivation or production. The findings in 
SIGAR's lessons learned report prompted the Senate Caucus on 
International Narcotics Control to request that SIGAR conduct a 
thorough review of the U.S. Government's current counternarcotics 
efforts in Afghanistan. That review is ongoing.
    Addressing Afghanistan's illicit drug trade appears to have fallen 
off the international agenda since 2017. In September 2018, the State 
Department informed SIGAR it was no longer developing a stand-alone 
U.S. counternarcotics strategy for Afghanistan that had previously been 
under review. According to State, counternarcotics efforts are now 
interwoven into the administration's South Asia strategy.\29\ USAID 
said it will no longer design or implement programs to address opium 
poppy cultivation.\30\ DoD does not have a counternarcotics mission in 
Afghanistan, but until recently has pursued a counter-threat-finance 
mission.\31\ In February 2019, DoD reported that the counter-threat-
finance campaign ceased at the end of 2018.
---------------------------------------------------------------------------
    \29\ State, INL, response to SIGAR data call, 9/21/2018.
    \30\ USAID, OAG, response to SIGAR data call, 3/20/2018.
    \31\ DoD, USFOR-A, response to SIGAR vetting, 7/13/2018; DoD, 
response to SIGAR vetting, 7/16/2016.
---------------------------------------------------------------------------
Questions for Policymakers
  --Given the poor performance of many U.S. counternarcotics programs 
        over the past 17 years, can the U.S. Government support 
        effective counternarcotics programs after a peace accord?
  --Can capacity-building programs strengthen Afghan government 
        institutions to prevent the country's collapse into a narco-
        state?
  --How would a potential peace accord with the Taliban impact opium 
        cultivation and production in Afghanistan?
  --Will counternarcotics operations targeting insurgent groups be 
        carried out during a ceasefire or after a peace settlement?
  --Which tools are the most effective in curbing opium cultivation and 
        battling the narcotics trade? How can existing tools be 
        improved or new ones devised?
  --Which type of economic programs will provide the most employment 
        opportunities for farmers and discourage opium cultivation?
  --How can U.S. agencies better coordinate counternarcotics efforts in 
        Afghanistan in order to achieve U.S. goals and objectives?
                       threats to women's rights
    Improving the quality of life and the status of Afghan women has 
been a key goal of the United States and the international donor 
community since 2002. The United States has committed at least $1 
billion for gender-related programs in Afghanistan and spent another $1 
billion on programs for which the advancement of women was a 
component.\32\ Since the Taliban regime was overthrown in 2001, 
millions of Afghan women have voted, and some women now occupy 
prominent positions in Afghan society. Sixty-three women are members of 
parliament (out of 320 seats); 68,000 women are instructors in schools 
and universities; 6,000 women serve as judges, prosecutors, defense 
attorneys, police, and soldiers; about 10,000 women are doctors, 
nurses, or other healthcare professionals; and 1,150 women 
entrepreneurs have invested $77 million in their businesses.\33\ 
Nonetheless, in 2018, the United Nations ranked Afghanistan 153rd out 
of 160 countries for gender equality--despite a constitution that 
nominally protects women's rights.\34\
---------------------------------------------------------------------------
    \32\ SIGAR, Quarterly Report to the United States Congress, 10/30/
2016, p. 3.
    \33\ USIP, Afghanistan Talks: No Women, No Peace, 3/1/2019.
    \34\ United Nations Development Programme, Human Development 
Indices and Indicators 2018 Statistical Update, p. 40; UNDP, ``Gender 
Inequality Index (GII),'' no date, http://hdr.undp.org/en/content/
gender-inequality-index-gii, accessed 3/4/2019; The National Interest, 
``Afghan Women are In Charge of Their Own Fate,'' 2/27/2019.
---------------------------------------------------------------------------
    The prospect of a peace agreement with the Taliban raises new 
concerns about the sustainability of the gains Afghan women have made 
over the past 17 years. Some experts believe that a precipitous 
withdrawal of U.S. forces could lead to the deterioration of political 
and economic freedoms, however limited, currently enjoyed by women in 
Afghanistan.\35\ Official Taliban statements involved in the peace 
negotiations confirm such risks. For example, despite some signals the 
Taliban may be open to more liberal policies regarding women, the 
Taliban's chief negotiator called the current Afghan constitution 
(providing the same rights to men and women) an obstacle to peace and 
demanded a new Afghan constitution based on ``Islamic principles, 
national interests, historic pride, and social justice.'' \36\
---------------------------------------------------------------------------
    \35\ Center for Strategic and International Studies (CSIS), 
Finishing Strong: Seeking a Proper Exit from Afghanistan, 2/2019, pp. 
1, 5.
    \36\ Alemarah, ``Complete Transcript of Speech Delivered by 
Delegation of Islamic Emirate in Moscow Conference,'' 2/5/2019.
---------------------------------------------------------------------------
Questions for Policymakers
  --What can the United States do to ensure that women's rights, as 
        currently enshrined in Afghan law, are protected in a post-
        peace agreement environment in which the Taliban may become 
        part of the Afghan political system?
  --In talks with the Taliban, how is the United States promoting ``the 
        meaningful participation of women in mediation and negotiation 
        processes seeking to prevent, mitigate, or resolve violent 
        conflict'' and the ``physical safety, economic security, and 
        dignity of women and girls'' as called for in the Women, Peace, 
        and Security Act of 2017 (Public Law No. 115-68)?
  --How can DoD, State, and USAID better track the outcomes of gender 
        advancement programming in Afghanistan, determine any causal 
        connection between U.S. gender programming and those outcomes, 
        and become better stewards of U.S. taxpayer dollars spent on 
        these programs?
                     the challenge of reintegration
    The U.S. and Afghan governments agree that the best way to ensure 
lasting peace and security in Afghanistan is to achieve reconciliation 
and a sustainable political settlement with the Taliban.\37\ While 
current estimates for the number of active Taliban fighters vary, the 
nominee for commander of U.S. Central Command, Lieutenant General 
Kenneth McKenzie Jr., put the figure at 60,000 fighters.\38\ If a 
comprehensive peace agreement is reached, these ex-combatants will need 
to transition to a sustainable livelihood and peacefully reintegrate 
into Afghan society. There may also be efforts to demobilize and 
reintegrate members of other illegal armed groups.
---------------------------------------------------------------------------
    \37\ SIGAR, Quarterly Report to the United States Congress, 7/30/
2018, p. 112.
    \38\ DoD, ``Advance Policy Questions for Lieutenant General Kenneth 
F. McKenzie Jr., USMC, Nominee for Commander, United States Central 
Command,'' 12/4/2018, p. 9.
---------------------------------------------------------------------------
    Successfully reintegrating these tens of thousands of former 
fighters into society--a complex and long-term process with social, 
economic, political, security, and humanitarian dimensions--will be 
critical for Afghanistan to achieve lasting peace and stability.\39\
---------------------------------------------------------------------------
    \39\ UNDP, Practice Note: Disarmament, Demobilization, and 
Reintegration of Ex-combatants, 2011, p. 11.
---------------------------------------------------------------------------
    The mixed record of reintegration efforts undertaken in dozens of 
countries since the late 1980s suggests that similar efforts in 
Afghanistan will likely face significant challenges.\40\ SIGAR assesses 
that the nature and extent of those challenges will depend largely on 
the peace process itself, its level of inclusivity, trust among the 
parties, the degree to which reintegration issues are decided in an 
agreement or deferred, and numerous other factors. For example, a weak 
economy with few job opportunities would complicate reintegration. 
Ongoing insecurity, political uncertainty, poor social cohesion within 
a population traumatized by decades of war, and weak governance and 
rule of law will probably pose serious challenges to reintegration 
efforts.\41\ Further, donor fatigue regarding Afghanistan could be a 
concern.
---------------------------------------------------------------------------
    \40\ UK Foreign & Commonwealth Office, ``Reintegration and 
Reconciliation in Conflict: Experience and Lessons,'' July 2016, p. 2.
    \41\ U.N., Operational Guide to the Integrated Disarmament, 
Demobilization and Reintegration Standards (IDDRS), 2014, pp. 33-34.
---------------------------------------------------------------------------
    SIGAR is currently making a thorough investigation of reintegration 
issues for a forthcoming Lessons Learned Program report to be published 
later this year.
Questions for Policymakers
  --What lessons can be gleaned from prior reintegration initiatives in 
        Afghanistan?
  --What transferable lessons can be gleaned from reintegration 
        initiatives in other countries, such as Colombia, Sierra Leone, 
        Somalia, and El Salvador?
  --Should the international community encourage Afghan negotiators, 
        during a potential peace process, to include the reintegration 
        of ex-combatants as a focused area of discussion?
  --If a reintegration program were established, what entities would be 
        responsible for designing, implementing, and funding it, and 
        what role would the United States play in reintegration 
        efforts?
  --Do donors have the appetite to commit to a series of long-term, 
        post-conflict reintegration activities, and the ability to 
        effectively implement such activities?
  --Will a future peace agreement include details regarding the 
        integration of former insurgents into state security forces?
  --How should U.S. agencies adjust current assistance and programming 
        to ensure that these are conducive to potential reintegration 
        efforts?
  --Can sufficient employment be created in the licit rural economy in 
        order to encourage re-integrees to return to rural areas, 
        rather than migrate to already overstressed urban centers?
                          restricted oversight
    Oversight of the U.S. reconstruction effort in Afghanistan, already 
difficult, may become even more challenging if substantial numbers of 
U.S. military and civilian personnel withdraw following an Afghan peace 
settlement.\42\ Accessing reconstruction project sites and programs in 
Afghanistan is already difficult due to deteriorated security. Site 
access would continue to be challenging should a potential peace 
agreement not actually lead to a cessation of hostilities--a possible 
outcome about which several experts have written in recent months.\43\ 
Moreover, a reduced footprint for U.S. agencies operating in 
Afghanistan could exacerbate ongoing problems with contract oversight, 
such as spotty compliance, documentation and accountability, as well as 
institutional memory loss.\44\
---------------------------------------------------------------------------
    \42\ SIGAR, Quarterly Report to the United States Congress, 1/30/
2019, pp. 9-10, 69, 80, 148, 169, 179.
    \43\ CSIS, ``Afghanistan as Vietnam Redux: Bomb, Declare Peace, and 
Leave?'' 1/17/2019, p. 7; Brookings, ``The U.S.-Taliban negotiations 
breakthrough: What it means and what lies ahead,'' 1/29/2019.
    \44\ SIGAR, ``Challenges to Effective Oversight of Afghanistan 
Reconstruction Grow as High-Risk Areas Persist,'' Statement of John F. 
Sopko for the Senate Committee on Appropriations, Subcommittee on the 
Departments of State, Foreign Operations, and Related Programs,
2/24/2016, p. 14.
---------------------------------------------------------------------------
    Since 2002, the United States has provided nearly $14.6 billion in 
on-budget assistance to the Afghan government. This includes about $9.2 
billion to Afghan government ministries and institutions, and about 
$5.4 billion to three multinational trust funds--the World Bank's 
Afghanistan Reconstruction Trust Fund (ARTF), the United Nations 
Development Programme's Law and Order Trust Fund (LOTFA), and the Asian 
Development Bank's Afghanistan Infrastructure Trust Fund (AITF).\45\
---------------------------------------------------------------------------
    \45\ SIGAR, Quarterly Report to the United States Congress, 1/30/
2019, p. 47.
---------------------------------------------------------------------------
    SIGAR's experience shows that as the United States provides more 
reconstruction funds on-budget, whether through bilateral transfers or 
disbursement via multilateral trust funds, it will be vital that Afghan 
ministries have strong accountability measures and internal controls in 
place because external visibility into the use of funds is likely to 
shrink. Oversight of those measures and controls will be equally 
important.
    In Afghanistan's conflict setting, where rules are not rigorously 
observed and documentation is often incomplete and unverifiable, having 
personnel physically present and able to move about the country is 
essential for effective oversight. Otherwise, it is difficult to 
determine whether training is effective, equipment is operable, clinics 
are stocked with medicines, schools are open, or buildings are safe and 
functional.
Questions for Policymakers
  --What levels of U.S. military and civilian personnel would best 
        protect U.S. on- and off-budget funds to the Afghan government 
        should a peace settlement be reached?
  --If more (or most) U.S. assistance to the Afghan government moves 
        on-budget as a result of a negotiated peace settlement, whether 
        through bilateral transfers or disbursement through 
        multilateral trust funds, what are the best oversight 
        mechanisms to make the waste, fraud, and abuse of U.S. 
        reconstruction funds more difficult, and more likely to be 
        spotted?
  --Have agencies taken appropriate steps to use third-party monitors, 
        remote sensing, increased access to Afghan documentation and 
        officials, or other tools to maintain acceptable levels of 
        oversight, and have they reported the limitations of these 
        methods to Congress? How will a possible reduction of U.S. 
        military and civilian personnel after a potential peace 
        agreement affect agency oversight plans?
  --How can Congress and U.S. implementing agencies focus their 
        oversight on reconstruction program outcomes rather than on 
        easy measures of activity or outputs? How will a possible 
        reduction of U.S. military and civilian personnel after a 
        potential peace agreement affect this?
  --When reviewing U.S. military and reconstruction footprints in 
        conflict areas, how can the U.S. Government ensure sufficient 
        number of qualified, experienced, and certified contract 
        officers and technical representatives are deployed, especially 
        in high-risk missions like Afghanistan?
                               conclusion
    No one disputes that after 40 years of war, peace would be a 
blessing for the long-suffering people of Afghanistan. And no one knows 
at this point what the specific terms of an acceptable peace deal would 
look like. But as the topical sections of SIGAR's 2019 High-Risk List 
indicate, even a broadly popular agreement might present risks to 
Afghanistan's reconstruction and to its long-term viability as a 
nation-state.
    If large-scale withdrawals of U.S. operational and oversight 
personnel occur, the stewardship of U.S. taxpayer funds and achievement 
of reconstruction goals could suffer. If widespread corruption is not 
adequately addressed, the effectiveness of programs, the perceived 
legitimacy of the Afghan state, and the willingness of donors to 
continue their assistance could all suffer. If economic development 
stalls, accommodating new entrants to the labor force, including 
returning refugees and former government and insurgent fighters, could 
prove a daunting task. If women's rights and progress are not 
respected, and if the rule of law is not upheld, equitable and 
effective governance could fail. And if new security arrangements do 
not provide for fair and effective policing while standing ready to 
quash any resurgence of terrorism, then all other aspects of 
reconstruction could ultimately fail.
    As discussions progress, Members of the U.S. Congress and of 
executive agencies should consider the ``day after'' a peace agreement 
and be on the alert for unexamined assumptions, overlooked details, 
unintended consequences, concealed agendas, and other issues that could 
turn a wished-for peace deal into another sort of conflict.
    An opportunity for peace exists. How it is embraced, shaped, and 
nurtured will determine if Afghanistan is to avoid further decades of 
conflict that might result in it once again becoming a danger to the 
international community. As Congress considers ways to reduce or avert 
these dangers, we at SIGAR stand ready to assist in any way we can.
    Thank you for the opportunity to submit a written statement for the 
hearing record. SIGAR shares your commitment to protecting U.S. funds 
from waste, fraud, and abuse and is committed to assisting Congress, 
U.S. agencies, and other stakeholders by continuing to provide 
aggressive and independent oversight of the reconstruction effort, and 
by offering recommendations and lessons based on that work.
   Prepared Statement of the Comptroller General of the United States
         ``Priority Open Recommendations: Department of State''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Graham. Any questions for the record should be 
submitted no later than Friday, April 12. Our next hearing will 
be on April 30 with USAID Administrator Mark Green.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Michael Pompeo
            Questions Submitted by Senator Patrick J. Leahy
    Question. Your budget request States that educational and cultural 
exchanges ``advance U.S. foreign policy and national security goals,'' 
``provide enormous benefits to the American people and economy,'' and 
``are central to the Department's diplomatic engagement efforts.'' Why 
then would you propose to cut these exchange programs by 56 percent 
below the fiscal year 2019 enacted level?
    Answer. The administration's budget request makes efficient and 
effective use of available resources. The State Department's overall 
mission to engage foreign publics on behalf of the United States 
remains unchanged. I will continue to prioritize engagement with 
emerging world leaders through U.S. Government-sponsored exchanges. The 
fiscal year 2020 budget request continues support for core global 
programs such as Fulbright and the International Visitor Leadership 
Program, while focusing resources on programs that support 
administration initiatives. Academic, professional, youth, and cultural 
exchange programs will remain effective foreign policy tools.
    Question. Your budget request states that educational and cultural 
exchanges ``advance U.S. foreign policy and national security goals,'' 
``provide enormous benefits to the American people and economy,'' and 
``are central to the Department's diplomatic engagement efforts.'' What 
is the specific justification for cutting the Fulbright Program by 48 
percent and youth leadership initiatives by 61 percent?
    Answer. Contingent on enacted funding, I will base any future 
adjustments in educational and cultural exchanges on the most efficient 
and effective use of those resources. U.S. Government-sponsored 
exchange programs will continue to empower and influence important 
audiences at home and abroad through academic coursework, leadership 
training, professional development, mentoring, networking, and follow-
on support. Both the Fulbright program and our three regional youth 
initiatives--the Young African Leaders Initiative, the Young Southeast 
Asian Leaders Initiative, and the Young Leaders of the Americas 
Initiative--will continue to play an important role in cultivating the 
next generation of world leaders.
    Question. I am sure you have visited refugee camps, as I and many 
of us have. You've seen the misery, and the numbers of refugees and 
other displaced persons due to violence and natural disasters is at an 
all time high. In the past year the crisis in Venezuela has exploded, 
with thousands of people fleeing each day. What is the specific 
justification for cutting refugee and disaster assistance by 35 percent 
below the fiscal year 2019 level?
    Answer. The President's fiscal year 2020 budget request 
consolidates our overseas humanitarian programming, implementation, and 
oversight into one account. The request of $6.3 billion for 
humanitarian assistance (including resettlement) enables the United 
States to remain the largest single donor. The request calls on other 
countries to increase contributions and restructures our overseas 
humanitarian programming to allow the United States to respond 
seamlessly to evolving humanitarian needs. The request will allow the 
U.S. to remain the world's largest single donor of humanitarian 
assistance and to robustly address needs for Syria, Yemen, and other 
major crises around the world. When combined with all available 
resources, average annual funding available for fiscal year 2019 and 
fiscal year 2020 of around $9 billion roughly matches the highest-ever 
annual level of U.S. overseas humanitarian programming. I am also 
working on implementing a strategy intended to get other donors to step 
up and increase their share of global humanitarian funding and reduce 
the burden on American taxpayers.
    Question. On October 10, I, Chairman Graham, our counterparts on 
the Foreign Relations Committee, and 18 other Senators requested the 
President to make a determination on the imposition of sanctions under 
the Global Magnitsky Act, with respect to the murder of Jamal 
Khashoggi. He has not done so, even though the Magnitsky Act explicitly 
requires him to. When pressed on the fact that the law has an explicit 
deadline, you then stated that two documents were submitted to meet the 
requirement, neither of which was the required determination. That also 
contradicts the administration's initial position, which was that ``the 
President maintains his discretion to decline to act on congressional 
committee requests when appropriate.'' On what basis is the President 
in compliance with the law? If the law were changed to require the 
Secretary of State to make the determination, would you comply?
    Answer. The administration has taken significant actions to promote 
accountability in this case, including by imposing sanctions on 17 
Saudi government officials under the Global Magnitsky sanctions 
program. Section 1263(d) of the Global Magnitsky Human Rights 
Accountability Act addresses certain Congressional committee requests 
for determinations and reports by the President on whether a foreign 
person has engaged in an activity described in Section 1263(a) of the 
Act. The authorities under Section 1263(d) have not been delegated by 
the President to the Secretary of State and thus the Department is not 
in a position to make such a determination or report. I am not in a 
position to speculate on any potential future amendments to the Act.
    Question. The annual appropriations bill includes section 7031(c), 
which says explicitly that if the Secretary of State has ``credible 
information''--not proof--credible information, that a foreign official 
has committed a gross violation of human rights, that person is 
ineligible to enter the United States. You have applied that law to 
deny entry to 16 Saudis for their involvement in the crime. If the 
Crown Prince sought to travel to the U.S., would you let him in?
    Answer. While the Department of State cannot comment on a 
hypothetical visa application, we will ensure that all visa applicants 
who may be subject to section 7031(c) undergo appropriate review prior 
to the issuance or denial of a visa.
    Question. The annual appropriations bill includes section 7031(c), 
which says explicitly that if the Secretary of State has ``credible 
information''--not proof--credible information, that a foreign official 
has committed a gross violation of human rights, that person is 
ineligible to enter the United States. The November 2018 Treasury 
sanctions announcement includes information that 17 Saudi officials 
were involved in the murder of Jamal Khashoggi, meaning the Secretary 
of State had credible information about each of these individuals last 
November. Why did it take 5 months to apply 7031(c) to these 
individuals, when the law does not allow for such discretion in timing?
    Answer. Section 7031(c) is separately administered from the Global 
Magnitsky sanctions program under Executive Order 13818, which 
implements and expands upon the Global Magnitsky Human Rights 
Accountability Act (the Act) and provides the Secretary of the 
Treasury, in consultation with the Secretary of State and the Attorney 
General, with the authority to make designations. Designation under one 
authority does not automatically trigger the applicability of the other 
authority. Due to the need to treat each case individually, it can take 
time for the Department to prepare the information and analysis needed 
for the Secretary to make determinations under section 7031(c). We 
intend to devote further training and resources to the exercise of this 
authority.
    Question. The annual appropriations bill includes section 7031(c), 
which says explicitly that if the Secretary of State has ``credible 
information''--not proof--credible information, that a foreign official 
has committed a gross violation of human rights, that person is 
ineligible to enter the United States. Why hasn't the Saudi Consul 
General who was sanctioned in November been listed as ineligible to 
enter the United States pursuant to section 7031(c) in addition to the 
other 16 of 17 Saudi officials referenced above?
    Answer. Multiple authorities exist that may make an individual 
ineligible to enter the United States on human rights grounds, 
including authorities in the Immigration & Nationality Act Section 
212(a)(3)(E), Presidential Proclamation 8697, and Section 7031(c) of 
the State Appropriations Act. We note that the standard for designation 
under Executive Order 13818, which implements and expands the Global 
Magnitsky Human Rights Accountability Act, is different than the 
standard for designation under Section 7031(c). The Department cannot 
comment on any specific case until a decision has been made to publicly 
identify an individual under 7031(c)(1)(B).
    Question. Eleven individuals were indicted in connection with the 
murder, five of whom will reportedly face the death penalty if 
convicted. Do you know the identities of those eleven individuals? Do 
you know the identity of the ``local collaborator''?
    Answer. The Department is aware of the identities of the 11 
individuals indicted by the Saudi Arabian Public Prosecutor's Office. 
The U.S. Embassy in Riyadh is closely monitoring the ongoing trial of 
these individuals and continues to urge Saudi authorities to conduct 
transparent, credible judicial procedures surrounding the heinous 
murder of Jamal Khashoggi. The State Department's Bureau of Near 
Eastern Affairs would be pleased to brief you and your staff in an 
appropriate setting.
    Question. Last week, nine more writers and activists were arrested, 
including two Saudi-American citizens. One is the son of a prominent 
women's rights activist who was recently released after spending a year 
in prison. Have you called for the release of these latest victims of 
the Crown Prince's crackdown?
    Answer. The Department remains deeply concerned by the detention of 
activists and dissidents in Saudi Arabia and takes all allegations of 
abuse seriously. I, along with U.S. Embassy officials in Riyadh and 
senior Department leadership in Washington, consistently urge the 
Government of Saudi Arabia to ensure freedom from unlawful or arbitrary 
detention, and transparency and fair trial guarantees in the legal 
process. U.S. Embassy Riyadh is actively seeking consular access to the 
two detained U.S. citizens to ensure their well-being.
    Question. The Treasury Department's November 2018 sanctions 
announcement includes the following paragraph: ``This operation was 
coordinated and executed by his subordinate Maher Mutreb, and involved 
participation of at least 14 other Saudi government officials: Salah 
Tubaigy; Meshal Albostani; Naif Alarifi; Mohammed Alzahrani; Mansour 
Abahussain; Khalid Alotaibi; Abdulaziz Alhawsawi; Waleed Alsehri; Thaar 
Alharbi; Fahad Albalawi; Badr Alotaibi; Mustafa Almadani; Saif 
Alqahtani; and Turki Alsehri.'' Did any of these individuals, or 
associated individuals, receive training from a Memphis, Tennessee 
company called Tier One Group, with funds provided by the USG?
    Answer. No U.S. foreign assistance to Saudi Arabia was used to fund 
training for these Saudi government officials by the Tier 1 Group.
    Question. Do you agree that it is in the interest of U.S. national 
security, and global security, for the United States to be a leader in 
the United Nations, and that our influence derives, in part, from 
paying what we owe to the U.N.?
    Answer. Yes, I agree that being a leader at the United Nations is 
in the national interest. The United States will continue to be the 
largest financial contributor to the United Nations and other 
international organizations. We will make every effort to project U.S. 
leadership and the advancement of U.S. ideals.
    Question. I understand you want other countries to pay more of the 
costs of the U.N. We do too. But each country has an assessed share and 
this administration agreed to the current U.N. budget. Why is the 
administration proposing a cut of 33 percent, nearly $479 million, 
below what we owe for the U.N. regular budget? Nations, and that our 
influence derives, in part, from paying what we owe to the U.N.?
    Answer. The administration is proposing reductions in funding in an 
effort to spur long-needed reforms and promote more equitable burden-
sharing. By demanding fiscal discipline, the United States is 
encouraging the U.N. to rethink the way it operates. The President's 
budget request reinforces the expectation that the U.N., and other 
international organizations in which the United States participates, 
must become more efficient and effective.
    Question. For U.N. peacekeeping, this administration is proposing 
to pay at a rate of only 16 percent when we owe 27.9 percent, even 
though the U.S. has already racked up more than $700 million in arrears 
to the U.N.--money we owe but have not paid. These are missions the 
U.S. has voted for and that don't require deployment of Americans. Do 
you plan to pay these arrears, and do you believe the Congress should 
lift the statutory cap on U.S. peacekeeping contributions to enable you 
to pay our full dues? If not, why not?
    Answer. I believe that other countries should take on more of the 
burden for financing U.N. peacekeeping operations. As the President 
said in his remarks to the U.N. General Assembly last September, the 
administration does not intend to pay more than 25 percent of UN 
peacekeeping costs.
    Question. According to one advocate for funding to combat HIV/AIDS, 
``the President's budget stands in stark contrast to his February State 
of the Union pledge to `defeat AIDS in America and beyond.' Proposed 
cuts . . . would risk resurgence of the world's deadliest infectious 
diseases--AIDS, tuberculosis and malaria. This proposed budget is more 
than just a funding cut. If enacted, it would signal a rapid retreat in 
U.S. global health leadership . . . '' How do you respond to that?
    Answer. The United States continues to be the single largest donor 
to global HIV/AIDS, tuberculosis (TB), and malaria relief efforts. The 
fiscal year 2020 budget includes $6.3 billion--more than 23 percent of 
the overall fiscal year 2020 foreign assistance request for the State 
Department and USAID--to support key global health efforts such as the 
U.S. President's Emergency Plan for AIDS Relief (PEPFAR); the Global 
Fund to Fight AIDS, TB and Malaria; the President's Malaria Initiative; 
and other global health programs. These resources allow PEPFAR to help 
control the HIV/AIDS epidemic globally by achieving goals articulated 
in the administration's PEPFAR Strategy for Accelerating HIV/AIDS 
Epidemic Control (2017-2020).
    Question. For reasons that have not been explained, the 
administration is proposing to reduce the U.S. share of contributions 
to the Global Fund from 33 percent to 25 percent. How does the 
administration reconcile this cut with its prior support for 33 
percent? Won't this reduce pressure on other donors to increase their 
commitments?
    Answer. The U.S. Government is planning to pledge up to $3.3 
billion over 3 years (fiscal year 2020-fiscal year 2022) to the Global 
Fund's next replenishment cycle, subject to the availability of 
appropriated funds, with a commitment to match other donors at a rate 
of $1 from the United States for every $3 pledged from other donors. 
This new approach to the U.S. pledge's matching ratio demonstrates 
continued U.S. global leadership, specifically in the fight against 
HIV/AIDS, tuberculosis, and malaria, but also pushes other donors to 
contribute a greater share of resources to address these public health 
challenges.
    Question. Do you support amending the Anti-Terrorism Clarification 
Act in a way that preserves the ability of U.S. citizens who lost loved 
ones in terror attacks to pursue civil claims in U.S. courts?
    Answer. The administration is deeply concerned about U.S. victims 
of terrorism and strongly supports their rights to seek just 
compensation for their injuries. This concern has featured prominently 
in our discussions with Congress about the implications of the Anti-
Terrorism Clarification Act (ATCA).
    Question. Will your staff meet with the victims and their lawyers 
to see if there is an amendment that protects the claims of U.S. terror 
victims, and does not restrict humanitarian and development aid for the 
Palestinians?
    Answer. The Department has spoken and met with a wide range of 
stakeholders in the Anti-Terrorism Clarification Act (ATCA). We 
particularly value the input we have received on the views of U.S. 
victims of terrorism. We look forward to continued discussion with 
Congress and other stakeholders on the implications of ATCA.
    Question. Do you agree that any peace agreement with the Taliban 
must include enforceable protections of the rights and safety of Afghan 
women, who were systematically persecuted and brutalized by the Taliban 
when they were in power?
    Answer. As the Department's annual report on human rights 
demonstrates, there is still a long way to go to ensure these rights 
are protected in the rural regions of Afghanistan, particularly where 
the Taliban exerts influence. That is why it is essential that all 
parties to the talks engage directly with Afghan women and Afghan women 
activists to ensure their concerns and priorities are addressed. 
Special Representative Ambassador Zalmay Khalilzad and Ambassador John 
Bass have been strong advocates for the inclusion of women and their 
perspectives in any dialogue among Afghans about Afghanistan's future. 
In addition, consistent with the Women, Peace and Security Act of 2017, 
Ambassador Khalilzad in his discussions with the Taliban is vigorously 
pressing the group's leadership to respect the rights and promote the 
safety of Afghan women and include them in future peace talks.
    Question. How will the U.S. ensure that, given recent press reports 
that Afghan women have so far been excluded from negotiations with the 
Taliban? Will you obtain a commitment from the Afghan government to 
include them?
    Answer. It has long been the U.S. position that the full 
empowerment of women and girls is essential to Afghanistan's future 
security and prosperity. Formal negotiations between the Afghan 
government, other Afghan leaders, and the Taliban have not yet begun. 
In discussions with Afghan government, opposition, and civil society 
leaders, Special Representative Ambassador Zalmay Khalilzad and 
Ambassador John Bass have strongly and successfully advocated for the 
participation of Afghan women as these leaders prepare for negotiations 
with the Taliban.
    Question. What is the administration's Central America policy?
    Answer. The Department wants to see a safe and prosperous Central 
America and is urging governments to address security, governance, and 
economic drivers of illegal immigration and illicit trafficking. We 
expect the governments to take more steps to improve border security; 
combat human smuggling and human trafficking, especially related to 
children; receive and reintegrate their returned citizens; and dissuade 
their people from immigrating illegally. In Belize, Costa Rica, and 
Panama, we promote economic prosperity, regional security, and 
governance. In Nicaragua, we support democratic actors and early, free, 
and fair elections.
    Question. Do you agree that any person has a right under 
international law to seek asylum in another country?
    Answer. The Universal Declaration of Human Rights, which is a non-
binding instrument, sets forth that, except in cases of prosecution for 
non-political crimes or acts contrary to the purposes and principles of 
the United Nations, everyone has the right to seek and enjoy asylum in 
other countries. Neither the 1951 Convention relating to the Status of 
Refugees nor its 1967 Protocol refers to a ``right to seek asylum,'' 
but, subject to limited exceptions, they oblige States parties to 
protect individuals who meet the definition of a ``refugee'' from 
refoulement. The United States encourages other governments to 
incorporate refugee protection standards into national laws and 
policies, and supports the mandate of the U.N. High Commissioner for 
Refugees.
    Question. What specific actions have you told the Central American 
governments they must take in order to reduce the exodus of migrants 
and be eligible for U.S. assistance?
    Answer. The Northern Triangle governments need to be more effective 
in preventing illegal immigration to the United States. We are actively 
engaging the governments on additional steps they can take to improve 
border security; combat human smuggling and human trafficking, 
especially related to children; receive and reintegrate their returned 
citizens; and implement public messaging campaigns to dissuade illegal 
immigration to the United States. Likewise, we continue urging these 
governments to make needed reforms to improve citizen security, 
increase economic growth, improve democratic governance, and combat 
corruption and impunity.
    Question. Are you asking these governments to arrest their citizens 
to prevent them from fleeing to another country to seek asylum?
    Answer. No. However, the Northern Triangle governments are not 
doing enough to prevent illegal immigration to the United States. We 
are actively engaging the governments on additional steps, in 
accordance with their domestic laws and international obligations, they 
can take to improve border security; combat human smuggling and 
trafficking, especially related to children; receive and reintegrate 
their returned citizens; and implement public messaging campaigns to 
dissuade illegal immigration to the United States. We also continue to 
urge the governments to make needed reforms to improve citizen 
security, increase economic growth, improve democratic governance, and 
address corruption and impunity.
    Question. How does your policy distinguish between aid to 
governments and aid through other entities to meet the needs of 
vulnerable people?
    Answer. The Northern Triangle governments need to be more effective 
in preventing illegal immigration to the United States. We are actively 
engaging with the governments on additional steps they can take to 
improve border security; combat human smuggling and human trafficking, 
especially related to children; receive and reintegrate their returned 
citizens; and implement public messaging campaigns to dissuade illegal 
immigration to the United States. Likewise, we continue urging these 
governments to make needed reforms to improve citizen security, 
increase economic growth, improve democratic governance, and address 
corruption and impunity.
    Question. (Jessikka Aro award). Why should we accept the State 
Department's claim that this was just an innocent mistake, when emails 
and other evidence points to the contrary? Who made the decision to 
rescind the award, and why?
    Answer. A number of errors were made in the nomination and approval 
process of Ms. Jessikka Aro. Ms. Aro should not have been notified that 
she was an awardee in the absence of a comprehensive review, which is a 
prerequisite for the nomination process. We commit to improving the 
process moving forward.
    Question. Sharing biological samples and their derived digital 
information, such as pathogen genetic sequences, is crucial for 
effective response to infectious diseases. In the past, this type of 
sharing of pathogens has been mostly routine under World Health 
Organization rules. But governments are increasingly refusing to share 
disease samples. For example for over a year, the Chinese government 
withheld samples of a rapidly evolving influenza virus from U.S. 
researchers. That meant they were not able to conduct research on the 
virus in the event we needed vaccines or treatments. This obviously has 
potentially far reaching consequences for the health of people 
everywhere. Are you aware of this, and if so what steps is the 
Department taking to address it?
    Answer. The State Department coordinates with Federal agencies, 
including the Department of Health and Human Services (HHS), to engage 
stakeholders and promote rapid, consistent, and systematic access to 
pathogens, as prioritized in the National Biodefense Strategy. We 
expect to discuss emerging challenges with timely pathogen sharing at 
the May 2019 World Health Assembly. China committed in 2017 to maintain 
a clear process for sharing novel influenza viruses with pandemic 
potential (IVPP). In 2018, China shared with the U.S. Centers for 
Disease Control and Prevention six H7N9 samples and one H7N9 candidate 
vaccine virus. The Department continues to work closely with HHS to 
press China to share IVPP in accordance with its commitments.
    Question. One of the points of agreement from the Singapore Summit 
between President Trump and North Korean Leader Kim Jong Un related to 
recovering American POW/MIA remains from the Korean War. I am told 
there are at least 20 Vermont veterans of that war who are still 
unaccounted for. This POW/MIA agreement is reportedly being handled on 
a track separate from the nuclear issue. Are these discussions 
progressing? Have you been satisfied with the level of North Korean 
cooperation?
    Answer. Since the Singapore Summit, the United States and North 
Korea have cooperated on the return of 55 sets of human remains 
believed to be those of Americans who fell on the battlefields of North 
Korea more than 60 years ago. Building on this success, we are 
continuing to engage North Korea on the resumption of joint recovery 
operations. We also continue to call for the immediate repatriation of 
those already identified, to achieve closure for every American family.
    Question. Last May, June, September, and December I wrote to you 
about the application of the Leahy Law in Israel. I have written 
similar letters concerning the application of the Leahy Law in other 
countries. The reason I have written four times in the past 11 months 
is that none of your responses even attempted to answer my questions. I 
received your one page reply to my September letter at the end of 
March--over half a year later--and it failed to answer any of my 
questions. When can I expect to receive specific answers to my 
questions?
    Answer. Several issues raised in our correspondence regarding 
application of the Leahy Law in Israel remain under active 
investigation by Israeli authorities and continue to be the subject of 
active internal consultations in the Department. My team is ready to 
brief your staff at their convenience.
    Question. The Leahy Law requires you as the Secretary of State to 
establish and update procedures to ``ensure that for each country the 
Department of State has a current list of all security force units 
receiving United States training, equipment, or other types of 
assistance.'' Does the Department maintain such lists, including for 
units that receive U.S. equipment? If the Department does not know 
which units receive U.S. assistance, how can the Department claim to 
fully comply with the Leahy Law?
    Answer. The Department maintains records of units that receive U.S. 
training assistance through Leahy vetting requests submitted in the 
International Vetting and Security Tracking (INVEST) system. In 
addition, the Department annually requests that embassies submit to the 
Department a list of any security force units in their country that 
received assistance but were not vetted through INVEST.
    Question. Does the Department of State have a ``current list of all 
security force units receiving United States training, equipment, or 
other types of assistance'' for the following countries: Bahrain, 
Colombia, Egypt, Guatemala, Honduras, Indonesia, Iraq, Israel, Kenya, 
Mexico, Morocco, Nigeria, Pakistan, Philippines, Saudi Arabia, UAE? 
Please provide the lists.
    Answer. The Department maintains records of units that receive U.S. 
assistance through Leahy vetting requests submitted in the 
International Vetting and Security Tracking (INVEST) system. In 
addition, the Department annually requests that posts submit to the 
Department a list of any security force units in their country that 
received assistance but were not vetted through INVEST. The Department 
is committed to the implementation of the Leahy Law and would be 
pleased to offer a brief on the sensitive issue of units receiving U.S. 
assistance in an appropriate setting.
    Question. Prior Secretaries of State have refused to provide U.S. 
assistance to foreign governments until such government agreed to 
provide the names of the security force units that would receive U.S. 
assistance. Will you likewise deny U.S. assistance--whether training, 
equipment, or other types of assistance--to governments that refuses to 
provide the specific names of each unit that will receive assistance so 
they can be vetted?
    Answer. Current Leahy vetting procedures require the identification 
of the units receiving training assistance. The Department routinely 
denies the provision of training assistance when unit identification 
information is not provided. The Department is currently developing 
guidance for vetting cases of non-training assistance.
    Question. Sometimes the United States provides assistance to 
foreign security forces in a manner that a specific individual or unit 
cannot be vetted, such as a transfer of a large amount of ammunition or 
weapons to a foreign military for distribution. In those cases, the 
only way to ensure compliance with the Leahy Law is to maintain a 
current list of units that are ineligible to receive that assistance, 
share the list with the partner government, and make sure they do not 
transfer the assistance to those ineligible units. Do you agree? If 
not, why not?
    Answer. The Department continues internal consultations on issues 
related to vetting under the Leahy law of U.S. equipment provided to a 
country's security force units and intends to complete those 
consultations as soon as possible. Maintaining lists of ineligible 
units is one way to address the requirements of the Leahy Laws. There 
are, however, circumstances where sharing such information with the 
partner governments may not be feasible. The Department is prepared to 
brief your staff once our internal consultations are completed.
    Question. The Leahy Law requires that in every case in which the 
Secretary determines that the Department has credible information that 
a security force unit has committed a gross human rights violation the 
Secretary shall, ``to the maximum extent practicable, assist the 
foreign government in taking effective measures to bring the 
responsible members of the security forces to justice.'' Since January 
20, 2017 how many times has the Department offered assistance pursuant 
to this provision, and what was the foreign government's response?
    Answer. Since January 2017, it has been practice for the Department 
to offer assistance each time an Embassy informs a foreign government 
that assistance has been withheld from a security forces unit 
consistent with the State Leahy Law. This offer of assistance to 
foreign governments is not to replace Leahy-applicable assistance, but 
to help the government take effective measures to bring the responsible 
members of the security forces to justice. In 2017, the Department 
informed foreign governments around the world that assistance was 
withheld 58 times, and in each instance, the relevant Embassy made an 
offer of assistance. The host governments had varied responses, ranging 
from refusal of assistance to a request to discuss options of working 
with prosecutors or other parts of the government's judiciary.
    Question. Do you agree that ``credible information'' includes 
information provided by media sources, multilateral agencies, and NGOs 
with a record of ``past accuracy and reliability'' as stated on the 
Department of State website?
    Answer. As a general matter, yes. However, the Department considers 
each report on its own merits. In evaluating any information, we also 
consider a number of other factors, including: how the original source 
of any report obtained the information (e.g., personal knowledge, 
witness interviews, government records, etc.); known political agenda, 
if any, of a source; corroborative information that confirms part or 
all of the allegation; information that contradicts part or all of the 
allegation; history of an individual or security unit and known 
patterns of abuse/professional behavior; and the level of detail of the 
gross violation of human rights (GVHR) allegation, including detail in 
identification of the GVHR, perpetrator (or link to an operational 
unit), and victim.
    Question. Do you agree that the use of reporting by a media source, 
multilateral agency, or NGO in the Department's Annual Reports on 
Country Human Rights Practices indicates that the Department considers 
that source to have a record of ``accuracy and reliability''?
    Answer. Yes. However, the Department considers each report on its 
own merits. In evaluating any information, we also consider a number of 
other factors, including: how the original source of any report 
obtained the information (e.g., personal knowledge, witness interviews, 
government records, etc.); known political agenda, if any, of a source; 
corroborative information that confirms part or all of the allegation; 
information that contradicts part or all of the allegation; the history 
of an individual or security unit and known patterns of abuse/
professional behavior; and the level of detail of the gross violation 
of human rights (GVHR) allegation, including detail in identification 
of the GVHR, perpetrator (or link to an operational unit), and victim.
    Question. Do you agree that it is not necessary for the Department 
to independently verify or obtain directly the information cited in 
reports of media sources, multilateral agencies, or NGOs with a record 
of ``past accuracy and reliability'' for the information to be treated 
as presumptively ``credible'' under the Leahy Law, absent specific 
factors in a given case to suggest that in that particular case the 
information may not be correct (e.g., specific information in the 
possession of the Department that contradicts the report from the media 
source, multilateral agency, or NGO)?
    Answer. Yes, the Department agrees that independent verification or 
direct knowledge of information from a reliable source is not always 
necessary to conclude that information is credible for the purposes of 
the Leahy laws. However, such verification or direct knowledge, where 
available, is helpful in determining whether a given report constitutes 
``credible information'' for Leahy purposes.
    Question. Recently the Department's Office of the Inspector General 
(OIG) conducted a review of the operations of the Bureau of Democracy, 
Human Rights and Labor (DRL) including the Department's Leahy vetting 
process. What specific steps have you taken or will you take to address 
the OIG's concern that the Department lacks a system to ensure that 
U.S. Embassies are complying with their Leahy Law obligations?
    Answer. The Department is committed to the Leahy vetting process 
and has been working to enhance the INVEST system. In response to the 
OIG's recommendations, the Department is developing a policy to provide 
for regular quality assurance checks of vetting decisions; has 
instituted a procedure to ensure that embassies have complied with the 
duty to inform host governments of units denied assistance under the 
State Leahy law; and has promulgated a policy requiring training 
implementers to verify the identities and unit affiliations of training 
attendees.
    Question. Please list all instances in which the U.S. Government 
has determined that a foreign security force unit which was previously 
denied assistance under the Department of State Leahy Law, or the 
Department of Defense Leahy Law, and has subsequently found to have 
been ``remediated'' and eligible for assistance. For each such unit 
please describe why it was denied assistance and what remediation steps 
were taken.
    Answer. There have been 12 instances in which the Secretary has 
determined that foreign governments have taken effective steps to bring 
responsible members of security forces to justice under the Department 
of State Leahy Law. I defer you to the Department of Defense to report 
on those units it has determined to have been remediated under its 
Leahy Law. The State Department has provided the appropriate 
Congressional committees with individual reports that provide details 
regarding why each unit was denied assistance and how the government of 
such country took effective steps to bring the responsible members of 
the security forces unit to justice.
    Question. What does the State Department Office of the Legal 
Adviser believe constitutes ``assistance'' under the Leahy Law? Does 
the State Department Office of the Legal Adviser interpret ``gross 
human rights violations'' to include violations of International 
Humanitarian Law?
    Answer. Section 620M of the Foreign Assistance Act of 1961 (FAA) 
prohibits the U.S. Government from furnishing assistance authorized 
under the FAA or the Arms Export Control Act to any unit of a security 
force of a foreign country if the Secretary of State has credible 
information that such unit has committed a gross violation of human 
rights (GVHR). Such assistance can include training or equipment 
authorized under those authorities. In considering whether to provide 
assistance to a foreign security forces unit, the Department assesses 
whether there is credible information that a unit has committed a GHVR. 
In some circumstances, the same conduct could be both a violation of 
international humanitarian law and a GVHR.
    Question. In your certification to Congress regarding civilian 
casualties in Yemen, you stated that Saudi Arabia has only violated 
agreements with the United States concerning the use of U.S.-origin 
defense articles and services ``with rare exception.'' Did those end 
use violations involve use of U.S. weapons against other than 
legitimate military targets or re-transfers or both?
    Answer. The ``rare exception'' reference did not pertain to any 
alleged violations of use against other than legitimate military 
targets. The Department did not authorize transfers of U.S.-origin 
weapons from Saudi Arabia or the UAE to Yemen or other forces in Yemen. 
We continue to investigate these allegations. Saudi Arabia and the UAE 
have been cooperative with our investigation. If the articles were 
intentionally transferred without the Department's written consent, we 
will determine the appropriate next steps for any repercussions or 
procedures to mitigate future transgressions.
    Question. In your certification to Congress regarding civilian 
casualties in Yemen, you stated that Saudi Arabia has only violated 
agreements with the United States concerning the use of U.S.-origin 
defense articles and services ``with rare exception.'' Section 3 of the 
Arms Export Control Act requires the suspension in transfers or 
deliveries of defense articles and services to governments that have 
violated end use agreements unless the President certifies that there 
is a national security need to continue the assistance. Have you 
provided the required certification for Saudi Arabia?
    Answer. In all cases, we notify Congress of any violations 
reportable under Section 3(c) or 3(e) of the Arms Export Control Act 
and, as has been our practice, provide information on how it was 
addressed with the foreign government, including any remedial steps 
that have been taken. With respect to Saudi Arabia, there has not been 
a violation that resulted in a determination of ineligibility.
    Question. In recent years, Congress has directed the State 
Department to dedicate $9-$10 million annually to implement section 
620M of the FAA. What has this funding supported since January 20, 
2017? How many full time Leahy Law vetting staff are working in DRL? 
How does this number compare to the number of full time equivalents 
working at this in 2016? What is the caseload per staff? Does this 
funding support vetting staff in other bureaus or in embassies?
    Answer. Since January 2017, funding to implement section 620M of 
the FAA has principally been expended for salaries and support costs of 
Leahy vetting, and costs associated with development of INVESTc, the 
cloud-based successor to INVEST. DRL salaries/support costs include one 
full time equivalent position in DRL who is a full-time vetter and six 
others who spend the majority of their time on Leahy vetting and policy 
issues; eight full-time contract vetters; two contractors who assist as 
advisors on Leahy law implementation; and eight IT contractors. The 
funding also supports eight contractors in the Department's regional 
bureaus and 12 overseas positions in the WHA bureau who are a mix of 
contractors, eligible family members, and locally employed staff. In 
2016, DRL had four full-time equivalents and seven contractors 
performing vetting. The caseload per vetting employee in DC is roughly 
25,000 to 30,000 cases per year.
    Question. An equipment vetting policy was put in place at Embassy 
Cairo following a GAO report in 2016-2017. That policy has since been 
discontinued. Why?
    Answer. All security assistance, including to Egypt, is subject to 
the Leahy laws. Units that commit gross violations of human rights are 
ineligible for assistance. Leahy Vetting standard operating procedure 
requires that all recipients of equipment assistance be screened. The 
Department continues to develop and implement procedures to enhance 
vetting of equipment and other non-training assistance in line with GAO 
recommendations.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. What is the administration's strategy to secure the 
release of unjustly detained Turkish-American NASA scientist Serkan 
Golge and U.S. Consulate General Istanbul local employees Metin Topuz 
and Mete Canturk?
    Answer. I will continue Mission Turkey's ongoing engagement to 
ensure fair, timely treatment of all detainees and press for the 
immediate release of all those held arbitrarily, including Serkan 
Golge, Metin Topuz, and Mete Canturk. I am committed to taking whatever 
steps necessary to ensure the fair resolution of these cases. I will 
continue to raise the cases of wrongfully detained U.S. citizens and 
local employees of the U.S. Mission in Turkey at the highest levels.
    Question. Given Turkey's reliance on Western commercial and 
international financial institutions, why has the administration not 
deployed the United States' considerable economic leverage over Turkey 
to obtain the release of our citizen and local employees?
    Answer. I will take whatever steps we deem necessary and effective 
to ensure the fair resolution of the case of U.S. citizen and NASA 
scientist Dr. Serkan Golge and our detained locally employed staff, 
including applying pressure or leverage, economic or otherwise, as 
appropriate. I will also continue to raise the cases of wrongfully 
detained U.S. citizens and local employees of the U.S. Mission in 
Turkey at the highest levels. Securing the freedom of our wrongfully 
detained U.S. citizens and local staff in Turkey has been and continues 
to be a priority for me since I became Secretary, and I will not rest 
until they are released.
    Question. By all public accounts it appears that Finnish 
investigative journalist Jessikka Aro was going to be one of this 
year's winners of the Department of State's International Women of 
Courage Awards. However, her award was apparently rescinded late in the 
process under questionable circumstances. Can you please clarify what 
happened, specifically if any such actions was taken because of her 
defense of freedom of the press?
    Answer. A number of errors were made in the nomination and approval 
process of Ms. Jessikka Aro. Ms. Aro should not have been notified that 
she was an awardee in the absence of a comprehensive review, which is a 
prerequisite for the nomination process. We commit to improving the 
process moving forward.
    Question. What are the Department's projections for the next 10, 
20, and 50 years for increased refugee and migration flows due to 
climate change, and what steps are being taken to address climate 
refugees?
    Answer. The Department has not generated any out-year projections 
regarding how climate or weather may affect the movements of different 
populations. Additionally, ``climate'' is not a basis for refugee 
status under the 1951 Convention relating to the Status of Refugees or 
its 1967 Protocol.
                                 ______
                                 
              Questions Submitted by Senator Jeff Merkley
    Question. The Columbia River Treaty is currently in negotiations 
with Canada to ensure flood protection in the Columbia River Basin. The 
Columbia Basin tribes worked closely with stakeholders, including the 
State Department, when the Regional Recommendation was developed in 
2013. Tribal priorities were included in that recommendation, and 
included ecosystem management, such as implementation of the Endangered 
Species Act and maintaining salmon populations, as well as respecting 
tribal rights. Secretary Pompeo, will you commit to maintaining the 
terms of the regional recommendation in treaty negotiations?
    Answer. We continue to use the 2013 U.S. Entity Regional 
Recommendation as a guide in our ongoing negotiations with Canada. 
Consistent with the Regional Recommendation, we seek opportunities to 
improve ecosystem cooperation for the benefit of fish and wildlife in 
both countries in a manner that appropriately balances this desired 
outcome with other objectives.
    Question. Columbia Basin tribal nations were not included as part 
of the negotiating team, even though they have been included on 
negotiating teams for past treaties, such as the Pacific Salmon Treaty. 
I would also like to point out that Canada's First Nations have been 
made formal members of the Canadian negotiating advisory team, which 
allows them to provide input each negotiation session. Will you commit 
to using tribal policy and expertise for informed decisionmaking during 
negotiations?
    Answer. The Department has benefited from the advice and 
perspectives of tribal leaders and experts since the Regional 
Recommendation was submitted on the modernization of the treaty regime. 
Once negotiations began in May 2018, we scheduled discussions with 
tribal leaders and staff before and after each round of negotiations 
and quarterly meetings in the Basin. We have conducted these 
consultations within a framework developed in concert with Columbia 
Basin tribes, who provide expertise and perspectives that inform our 
negotiation positions.
    Question. You have committed to restore State Department hiring 
levels to where they were at the end of 2017: 10,503 for the Civil 
Service and 13,676 for the Foreign Service. As of the end of 2018, 
those numbers stood at 10,140 for the Civil Service and 13,764 for the 
Foreign Service. For the Civil Service, that amounts to a 3.5 percent 
decrease off 2017 levels and a full 10 percent when compared to 2016. 
If additional funds were to be appropriated for the American Salaries 
Account for fiscal year 2020, would you commit to dedicating a 
percentage of that increase to recruiting the next generation of 
national security professionals into the Department--such as through 
the landmark Presidential Management Program (PMF), returning Peace 
Corps Volunteers, Rangel and Pickering Fellows, Veterans Recruitment 
Authorities, and other more flexible hiring authorities?
    Answer. The Department expects to continue hiring exceptional 
people under the auspices of these successful programs and would be 
pleased to enhance our candidate pools as funding permits. For example, 
Pickering and Rangel Fellowships are critical recruitment programs that 
continue to provide outstanding candidates for Foreign Service Officer 
positions. The PMF program has provided the Department with a wealth of 
diverse Civil Service talent. We also plan to fill certain staffing 
needs with employees with noncompetitive eligibility including 
veterans, military spouses, persons with disabilities, family members, 
and former Peace Corps employees.
    Question. You have committed to restore State Department hiring 
levels to where they were at the end of 2017: 10,503 for the Civil 
Service and 13,676 for the Foreign Service. As of the end of 2018, 
those numbers stood at 10,140 for the Civil Service and 13,764 for the 
Foreign Service. For the Civil Service, that amounts to a 3.5 percent 
decrease off 2017 levels and a full 10 percent when compared to 2016. 
What is the current level of Civil Service and Foreign Service staff?
    Answer. Current employment through March 2019 is 13,770 for the 
Foreign Service and 10,023 for the Civil Service. Foreign Service 
levels are actually higher than 2016 or 2017 levels. By the end of the 
fiscal year, we expect Civil Service employment levels to increase as a 
result of more aggressive Department-wide hiring strategies. Foreign 
Service employment is expected to increase since there are additional 
intake classes planned for the remainder of the year. As we look toward 
the new fiscal year, we continue to expect Civil Service employment to 
increase commensurate with need and are committed to reaching the 
employment numbers supported by the Department's appropriation.
    Question. You have committed to restore State Department hiring 
levels to where they were at the end of 2017: 10,503 for the Civil 
Service and 13,676 for the Foreign Service. As of the end of 2018, 
those numbers stood at 10,140 for the Civil Service and 13,764 for the 
Foreign Service. For the Civil Service, that amounts to a 3.5 percent 
decrease off 2017 levels and a full 10 percent when compared to 2016. 
Is the hiring level for the end of 2018 for the Foreign Service--
13,764--inclusive of spouses of Foreign Service personnel? If so, what 
is the sub-set number of Foreign Service spouses?
    Answer. The full-time permanent employment figures for the Foreign 
Service cited above do not include spouses of Foreign Service 
personnel. Foreign Service spouses employed by the Department would be 
shown as Eligible Family Member (EFM) employees. EFM employment has 
increased from its lowest point during the hiring freeze of 1,500 to 
over 2,300 as of March 31.
    Question. You have committed to restore State Department hiring 
levels to where they were at the end of 2017: 10,503 for the Civil 
Service and 13,676 for the Foreign Service. As of the end of 2018, 
those numbers stood at 10,140 for the Civil Service and 13,764 for the 
Foreign Service. For the Civil Service, that amounts to a 3.5 percent 
decrease off 2017 levels and a full 10 percent when compared to 2016. 
Do you believe that greater flexibility in hiring authorities, such as 
delegating to you direct-hiring authority (DHA) for critical needs 
positions at the State Department, as well as allowing for a certain 
percentage of positions to be filled through the excepted service, will 
help advance the goal of returning to fiscal year 2017 hiring levels?
    Answer. Direct hiring authority (DHA) will help the Department 
attract and retain talented individuals to the Department of State, 
particularly in hard to recruit skill categories like IT. In addition 
to DHA, the Department is looking at other initiatives such as 
recruitment incentives to help attract additional candidates. These 
initiatives will help ensure the Department will be able to return to 
authorized employment levels.
    Question. As the administration undertakes negotiations with Russia 
on nuclear arms control, I am concerned about the Department's staffing 
and expertise in this highly technical field. Former Bush 
administration Arms Control, Verification and Compliance (AVC) 
Assistant Secretary Paula DeSutter testified before the House Armed 
Services Committee that the arms control bureau is ``losing staff.'' 
Please provide me the following information. Have you or your senior 
officials, such as Under Secretary Thompson conducted any formal or 
informal ``exit interviews'' to ascertain why the Bureau is losing 
staff? If so, please inform us as to the results.
    Answer. In June 2014, the Department's Office of Inspector General 
issued report ISP-I-14-14A, ``Inspection of the Bureau of Arms Control, 
Verification, and Compliance.'' One aspect reviewed was ``Workforce 
Development and Succession Planning.'' OIG reported 48 percent of the 
workforce would be eligible to retire by 2019. The Bureau's Assistant 
Secretary is implementing the OIG recommendations, including a robust 
professional development program and strategic hiring process, to 
ensure we hire and retain the next generation of arms control and 
verification experts.
    Question. As the administration undertakes negotiations with Russia 
on nuclear arms control, I am concerned about the Department's staffing 
and expertise in this highly technical field. Former Bush 
administration Arms Control, Verification and Compliance (AVC) 
Assistant Secretary Paula DeSutter testified before the House Armed 
Services Committee that the arms control bureau is ``losing staff.'' 
Please provide me the following information. Do you concur with Ms. 
DeSutter, that the Bureau is ``losing staff''? If so, are there any 
plans to make up for the loss in staff and their highly technical 
expertise?
    Answer. In June 2014, the Department's Office of Inspector General 
issued report ISP-I-14-14A, ``Inspection of the Bureau of Arms Control, 
Verification, and Compliance.'' One aspect reviewed was ``Workforce 
Development and Succession Planning.'' OIG reported 48 percent of the 
workforce would be eligible to retire by 2019. Hiring of specialized 
subject-matter experts in this competitive field has a long lead-time. 
The Bureau's Assistant Secretary has sought to implement OIG 
recommendations through greater integration of technical experts and 
recruiting technical experts to ensure we maximize employment 
opportunities and promote professional development.
    Question. As the administration undertakes negotiations with Russia 
on nuclear arms control, I am concerned about the Department's staffing 
and expertise in this highly technical field. Former Bush 
administration Arms Control, Verification and Compliance (AVC) 
Assistant Secretary Paula DeSutter testified before the House Armed 
Services Committee that the arms control bureau is ``losing staff.'' 
Please provide me the following information. What was the total number 
of Washington DC-based full-time equivalents (not including Schedule C 
positions) as of January 2017 in the AVC Bureau and what is the current 
number?
    Answer. In June 2014, the Department's Office of Inspector General 
issued report ISP-I-14-14A, ``Inspection of the Bureau of Arms Control, 
Verification, and Compliance.'' One aspect reviewed was ``Workforce 
Development and Succession Planning.'' OIG reported 48 percent of the 
workforce would be eligible to retire by 2019. Hiring of specialized 
subject-matter experts in this competitive field has a long lead-time. 
The total number of Washington DC-based full-time equivalents in the 
AVC Bureau as of January 2017 was 113. The current total number of 
Washington DC-based full-time equivalents in the AVC Bureau is 94.
                                 ______
                                 
            Questions Submitted by Senator Chris Van Hollen
    Question. Did the Department of Energy seek the Department of 
State's concurrence on issuing seven Part 810 authorizations to allow 
U.S. companies and persons to transfer certain nuclear energy 
technology and information to Saudi Arabia, as required under Part 810 
of Title 10, Code of Federal Regulations, which implements section 57 
b.(2) of the Atomic Energy Act of 1954?
    Answer. Yes.
    Question. Did the Department of State concur with each of the seven 
Part 810 authorizations? When did the Department of State concur with 
each of the seven Part 810 authorizations? Who at the Department of 
State reviewed the seven aforementioned Part 810 authorizations? Who at 
the Department of State has authority to provide concurrence on Part 
810 authorizations?
    Answer. The Bureau of International Security and Nonproliferation, 
which has responsibility within the Department for civil nuclear 
cooperation matters, oversaw the Department's review of the seven Saudi 
Arabia-related Part 810 applications from November 2017 to March 2019 
and provided concurrence on each of them to the Department of Energy. 
These reviews were conducted consistent with U.S. law and standard 
Department of State practices.
    Question. What were the specific contents of the Part 810 
authorizations? What do the authorizations allow the U.S. to engage in?
    Answer. Part 810 authorizations authorize the transfer of nuclear-
related technical assistance, subject matter expertise, and data. I 
refer you to the Department of Energy for questions regarding the 
specific contents of the authorizations.
    Question. Which U.S. companies and persons received Part 810 
authorizations to transfer certain nuclear energy technology and 
information to Saudi Arabia?
    Answer. I refer you to the Department of Energy for questions 
regarding the content of Part 810 authorizations.
    Question. Did the Department of State have any concerns regarding 
the transfer of nuclear energy technology and information to Saudi 
Arabia pursuant to Part 810 authorizations?
    Answer. The Bureau of International Security and Nonproliferation 
oversaw the State Department's review of Part 810 applications for 
transfers of civil nuclear technology to Saudi Arabia, consistent with 
U.S. law and standard Department of State practices, and concurred on 
the authorizations.
    Question. To what extent has the Secretary of State led nuclear 
cooperation negotiations with Saudi Arabia, as required under section 
123 of the Atomic Energy Act of 1954?
    Answer. The Bureau of International Security and Nonproliferation, 
under the direct guidance of the Secretary of State, is leading the 
negotiations on a civil nuclear cooperation agreement with Saudi Arabia 
with the concurrence and technical assistance of the Department of 
Energy and in consultation with the Nuclear Regulatory Commission.
    Question. What have been the extent of the Department of State 
officials' meetings, communications, or other interactions with Saudi 
Arabian officials and/or representatives of any Saudi Arabian non-
governmental organizations or commercial entities regarding nuclear 
cooperation with the United States? What has been the nature of these 
interactions, and what specific forms of nuclear cooperation have been 
discussed?
    Answer. The Department of State has engaged in consultations with 
Saudi Arabian government officials regarding civil nuclear cooperation 
since 2012. With Saudi Arabia, the Department of State: leads 
negotiations for a civil nuclear cooperation agreement pursuant to 
Section 123 of the Atomic Energy Act, as amended; communicates 
regarding the benefits of civil nuclear cooperation with the United 
States and the importance of engaging in civil nuclear cooperation only 
with the highest standards of nuclear safety, security, and 
nonproliferation; and coordinates to obtain governmental 
nonproliferation and peaceful-use assurances for transfers of civil 
nuclear technology under 10 CFR Part 810 prior to the Secretary of 
Energy authorizing those transfers.
    Question. To what extent have Department of Energy officials 
jointly planned or involved Department of State officials in 
interactions with Saudi Arabia regarding nuclear cooperation?
    Answer. In accordance with standard procedures, the Departments of 
State and Energy jointly plan their interactions with Saudi Arabia 
regarding nuclear cooperation.
    Question. What diplomatic efforts has the Department of State 
undertaken to induce Saudi Arabia to rescind its Small Quantities 
Protocol with the International Atomic Energy Agency (IAEA) and bring 
into force an Additional Protocol to its Comprehensive Safeguards 
Agreement with the IAEA?
    Answer. We encourage all countries, particularly those with nuclear 
programs, to adopt the current standards for IAEA safeguards, including 
by bringing an Additional Protocol into force, and as applicable, by 
modifying or rescinding the outdated version of the Small Quantities 
Protocol. We have regularly and consistently raised the Additional 
Protocol with Saudi interlocutors in bilateral engagements, including 
negotiations on a 123 agreement.
    Question. What diplomatic efforts has the Department of State 
undertaken to induce Saudi Arabia to commit to forgoing uranium 
enrichment as a condition of concluding a Section 123 nuclear 
cooperation agreement with the United States?
    Answer. All 123 agreements include, at a minimum, the requirements 
listed in Section 123 of the Atomic Energy Act, as amended. Beyond 
these requirements, the United States has a longstanding policy of 
limiting the spread of enrichment and reprocessing capabilities around 
the world and will continue to seek the highest nonproliferation 
standards possible in all future 123 agreements, including restrictions 
on enrichment and reprocessing.
    Question. In addition to making severe cuts to U.S. assessments for 
the U.N. and U.N. peacekeeping operations, your budget request also 
proposes eliminating the International Organizations and Program (IO&P) 
account, an important source of voluntary funding for U.N. agencies 
that provide humanitarian relief, development assistance, and promote 
human rights and gender equality around the world. One of these 
agencies is the U.N. Children's Fund (UNICEF), which received $137.5 
million for its core budget from the account in fiscal year 2019. 
UNICEF provides long-term humanitarian and development assistance to 
children and mothers. UNICEF is involved in a number of critical 
initiatives, working to help increase the number of girls enrolled in 
school worldwide and providing clean water, sanitation, educational 
support, and nutritional assistance to children in disaster zones and 
war-torn regions around the world, including Syria, Iraq, Yemen, the 
Central African Republic, and South Sudan. UNICEF is also responsible 
for procuring vaccines that reach 45 percent of the world's children, 
saving the lives of 2.5 million children each year. The U.S.--under 
both Democratic and Republican administrations--has long been the top 
funder of these efforts, and the Trump administration itself has 
supported them since it came into office. Why then has the 
administration chosen to target this important humanitarian agency?
    Answer. The International Organizations and Program account is only 
one of numerous U.S. Government sources of voluntary funding for 
international organizations. State Department and USAID funding may 
still be provided to U.N. organizations and programs, such as UNICEF, 
if they are selected as implementing partners to execute specific 
foreign assistance programs, such as humanitarian or health programs.
    Question. The State Department's fiscal year 2020 budget 
justification states that you are ``committed to promoting U.S. 
leadership in international organizations as a means of countering 
actions by countries that do not share U.S. national security interests 
and values.'' While not named explicitly, it is safe to say that one of 
these countries is almost certainly China, which is actively seeking to 
expand its profile and influence at the U.N. As the tenth largest 
contributor to U.N. peacekeeping operations and the second largest 
financial contributor to the U.N.'s peacekeeping and regular budgets, 
Beijing is increasingly in a position to do just that. This past 
summer, for example, China aggressively pushed for the elimination of a 
large number of critical human rights monitoring posts in U.N. 
peacekeeping missions. This is a clear indication of China's growing 
leverage at the U.N., as well as its willingness to use its financial 
clout to push back against some of the bedrock principles of the 
liberal international order long championed by the United States. By 
diminishing our role in important multilateral institutions and 
discussions, and financially undercutting activities that advance our 
interests, aren't we in effect providing China with an opening to even 
further expand its clout at the U.N.?
    Answer. The fiscal year 2020 budget request ensures that the United 
States will continue to be the largest financial contributor to 
international organizations. We will make every effort to project U.S. 
leadership and the advancement of U.S. ideals, including by thwarting 
the efforts of other countries, such as China, to advance objectives 
that are contrary to U.S. national interests.
    Question. The State Department's fiscal year 2020 budget 
justification states that you are ``committed to promoting U.S. 
leadership in international organizations as a means of countering 
actions by countries that do not share U.S. national security interests 
and values.'' While not named explicitly, it is safe to say that one of 
these countries is almost certainly China, which is actively seeking to 
expand its profile and influence at the U.N. As the tenth largest 
contributor to U.N. peacekeeping operations and the second largest 
financial contributor to the U.N.'s peacekeeping and regular budgets, 
Beijing is increasingly in a position to do just that. This past 
summer, for example, China aggressively pushed for the elimination of a 
large number of critical human rights monitoring posts in U.N. 
peacekeeping missions. This is a clear indication of China's growing 
leverage at the U.N., as well as its willingness to use its financial 
clout to push back against some of the bedrock principles of the 
liberal international order long championed by the United States. Given 
that international leadership and influence are built as much on 
sustained engagement and long-term investments in development, how does 
a substantial reduction in the international affairs budget counter 
countries--like China--that seek reduced U.S. influence at 
international forums like the U.N.?
    Answer. Through the strategic funding and programming included in 
the fiscal year 2020 budget request, the United States will continue to 
be the largest financial contributor to international organizations. We 
will ensure that our nation is fully engaged in the regions of the 
world upon which our national security and future prosperity depend. We 
will make every effort to project U.S. leadership and the advancement 
of U.S. ideals in our programming and engagement with multilateral 
forums, including by thwarting the efforts of other countries, such as 
China, to advance objectives that are contrary to U.S. national 
interests.
    Question. In fiscal year 2018, the State Department withheld $18.9 
million from its U.N. regular budget payments to express disapproval of 
the Office of the U.N. High Commissioner for Human Rights (OHCHR). 
OHCHR plays a critical role in advancing U.S. human rights priorities: 
for example, the Office helps implement and coordinate international 
investigations into human rights abuses authorized by the UNHRC in a 
number of countries, including North Korea, Iran, Syria, Yemen, 
Myanmar, Belarus, DR Congo, and South Sudan, among others. These 
activities help raise international awareness of human rights 
violations, magnify the voices of human rights defenders and civil 
society organizations working on the ground, and serve as a useful tool 
for applying pressure to repressive governments. Your policy of 
withholding funding is especially confounding given that the State 
Department itself has publicly expressed support for the work of OHCHR. 
In a statement provided to The Guardian in March, one of your 
spokespersons noted that, ``The United States remains engaged in the 
work of the U.N. High Commissioner for Human Rights . . . and strongly 
supports those special procedures and mandates that have proven 
effective in illuminating the most grave human rights environments, 
including in Iran and DPRK.'' How do you account for the gap between 
your Department's financial decisions on the one hand and statements of 
support for OHCHR on the other? If the Office is engaging in activities 
that this administration supports and has deemed important to U.S. 
interests, what sense does it make to withhold funding?
    Answer. Following withdrawal from the U.N. Human Rights Council in 
fiscal year 2018, there was a decision to withhold assessed funding 
that was, in part, going to support human right mandates and activities 
that do not advance U.S. national interests. At the same time, 
Department voluntary contributions have continued for those mandates 
and activities that do advance U.S. national interests. This approach 
ensures that Department funding aligns with national priorities.
    Question. Since January, The Guardian has twice reported that the 
administration has stopped cooperating with U.N. special procedures, 
upending decades of established practice whereby the State Department 
has responded to queries from mandate-holders and facilitated country 
visits. Back in January, nine U.S.-based NGOs, led by Freedom House, 
sent you a letter expressing concern that this apparent shift in 
posture would negatively impact our country's ability to promote human 
rights abroad and send a bad signal to authoritarian regimes, whose 
policies are frequently targeted for scrutiny by the U.N. As the letter 
notes, the credibility of special procedures ``depends on applying the 
same international standards to all countries, including democracies 
that may have robust national oversight mechanisms of their own . . . 
Halting U.S. engagement with U.N. special rapporteurs would set a 
dangerous precedent that repressive regimes are likely to copy and 
exploit. The eventual result could be a breakdown of the international 
human rights architecture that the United States helped to create as a 
means of strengthening American security, promoting American values, 
and ensuring a freer, more stable, and more prosperous world.'' Could 
you clarify State's stance on this issue?
    Answer. We continue to cooperate with U.N. special procedures that 
are determined to be in the U.S. national interest. Given the broad 
range of mandates and requests, we prioritize interactions that 
maximize the promotion of U.S. objectives. In February, the Department 
met twice with the Special Rapporteur for extrajudicial, summary, or 
arbitrary executions to discuss the Global Magnitsky program and the 
killing of Jamal Khashoggi. Department officials and our Missions in 
New York and Geneva have also met with numerous mandate holders, 
including the Independent Expert on the Central African Republic and 
the Special Rapporteurs on Myanmar and freedom of religion or belief, 
among others.
    Question. Recently there have been some interesting developments at 
the U.N. with regards to human rights in Saudi Arabia. In January, 
Agnes Callamard, the U.N. special rapporteur on extrajudicial, summary 
or arbitrary executions, announced that she would be heading an 
independent international investigation into the murder of Saudi 
journalist Jamal Khashoggi, with the goal of determining ``the nature 
and the extent of states' and individuals' responsibilities for the 
killing.'' She is due to report to the UNHRC on her findings in June. 
In March, during the UNHRC's 40th regular session, 36 countries--
including all members of the European Union--released a joint statement 
condemning Saudi Arabia for its ``continuing arrests and arbitrary 
detentions of human rights defenders,'' use of counterterrorism laws to 
quash dissent, and for its lack of cooperation with Ms. Callamard's 
investigation into the Khashoggi killing. Led by Iceland--the country 
that assumed our seat on the Council when we pulled out last June--the 
statement was, according to Human Rights Watch, ``the first-ever 
collective action'' at the UNHRC criticizing the Saudis over their 
human rights record. Notably, the U.S. did not sign on to the joint 
statement. What signal does the U.S.'s absence from these initiatives 
send regarding this administration's commitment to improving the human 
rights situation in Saudi Arabia? Is the promotion of human rights in 
Saudi Arabia a priority for this administration? Does the United States 
support Agnes Callamard's investigation of the murder of Mr. Khashoggi? 
If so, how will the United States support this investigation given its 
absence from the UNHRC?
    Answer. We remain deeply concerned by the murder of Jamal Khashoggi 
and the ongoing detentions of Saudi citizens engaged in peaceful 
activism. Department officials have met twice with Ms. Callamard to 
discuss U.S. actions related to Mr. Khashoggi's death and we welcome 
her findings. While we did not join the joint statement on Saudi Arabia 
following our principled withdrawal from the U.N. Human Rights Council, 
we take all allegations of human rights violations and abuses seriously 
and have publicly recommended changes to Saudi practices to protect 
against arbitrary arrests, extrajudicial detention, and unlawful 
killings.
    Question. U.N. humanitarian agencies are playing an essential role 
in responding to the crisis in Yemen, where nearly 75 percent of the 
population is reliant on some form of humanitarian aid. The World Food 
Program (WFP), for example, is working to reach 12 million people per 
month with food and nutritional assistance, while UNICEF is working to 
ensure access to clean water and education for children and the U.N. 
Population Fund (UNFPA) has integrated nutrition assistance for 
pregnant women into its reproductive health and safe delivery services. 
Nevertheless, violence and a lack of access allowed by the parties to 
the conflict remain significant obstacles to reaching more people. What 
concrete actions is the administration taking to convince the Saudis 
and Emiratis to do more to ensure humanitarian access for the U.N. and 
international NGOs?
    Answer. The administration engages the Saudis and Emiratis at all 
levels on this issue--through private bilateral engagements and other 
opportunities such as meetings of the U.N. Verification and Inspection 
Mechanism stakeholders and the Yemen Quad (U.S., United Kingdom, Saudi 
Arabia, and the UAE). Hudaydah and Saleef ports remain open and 
operational, and humanitarian actors are continuing to import 
assistance for tens of millions of Yemenis utilizing these key entry 
points. We will continue to urge all parties to the conflict to fully 
implement the Sweden Agreement and increase humanitarian and commercial 
access to all of Yemen's ports of entry and throughout Yemen so that 
critical food, fuel, and medicine reaches the neediest Yemenis.
    Question. Last year, the administration ended all U.S. funding for 
the U.N. Relief and Works Agency for Palestine Refugees (UNRWA), an 
organization that provides a number of critical services, including 
education, healthcare, and food aid to destitute Palestinian refugees 
in the West Bank, Gaza, Jordan, Lebanon, and Syria. While UNRWA was 
ultimately able to pull together enough funds from other donor 
countries to avert having to close its schools or health clinics last 
year, the loss of its largest donor has left the organization in an 
extremely precarious position. Last summer, a bipartisan group of seven 
former U.S. Ambassadors to the U.N. sent you a letter calling for the 
restoration funding, noting that organization's funding challenges 
``has national security ramifications for our closest allies, including 
Israel and Jordan.'' This view has been echoed by former Israeli 
security officials, one of whom--former IDF Spokesperson Lt. Col. 
(ret.) Peter Lerner --wrote that, ``By weakening UNRWA and, 
consequentially, the Palestinian population even further, without a 
real administrative alternative, I believe that Palestinians will be 
even more susceptible to extremism and violence. This will not 
contribute to security or stability in the region.'' Are you concerned 
about the possibility of greater security disruptions in places like 
Gaza? Did the administration take these warnings into consideration 
when it made its decision last year?
    Answer. We made it clear when we provided our final contribution of 
$60 million in January 2018 that the United States would no longer bear 
a disproportionate share of UNRWA's costs, and other countries must 
step up and do their part to advance regional security and stability. 
UNRWA continues to operate with an unsustainable business model, tied 
to an expanding community of beneficiaries. Palestinians deserve better 
than a service provision model that operates in permanent crisis mode. 
We continue to work closely with Israel and key regional partners on 
ways to improve economic and humanitarian conditions in Gaza. Hamas is 
primarily responsible for those conditions, having put its own 
interests above those of Gaza's residents.
    Question. The State Department's fiscal year 2020 budget 
justification states that, ``The role and size of the U.N. Mission in 
South Sudan (UNMISS) will likely increase somewhat, in order to 
appropriately respond to the severe security and humanitarian situation 
and to support the fledgling commitment from South Sudanese parties to 
engage in peace processes.'' Nevertheless, that same document requests 
a nearly one-third cut in U.S. funding for the mission. If the 
administration does, as your own department suggests, plan to vote for 
an expansion of UNMISS on the Security Council, what rational basis is 
there for underfunding it?
    Answer. U.N. peacekeeping operations, including the U.N. Mission in 
South Sudan (UNMISS), are effective mechanisms to address global 
challenges to international peace and security. However, the U.N. needs 
to complete reforms to achieve more efficient operations, and other 
U.N. member countries must assume more of the financial burden. The 
United States is focused on supporting Secretary-General Guterres' 
peacekeeping reform efforts and is working with U.N. member states to 
create a ``culture of performance'' in U.N. peacekeeping. Doing so will 
ensure that U.S. taxpayer resources are used in the most cost-effective 
manner.
    Question. In what the U.N. has termed a ``textbook example of 
ethnic cleansing,'' hundreds of thousands of Rohingya, a stateless 
Muslim minority group in Myanmar, were driven from their homes into 
neighboring Bangladesh by an organized campaign of violence and 
persecution beginning in August 2017. While the U.N. and international 
NGOs have only been granted limited access to Myanmar's northern 
Rakhine state, the epicenter of the violence, they are playing a 
crucial role in meeting the needs of Rohingya refugees in Bangladesh. 
WFP has provided food aid--including rations and vouchers--to nearly 
900,000 Rohingya, as well as nutritional support to over 200,000 
malnourished children and pregnant and nursing women. UNFPA midwives 
have screened more than 500,000 women, provided dignity kits to more 
than 110,000 women, and delivered over 5,600 babies safely. UNHCR has 
also developed new sites in Bangladesh to help house displaced 
Rohingya, including building latrines and wells, distributing shelter-
building materials, and constructing major roads and access points to 
ease living constraints. Does the administration plan to continue to 
support these kinds of humanitarian efforts? Given that it remains far 
too dangerous for Rohingya refugees to return home, do you think it is 
important for the U.N. to continue providing humanitarian assistance to 
these vulnerable populations?
    Answer. The United States has led the donor response to the Rakhine 
State crisis since it began in August 2017. As of April 9, 2019, the 
United States has provided more than $494 million in humanitarian 
assistance in Bangladesh and Burma. The President's fiscal year 2020 
budget request includes plans for continued U.S. leadership in the 
humanitarian response to the Rakhine State crisis, as well as to 
support the humanitarian needs of long-displaced Burmese elsewhere in 
the region. It is important for the international community to continue 
providing humanitarian assistance to vulnerable populations affected by 
the Rakhine State crisis while durable solutions are being pursued, 
given that conditions in Rakhine State are not yet conducive for 
voluntary, safe, dignified, and sustainable returns.
    Question. The U.N. peacekeeping mission in the Central African 
Republic (MINUSCA) has helped the country make some important strides. 
In 2016, for example, CAR organized, with robust U.N. support, peaceful 
and credible presidential and legislative elections, replacing a 
previous government that had been in office on an interim basis. While 
MINUSCA's work has helped to preserve calm in some areas of the 
country, the security situation has deteriorated in northern and 
eastern CAR, with a patchwork of armed groups fighting each other for 
control of resources and targeting civilians. The capital, Bangui, has 
also recently been rocked by an increase in violence, which has 
included attacks on churches and mosques. This has led to sharp 
increases in displacement and humanitarian needs over the last year. 
The State Department's budget request states that, ``The role and size 
of MINUSCA will likely remain unchanged until the government gains the 
capacity to fully assume its responsibilities to protect civilians, 
ensure the viability of the state, and prevent violence.'' What is the 
administration doing to strengthen CAR's government and ensure that 
MINUSCA has the resources and support it needs to fulfill its mandate?
    Answer. During President Touadera's visit this month, I stressed 
that we will remain a partner to the government of the Central African 
Republic (CAR). We provide training and equipment to the CAR military 
and are helping the CAR government rebuild and professionalize its 
internal security forces, corrections system, and judiciary, including 
the Special Criminal Court. We continue to support implementation of 
the peace agreement and to seek justice for those who threaten the 
peace, stability, or security of CAR. We remain closely engaged with 
the U.N. in Bangui and New York, and continually evaluate MINUSCA's 
performance in line with the five U.S. peacekeeping principles in order 
to ensure the mission is adequately resourced, fit to task, and 
performing effectively.
    Question. Does assistance to United Nations Development Program 
(UNDP) advance U.S. policy goals in Iraq? Will the U.S. continue to 
support these programs?
    Answer. UNDP's programs significantly contribute to U.S. policy 
goals of a sovereign, stable, and prosperous Iraq that is free from 
foreign interference and capable of disrupting ISIS and other terrorist 
networks. In the post-ISIS era, UNDP is coordinating with the Iraqi 
government on drafting a U.N. Development Assistance Framework. The 
framework will define goals and benchmarks for reconstruction and 
development from 2020 to 2024. We have provided $265 million to UNDP's 
Funding Facility for Stabilization for Iraq since 2015, not including 
an additional $100 million recently announced for Anbar. The assistance 
will accelerate the return of IDPs and rebuild lives through essential 
services.
    Question. Since the Foreign Affairs Manual change went into effect, 
visa denials on public charge grounds have skyrocketed four-fold. Is 
that because the change has made it easier for consulates to conclude 
that immigrants are likely to become public charges? Did the State 
Department conduct any studies or analyses of whether visa applicants, 
their family members, or prospective sponsors would decline public 
benefits as a result of the Foreign Affairs Manual change? If so, 
please produce those studies to the Committee. If not, why not?
    Answer. At this time, given ongoing litigation regarding the 
changes made to the FAM guidance on public charge the Department cannot 
provide information that may be the subject of proceedings in that 
litigation.
    The Department maintains data associated with immigrant and 
nonimmigrant visa applicants found ineligible under public charge 
grounds. Attached are immigrant and nonimmigrant refusals under the 
public charge ground of inadmissibility aggregated by the nationality 
of the applicant and the post that adjudicated the visa. This data 
represents refusals for fiscal year 2017, fiscal year 2018, and year-
to-date for fiscal year 2019.
    Question. Since the Foreign Affairs Manual change went into effect, 
visa denials on public charge grounds have skyrocketed four-fold. Which 
officials or staff within the State Department were involved in the 
decision to revise the Foreign Affairs Manual? Did State Department 
officials or staff consult with other Federal agencies or offices, 
including the Department of Homeland Security, the Department of 
Justice, the Department of Agriculture, the Department of Health and 
Human Services, the Social Security Administration, and/or the White 
House? If so, please list the relevant Department officials, staff, and 
other agencies, and describe any meetings, communications, or other 
contacts.
    Answer. At this time, given ongoing litigation regarding this 
matter, the Department cannot provide information that may be the 
subject of proceedings in that litigation.
    Question. Since the Foreign Affairs Manual change went into effect, 
visa denials on public charge grounds have skyrocketed four-fold. Does 
the State Department maintain data concerning the number of visa 
denials under the ``public charge'' ground of inadmissibility broken 
down by racial or ethnic group, consular office, country of origin, or 
any other categories? If so, please provide those disaggregated figures 
to the Committee.
    Answer. At this time, given ongoing litigation regarding this 
matter, the Department cannot provide information that may be the 
subject of proceedings in that litigation.
    Question. Since the Foreign Affairs Manual change went into effect, 
visa denials on public charge grounds have skyrocketed four-fold. Has 
the State Department or individual subcomponents or units of the 
Department, including individual consular offices, disseminated 
additional guidance, instructions, memoranda, training, or other 
information regarding the application of the ``public charge'' ground 
of inadmissibility since January 20, 2017? If so, please provide those 
documents to the Committee.
    Answer. At this time, given ongoing litigation regarding this 
matter, the Department cannot provide information that may be the 
subject of proceedings in that litigation.
    Question. There have been reports that immigrants are turning down 
public benefits because of fear that they will face immigration 
penalties. Did the State Department weigh that risk when deciding 
whether to revise its Foreign Affairs Manual? Did it actually conduct 
any studies of the effect of its actions on families and children?
    Answer. At this time, given ongoing litigation regarding this 
matter, the Department cannot provide information that may be the 
subject of proceedings in that litigation.
    Question. Last month the U.N. concluded the 63rd Commission on the 
Status of Women, and adopted final agreed conclusions. The U.S. 
consistently advocated for removing references to sexual and 
reproductive healthcare from the outcome. This administration has 
argued they have other priorities, like economic empowerment and 
entrepreneurship. How can women develop and lead their own businesses 
and participate in the economy if they are not able to have autonomous 
control of their own bodies, supported by comprehensive access to 
sexual and reproductive healthcare?
    Answer. Protecting and respecting the sanctity of human life, 
empowering women, and valuing women's dignity are not mutually 
exclusive concepts. This Administration is committed to promoting 
economic opportunities for women and girls while protecting and 
respecting the sanctity of life around the globe.
    Question. Youth around the world and in the United States, face 
great challenges in terms of their sexual and reproductive health and 
rights, such as unintended pregnancies and gender based violence. 
Comprehensive sexuality education and the full range of healthcare 
services are critical to ensure that young people, including adolescent 
girls, can make informed decisions and lead healthy lives free of 
violence now and into their futures. The public is deeply concerned by 
U.S. statements last month at the U.N. Commission on the Status of 
Women falsely claiming that these programs promote abortion for teens, 
and that the U.S. was promoting ``abstinence only until marriage'' 
programs under the guise of ``sexual risk avoidance,'' when these 
programs are proven to be ineffective, medically inaccurate, 
stigmatizing and harmful to the health and rights of young people. How 
will you and future leadership at the U.S. Mission to the U.N. address 
this and ensure the U.S. is supporting evidence-based, medically 
accurate comprehensive sexuality education and sexual and reproductive 
health services for young people in future negotiations impacting the 
health and rights of young people?
    Answer. The United States fully supports culturally sensitive, age-
appropriate, optimal health-focused sex education that encourages 
parent-child communication. Moreover, as the world's largest bilateral 
funder of family planning, the United States remains committed to 
helping women and adolescents thrive.
    Question. The vast majority of U.S. assistance to the Northern 
Triangle does not go to the governments directly--instead, it goes to 
international organizations, non-profits and local civil society 
organizations that are working to build capacity and improve 
livelihoods on the ground. And these programs are working--for example, 
USAID's agricultural investments in Honduras have helped lift 90,000 
people out of extreme poverty. What is the rationale for cutting off 
funding that is going directly to assist these vulnerable communities? 
What improvements would the Administration like to see to these 
programs? Please provide specific examples.
    Answer. The Northern Triangle governments need to be more effective 
in preventing illegal immigration to the United States. We are actively 
engaging with the governments on additional steps they can take to 
improve border security; combat human smuggling and human trafficking, 
especially related to children; receive and reintegrate their returned 
citizens; and implement public messaging campaigns to dissuade illegal 
immigration to the United States. Likewise, we continue urging these 
governments to make needed reforms to improve citizen security, 
increase economic growth, improve democratic governance, and address 
corruption and impunity.

                          SUBCOMMITTEE RECESS

    Senator Graham. The subcommittee stands adjourned.
    [Whereupon, at 4:31 p.m., Tuesday, April 9, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
